<html>
<title> - STEROID USE IN SPORTS, PART II: EXAMINING THE NATIONAL FOOTBALL LEAGUE'S POLICY ON ANABOLIC STEROIDS AND RELATED SUBSTANCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





    STEROID USE IN SPORTS, PART II: EXAMINING THE NATIONAL FOOTBALL 
      LEAGUE'S POLICY ON ANABOLIC STEROIDS AND RELATED SUBSTANCES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2005

                               __________

                           Serial No. 109-21

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-242                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2005...................................     1
Statement of:
    Stewart, Willie, head football coach, Anacostia High School; 
      Bobby Barnes, head football coach, Buckeye Union High 
      School; Steve Courson, ex-NFL player, Pittsburgh Steelers 
      and Tampa Bay Buccaneers; Linn Goldberg, professor of 
      medicine, Oregon Health Sciences University; Gary I. 
      Wadler, associate professor of clinical medicine, New York 
      University School of Medicine; John A. Lombardo, NFL 
      advisor, anabolic steroids and related substances; and 
      Bryan Finkle, NFL consulting toxicologist on anabolic 
      steroids and related substances............................    34
        Barnes, Bobby............................................    37
        Courson, Steve...........................................    41
        Finkle, Bryan S..........................................    73
        Goldberg, Linn...........................................    47
        Lombardo, John...........................................    64
        Stewart, Willie..........................................    34
        Wadler, Gary I...........................................    55
    Tagliabue, Paul, commissioner, National Football League; 
      Harold Henderson, executive vice president, labor 
      relations, National Football League; and Gene Upshaw, 
      executive director, National Football League Players 
      Association................................................   112
        Henderson, Harold........................................   132
        Tagliabue, Paul..........................................   112
        Upshaw, Gene.............................................   134
Letters, statements, etc., submitted for the record by:
    Barnes, Bobby, head football coach, Buckeye Union High 
      School, prepared statement of..............................    39
    Courson, Steve, ex-NFL player, Pittsburgh Steelers and Tampa 
      Bay Buccaneers, prepared statement of......................    43
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    23
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Finkle, Bryan, NFL consulting toxicologist on anabolic 
      steroids and related substances, prepared statement of.....    76
    Goldberg, Linn, professor of medicine, Oregon Health Sciences 
      University, prepared statement of..........................    49
    Lombardo, John A., NFL advisor, anabolic steroids and related 
      substances, prepared statement of..........................    67
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina................................   180
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   179
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    30
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    19
    Stewart, Willie, head football coach, Anacostia High School, 
      prepared statement of......................................    36
    Tagliabue, Paul, commissioner, National Football League, 
      prepared statement of......................................   117
    Upshaw, Gene, executive director, National Football League 
      Players Association, prepared statement of.................   137
    Wadler, Gary I., associate professor of clinical medicine, 
      New York University School of Medicine, prepared statement 
      of.........................................................    58
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Letters dated April 26, 2005........................... 11, 168
        Prepared statement of....................................    14

 
    STEROID USE IN SPORTS, PART II: EXAMINING THE NATIONAL FOOTBALL 
      LEAGUE'S POLICY ON ANABOLIC STEROIDS AND RELATED SUBSTANCES

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Shays, 
Gutknecht, Souder, Duncan, Turner, Issa, Brown-Waite, McHenry, 
Dent, Waxman, Towns, Sanders, Cummings, Kucinich, Davis of 
Illinois, Clay, Watson, Lynch, Sanchez, Ruppersberger, Higgins, 
and Norton.
    Also present: Representatives Sweeney and Payne.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; Howie Dennis and Anne Marie 
Turner, counsels; Rob White, press secretary; Drew Crockett, 
deputy director of communications; John Cuaderes, subcommittee 
staff director; Susie Schulte, professional staff member; 
Teresa Austin, chief clerk; Sarah D'Orsie, deputy clerk; 
Kristina Sherry, legislative correspondent; Corinne Zaccagnini, 
chief information officer; Phil Schiliro, minority chief of 
staff; Phil Barnett, minority staff director/chief counsel; 
Kristin Amerling, minority deputy chief counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Brian Cohen, minority senior investigator and policy 
advisor; Earley Green, minority chief clerk; Jean Gosa and 
Teresa Coufal, minority assistant clerks; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. The committee will come to order.
    Good morning, and welcome to today's hearing on the 
National Football League and the use of performance-enhancing 
drugs. The purpose of this hearing is to consider the NFL's 
drug policy, how the testing policy is implemented, how it 
effectively addresses the use of prohibited drugs by players, 
and the larger societal and public health ramifications of 
steroid use.
    Fourteen years ago, anabolic steroids were added to the 
Controlled Substance Act as a Schedule III drug, making it 
illegal to possess or sell them without a valid prescription. 
Today, however, evidence strongly suggests that steroid use 
among teenagers, especially aspiring athletes, is a large and 
growing problem.
    The Centers for Disease Control and Prevention tells us 
that more than 500,000 high school students have tried 
steroids, nearly triple the number of just 10 years ago. A 
second national survey conducted in 2004 by the National 
Institute on Drug Abuse and the University of Michigan found 
that over 40 percent of 12th-graders described steroids as 
fairly easy or very easy to get. And the perception among high 
school students that steroids are harmful has dropped from 71 
percent in 1992 to 56 percent in 2004.
    The reality is parents today are in the unenviable position 
of having to add anabolic steroids and performance-enhancing 
drugs to their teachings on the dangers of recreational drug 
use. The Associated Press reported yesterday that an alarming 
number of American girls, some as young as 9 years old, are 
using steroids. Researchers say 7 percent of middle school 
girls--7 percent--admit to trying anabolic steroids at least 
once. Researchers also say that while most of these girls were 
looking to get more competitive on the playing field, some were 
just hoping to improve their appearance. Clearly it is time to 
discuss how we got there.
    In light of the societal impact of steroid use, the 
committee decided to launch an investigation into steroid 
policies of professional, amateur, collegiate and high school 
athletics. Last month we held our first hearing aimed at 
evaluating Major League Baseball's efforts to crack down on 
steroid use. After that hearing the committee sent letters to 
the NFL, National Basketball Association, National Hockey 
League, Major League Soccer, U.S. Soccer Federation, USA 
Cycling, USA Track and Field, and the Association of Tennis 
Professionals requesting information on their respective 
steroid policies.
    Today's hearing is based on the information provided by the 
NFL to the committee regarding its 2004 policy on anabolic 
steroids and other related substances.
    The dynamic is somewhat different from what we encountered 
at the Major League Baseball hearing. Major League Baseball and 
the Players Association greeted word of our inquiry first as a 
nuisance, then as a negotiation. In contrast, both the NFL and 
its players association have worked cooperatively with the 
committee to educate us about their policy and the proactive 
steps the NFL has continued to take with regard to steroid 
testing. We are appreciative of their cooperation and their 
responsiveness.
    Drug-testing experts have long hailed football's testing 
program as the top of the heap in professional sports. It's a 
policy that the league and players association review quarterly 
and improve upon annually. It's a policy that has evolved along 
with advancements in science and technology. It's a policy with 
tough penalties, and that's getting tougher all the time. But 
it's not perfect, and that's one of the reasons we're here 
today.
    The NFL's testing program has come under heightened 
scrutiny in recent weeks in the wake of news reports that three 
Carolina Panther's players filled steroid prescriptions within 
2 weeks of playing in last year's Super Bowl.
    Today we will ask some serious questions to find out if we 
can make a good policy even better. Most questions will focus 
on the what, how and the whens of the league's testing 
procedures.
    I think we will hear from the NFL and the players 
association about improvements they're making in their policy. 
I also hope they will address the steps they're taking to 
educate young people, especially young football players, on the 
dangers of steroid use; after all, that's why we have 
undertaken the investigation. More than just the reputation of 
baseball or football is at risk. Our primary focus remains on 
the message being sent to our kids, children who play football 
and baseball and basketball and soccer, children who idolize 
and emulate professional athletes.
    Too many college athletes believe they have to consider 
steroids if they're going to make it to the pros. High school 
athletes, in turn, think steroids might be the key to getting a 
scholarship. It's time to break that cycle, and it needs to 
happen from the top down.
    We will hear about the vicious cycle and the societal 
pressures that fuel it firsthand today from Bobby Barnes, head 
football coach at Buckeye Union High School in Arizona. Coach 
Barnes made the right decision: He suspended 10 of his players 
for using steroids. But some in his community criticized the 
move, and I can only wonder how we've arrived at a place where 
the drive to win is more important to some than not cheating or 
not risking permanent harm to your health.
    These hearings are the beginning, not the end. Today's 
hearing can give us important information about the prevalence 
of steroids in professional football, shine light on the 
sometimes tragic results of steroid use by young athletes, and 
offer thoughts on where to take our investigations next; 
thoughts from two high school football coaches with us today on 
how to steer kids away from steroids and what to do when young 
athletes fall victim to their allure; thoughts from medical 
experts about how to better educate all Americans about the 
very real dangers of steroid use; thoughts from the NFL and the 
players association on how one professional sports league is 
addressing this problem, and the need to continually revisit 
testing effectiveness over time.
    Our ongoing investigation already has spawned draft 
legislation offered by Mr. Waxman and myself that would create 
uniform testing standards for all major league sports and 
associations. We think this is a critical next step, and we 
hope to introduce the legislation soon. Senator John McCain is 
also working on legislation along these lines.
    But our job won't end when the bill becomes law. Public 
education and awareness will remain paramount. That's why I'm 
pleased that the advisory committee Mr. Waxman and I announced 
at the Major League Baseball hearing is beginning to take 
shape. The leagues and players associations are still 
discussing the nuts and bolts with each other, but with the 
leadership of Curt Schilling and Frank Thomas and other high-
profile athletes, I think the advisory committee can accomplish 
some great things, great things like getting more than 56 
percent of teenagers to understand steroids are harmful, like 
getting young girls to find healthy ways to enhance athletic 
performance or self-esteem. Like getting all sports leagues to 
acknowledge that their testing programs need improvement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.001
    
    [GRAPHIC] [TIFF OMITTED] T1242.002
    
    [GRAPHIC] [TIFF OMITTED] T1242.003
    
    [GRAPHIC] [TIFF OMITTED] T1242.004
    
    Chairman Tom Davis. I now recognize the distinguished 
ranking member, Mr. Waxman, for his opening statement.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    This is the second hearing in our committee on the issue of 
steroids and professional sports, and this hearing is very 
different from the first. A little over a month ago we looked 
at baseball's steroid policies, and Major League Baseball 
fought us every step of the way. When we finally got the 
league's policy, we found that it was surprisingly weak.
    The NFL has been different. They have cooperated with the 
committee from the start, and they have a very different 
steroid policy, too. There is no question that the NFL has a 
steroid program that is superior to the baseball program we 
examined at our last hearing. The NFL policy covers a broad 
range of steroids, and its testing is more extensive. And the 
NFL acted quickly to add substances like andro to its list of 
banned substances.
    This morning the NFL and the players' association will 
describe additional changes to their steroid policy. These are 
significant changes that will make a good policy better.
    But even the NFL policy--as good as it is--does have holes. 
I have questions about how the league treats human growth 
hormone. And the list of stimulants that the NFL tests is much 
shorter than the Olympic list. I hope we can explore these 
issues today.
    We also need to explore how the NFL steroid policy is 
working. The percentage of NFL players who test positive for 
steroids is very low. Is this because the policy is working, or 
is this because players have figured out how to avoid 
detection?
    Clearly there is evidence that some football players are 
trying to cheat the system. Last month 60 Minutes reported that 
three members of the Carolina Panthers filled prescriptions for 
testosterone before playing in the 2004 Super Bowl. The NFL 
testing program never caught any of these players. One possible 
explanation, they may have been carefully calibrating their 
dosage to stay below the detection threshold.
    In 2003, four members of the Oakland Raiders were found to 
be using a new type of steroid, THG, that was designed to avoid 
detection. We need to assess whether these are isolated 
exceptions or part of a broader pattern.
    As our committee continues its work, I think we should 
recognize some positive developments. We had a rocky start with 
Major League Baseball, but I am encouraged by our discussions 
with the Commissioner's office and players union since the 
hearing. Both are now working with us as we sort through the 
next steps.
    One issue that I raised with baseball I will raise again 
today; whether we should have a single tough standard for all 
professional sports leagues. To its credit, baseball has 
recognized the potential value of such an approach. Today we'll 
have an opportunity to learn what football and its players 
association think about this issue.
    I received a letter yesterday from nearly 100 high school 
baseball players in New York who were writing to tell me about 
a new organization they had formed. These were high school 
baseball kids, and they formed an organization called HATS, 
High Schoolers Against Taking Steroids. These young athletes 
signed a pledge not to use steroids because as they wrote--``We 
want to uphold the integrity and honor of the sport as 
representatives of our generation.''
    I would like to make their letter a part of the hearing 
record today.
    Chairman Tom Davis. Without objection, it will be entered 
into the record.
    [Note.--The signatures are on file with the committee.]
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.005
    
    [GRAPHIC] [TIFF OMITTED] T1242.006
    
    Mr. Waxman. These young members of HATS have the right 
idea, but they need our help. If steroids are condoned in 
sports, these aspiring athletes and others like them around the 
country will be put in a crushing competitive disadvantage. We 
in Congress and the representatives of professional sports 
testifying today have a responsibility to ensure that this 
doesn't happen.
    In closing, let me say that I look forward to the testimony 
today, and I want to commend Chairman Davis for his leadership 
in holding this hearing.
    Chairman Tom Davis. Thank you, Mr. Waxman. And I appreciate 
your initiating this as well.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.013
    
    [GRAPHIC] [TIFF OMITTED] T1242.014
    
    [GRAPHIC] [TIFF OMITTED] T1242.015
    
    [GRAPHIC] [TIFF OMITTED] T1242.016
    
    Chairman Tom Davis. Mr. Souder, the chairman of the 
subcommittee.
    Mr. Souder. I thank the chairman and ask unanimous consent 
to place my full statement in the record.
    I would just like to make a few comments. I want to thank 
the chairman and ranking member for holding this hearing.
    The first hearing we heard these constant critics about why 
you are focusing on baseball. Clearly we're trying to look at 
the steroid problem as a whole, but the NFL is not Major League 
Baseball. From his perspective, Ricky Williams would have been 
a lot better off playing baseball.
    We have huge problems in sports. Clearly we have problems 
that have already been alluded here in the NFL. But the 
problems here are how can we get a tough enough policy to 
adjust as the steroids and other body enhancers change their 
content; as they adjust, as we do testing, how can we do better 
targeting, how can we do this during the season, how can we do 
this in a logical way as the market adjusts because the 
incentives to cheat are overwhelming?
    Then as chairman of the Narcotics Subcommittee, and Ranking 
Member Elijah Cummings and I have been doing--last hearing I 
pointed out 27 hearings in 22 months, I think it was, but we've 
had multiple ones since then. And yesterday we focused on drug 
prevention and how we handle drug prevention budgets. And what 
we've seen is the use of steroids among professional athletes 
is alarming, but the trickle-down effect on our youth is huge; 
that the steroid use among 12th grade boys has been steadily 
increasing.
    Now, the most alarming thing that we look for in drug abuse 
is perception of risk, and one of the reasons we've made 
incredible gains in the last 12 months in States where 
methamphetamines have been used and so-called crystal meth is 
because we quickly communicate in those zones the perceived 
risk. And we've had a 38 percent reduction in meth once it hits 
the media, but then it moves to another market. And right now 
we're chasing meth across the country.
    In steroids, we have close to the lowest point ever in the 
perceived risk in high-schoolers of steroids. We have to change 
this perception. We could do drug-free schools programs, we can 
do prevention and treatment programs, we can have community 
action groups, but, in fact, if our professional athletes 
aren't clean, and the example they set is that if you cheat, 
you might make the SuperBowl, if you cheat, you might become 
most valuable player, that's going to trickle down to the guys 
who don't know if they quite have that edge.
    And this is very important as we pursue this and as today 
we continue along the line of how can we make these policies--
even when our heart is in the right place, how can we make them 
really effective so we don't get this inadvertent communication 
that undermines our ad campaign, that undermines everything 
else we're trying to do in drug abuse.
    I yield back.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.017
    
    [GRAPHIC] [TIFF OMITTED] T1242.018
    
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you, Mr. Chairman, for holding today's hearing examining 
the use of steroids in the National Football League and the 
effectiveness of the NFL steroid testing policy.
    Today's hearing reflects an understanding that professional 
sports, at their best, represent more than a game, but an 
expression of some of America's most revered principles. It 
tells us that we can achieve more together than we can alone, 
and that our drive and talent should be the only limitations to 
how high we can soar on the playing field or in life.
    Unfortunately, our first hearing on steroids use in sports 
served as a stark reminder of what happens when a professional 
athletic league, that is, Major League Baseball, fails to 
embrace the very values that make it America's pasttime.
    As ranking minority member on the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources, I work along with 
Chairman Souder frequently on issues related to U.S. drug 
control policy and public health. Although Schedule I 
substances are the primary focus of our oversight in our 
hearings, the dangers associated with substances on other 
schedules, such as steroids, are just as real.
    Even though some anabolic steroids have legitimate medical 
use, abuse of steroids by recreational users seeking increased 
muscle growth and enhanced athletic performance can result in 
serious health problems ranging from early cardiovascular 
disease to serious psychiatric side effects, including severe 
depression and even suicide.
    To minimize the dangers of illegitimate steroid usage, 
Congress added certain anabolic steroids to Schedule III of the 
Controlled Substances Act. Individuals possessing such drugs 
without a valid prescription are subject to a misdemeanor 
charge, while persons convicted of distributing, dispensing or 
selling these drugs are subject to a 5-year sentence for first 
offense. In other words, it is a crime.
    Unfortunately, today we find that the illegal use of 
steroids by professional athletes encourages the perception 
that steroid abuse is acceptable. I am here to tell you it is 
not. The private actions and personal choices of even a few 
elite players can reverberate into the lives of our young 
people. Let us not forget the families who testified before 
this committee about the suicide of their children after using 
steroids. They attributed their children's steroid use and 
subsequent deaths to the negative examples set by professional 
athletes.
    Unfortunately, while the world of professional sports is 
increasingly beset by allegations of steroid use among 
athletes, more families are confronting the use of performance-
enhancing drugs by their children. In just 10 years the 
percentage of U.S. high school students reporting steroid use 
has tripled, and experts believe that over 500,000 high school 
students have used steroids in some form. According to Centers 
for Disease Control, 1 in 45 high school students reported 
steroid use in 1993. By 2003, the figure was 1 in 16.
    Given these startling statistics, I was pleased to learn 
that the NFL maintains what is generally considered the most 
effective steroid testing policy in American professional 
sports. The NFL recognizes that steroid use among its players 
sends a dangerous message to our young people, undermines the 
credibility of the game, and violates the sanctity of our laws. 
This steroids testing policy includes penalties for steroid 
use, random year-round testing, and public disclosure for 
violations. In the past 5 years, only 0.5 percent of 15,000 NFL 
players have tested positive.
    However, while the NFL's drug testing policy is strong, it 
needs to be one of zero tolerance, and it needs to be air-
tight. NFL's policy fails to meet the Olympic standard in 
several key areas, from insufficiently prohibiting and testing 
stimulants to inadequately penalizing players who test 
positive. Allegations that the NFL steroid testing policy may 
be underestimating the scope of the problem must be considered 
in light of a recent 60 Minutes report that has already been 
mentioned where three Carolina Panthers obtained steroids 
before the 2004 Super Bowl and evaded detection.
    I repeat, the use of steroids is a crime, and the use of 
steroids is cheating. While I applaud the NFL for adopting a 
strict steroid policy, I will continue to push for zero 
tolerance. Mr. Chairman, we should not settle for a field goal. 
American families deserve a touchdown when it comes to a robust 
steroid testing policy in professional sports.
    And with that, I yield back.
    Chairman Tom Davis. Well, thank you very much.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1242.019

[GRAPHIC] [TIFF OMITTED] T1242.020

[GRAPHIC] [TIFF OMITTED] T1242.021

[GRAPHIC] [TIFF OMITTED] T1242.022

    Chairman Tom Davis. Let me ask, we've had the chairman and 
subcommittee chairman give long, lengthy statements. If Members 
would like to take a minute or two so we can move it along, 
that would be great. And everybody will get a chance to say 
something, and the entire statements will be in the record.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    I want to first thank the National Football League for 
being so cooperative in this hearing. It is very appreciated. 
And I thank you, Mr. Chairman.
    Young athletes are threatened by a cultural tsunami of 
explicit rewards and implicit tolerance for pharmaceutically 
enhanced performance. No testing policy, however tightly 
drafted or rigorously enforced, will turn back the tide that is 
already rising in our high schools and college playing fields 
across this Nation if we don't change the culture of drug 
tolerance.
    When an admitted steroid user gets taken in the first round 
of the NFL draft, and three players from a team competing in 
the Super Bowl allegedly obtain illegally filled steroid 
prescriptions from a doctor, it is clear a tougher policy is in 
order.
    Professional sports have to lead the way toward a societal 
policy of zero tolerance for chemical cheating. Professional 
athletes are role models for our student athletes, and until 
there is zero tolerance for the use of steroids in the 
professional ranks, there will continue to be steroids used in 
our schools.
    They can't hide behind internal work rules and penalties 
and ignore the broader impact of the win-at-all-costs culture 
they glamorize. Bottom line, baseball has five strikes and 
you're out; it appears that football has four strikes and 
you're out. I think it needs to be much less than that. Thank 
you.
    Chairman Tom Davis. Thank you very much.
    Any statements? Mr. Lynch.
    Mr. Lynch. Mr. Chairman, at the outset I just want to thank 
you, as well as Ranking Member Waxman, for your leadership on 
this issue.
    I think this series of hearings has assisted greatly in 
bringing the issue of steroid abuse from the shadows of society 
to the attention of the media and general public. As is often 
the case, any potential legislative response to this problem 
must also include an educational component regarding the nature 
and the scope of steroid abuse for society, as well as for 
professional sports.
    Mr. Chairman, I read recently that there is evidence now 
that even young girls and young women have turned to steroid 
use for weight control and physique enhancement. In light of 
this and other reports indicating that steroid use among our 
young people, including those who are not athletes, has risen 
dramatically during the last decade, part of our role here must 
be to inform the public in the process in which we are, 
ourselves, informed.
    In addition, I'd like to thank the witnesses for their 
assistance in this effort, and I wish to express my 
appreciation for Commissioner Tagliabue, and particularly Gene 
Upshaw from the players union. As a former president of the 
Iron Workers Union in Boston, I have negotiated a number of 
collective bargaining agreements, and with respect to the issue 
of drug abuse, I have always felt that the establishment of a 
clear and no-nonsense, reliable drug-testing protocol not only 
served the best interests of the workplace, but was also 
essential in terms of setting the bounds of acceptable behavior 
beyond work. And I compliment Mr. Upshaw on a job that cannot 
be easy.
    And from what I have seen, Mr. Upshaw's tenure as head of 
the NFL Players Association has been marked by a proactive and 
cooperative approach, unlike baseball, to protecting his 
players from harmful consequences associated with the use of 
performance-enhancing substances. However, in turning to the 
specifics of the NFL's 2004 policy on anabolic steroids and 
related substances, while I agree with the chairman's 
assessment that the NFL has done a better job than Major League 
Baseball on policing the steroid abuse, I must admit that the 
bar was set exceedingly low.
    While I would like to believe that the problem of steroid 
abuse in football has been eliminated--limited to a small 
number of players, I am not yet convinced. I believe there is 
evidence that chemists and so-called steroid designers have 
become more creative. We also know that testing for the abuse 
of human growth hormone has not been addressed by the league, 
and that no firm timetable has been set for the implementation 
of blood testing that would be required.
    In addition, in contrast to the World Anti-Doping Agency's 
inclusion of about 40 stimulants in its Olympic Code, the NFL 
steroid policy bans only eight.
    Now furthermore, I'm also concerned by the statements of 
some former players indicating that today's NFL athletes can 
and are gaming the system of testing protocols that are 
currently in place. And we cannot ignore the fact that, 
according to recent statistics provided by the media, while 
only five players in the NFL were over 300 pounds in 1985, by 
2003 there were 327 players in the league over 300 pounds. That 
is an increase of over 6,000 percent in the span of 18 years. 
And it's my understanding that currently the average NFL 
offensive tackle now weighs over 300 pounds, that's the 
average.
    It is not only that the average player is bigger, but that 
a very cursory review of the data also suggests that unlike the 
rest of the population, including players of an earlier era, a 
phenomenon is developing among a certain segment of players in 
the NFL suggesting that the time of which these players have 
experienced this growth spurt has actually shifted, and while 
the evidence is largely, at this point, anecdotal, it is 
troublesome, and I would recommend that we as a committee take 
a closer look.
    And last, but important, I believe that if this committee 
is serious about investigating steroid use among football 
players today, well, we should probably start by talking to 
some of today's football players. And regrettably, today's 
witness list affords this panel an extremely limited 
opportunity in that respect. It would appear that the 
investigation today will receive testimony from a player's 
perspective that begins in 1967--if you count Mr. Upshaw's 
arrival on the scene--and it ends in 1985 with Mr. Courson's 
retirement. Now that's it, from 1967 to 1985; that's what we're 
going to hear player testimony, actual player testimony. And I 
for one think that what happened in the NFL in the intervening 
20 years is very important and quite relevant to this 
investigation. This is a glaring gap, especially given the 
depth of the recent hearings with Major League Baseball, and I 
think this defect, if it is not cured, will lead the public to 
come to question the commitment, thoroughness and fairness of 
this committee in this process in general.
    Mr. Chairman, I look forward to the testimony of our 
witnesses, and I yield.
    Chairman Tom Davis. Thank you.
    Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman. And thank 
you for holding this important hearing.
    The issue here is not just what the NFL is doing, what 
Major League Baseball is doing within their own organizations, 
as important as that is, but it is, in fact, more important is 
that for better or for worse, major league athletes, 
professional athletes, are role models to tens of millions of 
kids. Kids look up to them, and increasingly, as we all know, 
for worse, not for better, we are in a culture, whether it is 
politics, whether it is athletics, where winning is everything, 
and it's not how you play the game, but who ends up with the 
Super Bowl. And if you cheat and if you lie and if you do all 
kinds of bad things, that's OK as long as you win.
    And what ends up happening is that mentality trickles on 
down to kids who are in elementary school, little girls who do 
gymnastics, and they look up and they see professional 
athletes, strong, tough fantastic athletes, and they say, I'm 
going to do what those athletes are doing, even if it endangers 
my health.
    And you see coaches at the high school level who get 
tremendous community pressure, you've got to within the 
championship in your local athletic league, and look away if 
some of your kids are doing illegal drugs.
    So there is an enormous responsibility on those 
organizations like the NFL or Major League Baseball and others 
for doing what is right not just for your own athletes, but for 
millions of American kids.
    So today I thank the chairman and ranking member for 
holding this hearing. It is very important for us to see what 
the NFL, certainly one of the major sports organizations in 
this country, is doing to not only protect its own players and 
its own integrity, but what they are doing, in essence, for 
millions of young people in this country.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Bernard Sanders follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.023
    
    [GRAPHIC] [TIFF OMITTED] T1242.024
    
    [GRAPHIC] [TIFF OMITTED] T1242.025
    
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. And I believe that 
every parent in America would want to thank you and the ranking 
member for the way in which you have brought this subject into 
the open so that all of us collectively can do something about 
it.
    I appreciate that Major League Football is here and has 
been cooperative, and I particularly want to welcome Mr. Willie 
Stewart from our own Anacostia High School here in a tough 
neighborhood in the District of Columbia where youngsters would 
be especially likely to look up to football players. You've got 
a good winning record as well.
    Mr. Chairman, you began with what I used to say when I was 
a Chair of the Equal Opportunity Commission; you said, we begin 
with the worst first, because that leads others to believe that 
they better fall into line before we get to them, and you did 
that when you and the ranking member began with baseball. Now 
we have come to the best, but not the best it can be.
    I appreciate that football has long been doing some random 
testing on and off season. The nearly perfect record would lead 
one to believe that you have not kept ahead of the 
extraordinary advances in steroid development and detection. 
The pressures on the players simply cannot be discounted. The 
culture which reinforces the pressure on them, which comes from 
the fans, comes from the country, comes from everyone, cannot 
be underestimated. How to break through that.
    There are real gaps, you've heard some of them from my 
colleagues, insufficient coverage even in what you've done in 
amphetamines, lack of testing of human growth hormone about 
which our youngsters hear so much about these days. And I use 
one standard through these hearings, and that is, what are we 
doing this for? And we're doing this basically because we're 
concerned about what is happening to young people, about the 
liver damage and the early heart damage and the horrible role 
model that professional athletes set.
    So I exercise a presumption that American sports should 
follow the policy America has insisted upon at the Olympics; 
perhaps that's a rebuttable presumption, but it seems to me 
that if that's the policy that we have insisted upon for the 
world, then it's very hard to understand why that policy would 
not be the same policy we brought home to America.
    Thank you very much once again, Mr. Chairman.
    Chairman Tom Davis. Well, thank you very much.
    We have a vote under way in the House, but we're going to 
keep the hearing going. Mr. Shays is over there voting and 
coming back. We may have a picture of the House, and Mr. Waxman 
and I just said we will forgo the picture this year. This is 
important for us, so we will try to keep the committee hearing 
moving.
    We are just really pleased with our opening panel today. We 
have Willie Stewart, the head coach of Anacostia High School 
right here in Washington, DC. Congratulations on your 
successful season, and thanks for being with us.
    We have Bobby Barnes coming here from Buckeye Union High 
School in Arizona. Thank you very much for being here.
    Steve Courson, former NFL player with the Pittsburgh 
Steelers and the Tampa Bay Buccaneers. Steve, thanks for being 
with us today.
    Linn Goldberg, professor of medicine, Oregon Health 
Sciences University. Thank you for being with us.
    Gary Wadler, the associate professor of clinical medicine 
at New York University School of Medicine. Thanks for being 
with us.
    Dr. John Lombardo, NFL advisor on anabolic steroids and 
related substances.
    And Dr. Bryan Finkle, NFL consulting toxicologist on 
anabolic steroids and related substances. Thank you both for 
being with us.
    We are the major investigative committee in the House, so 
it is our policy that we always swear everybody in. So if you 
would just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Coach Stewart, we'll start with you.

 STATEMENTS OF WILLIE STEWART, HEAD FOOTBALL COACH, ANACOSTIA 
 HIGH SCHOOL; BOBBY BARNES, HEAD FOOTBALL COACH, BUCKEYE UNION 
HIGH SCHOOL; STEVE COURSON, EX-NFL PLAYER, PITTSBURGH STEELERS 
AND TAMPA BAY BUCCANEERS; LINN GOLDBERG, PROFESSOR OF MEDICINE, 
 OREGON HEALTH SCIENCES UNIVERSITY; GARY I. WADLER, ASSOCIATE 
 PROFESSOR OF CLINICAL MEDICINE, NEW YORK UNIVERSITY SCHOOL OF 
MEDICINE; JOHN A. LOMBARDO, NFL ADVISOR, ANABOLIC STEROIDS AND 
     RELATED SUBSTANCES; AND BRYAN FINKLE, NFL CONSULTING 
    TOXICOLOGIST ON ANABOLIC STEROIDS AND RELATED SUBSTANCES

                  STATEMENT OF WILLIE STEWART

    Mr. Stewart. Good morning to the Committee on Government 
Reform.
    For the record, I want to state that I do not support 
steroid use by student athletes. On the high school level, the 
majority of student athletes want to attend a Division I 
school, so the student athlete feels he needs to use 
performance-enhancing drugs to become bigger, stronger and 
faster; in other words, some student athletes want a quick fix. 
Unfortunately, there are no quick fixes, meaning down the road 
the student athletes who use performance-enhancing drugs are at 
risk for premature heart attacks, strokes, liver tumors, kidney 
failures, and other health complications. Really, the long-term 
effects of this drug use outweighs the immediate athletic 
advantage the student athlete achieves.
    There were two instances in which I suspected steroid use 
by two of my football players. I noticed an increase in weight 
and size. First I questioned them; I then established a 
counseling program in which a physician, nurse and athletic 
trainer discussed the ramifications of steroid use. One of the 
two student athletes I suspected of using performance-enhancing 
drugs died 2 weeks ago of kidney failure. He was only 28 years 
old. His death was just a waste of a human life.
    Student athletes look up to the pro athlete as a role 
model. They see themselves in the same position in a few years. 
The clothes, the automobiles, the wealth and prestige are the 
assets they seek. Given the seriousness of this issue, I urge 
coaches to get involved in educating student athletes about 
steroid use, as well as encouraging them to engage in strength 
training through the normal progression.
    And I thank you, Mr. Chairman, for inviting me this 
morning. Thank you.
    Mr. Shays [presiding]. We thank you, too, sir.
    [The prepared statement of Mr. Stewart follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.026
    
    Chairman Tom Davis. Mr. Barnes, you have the floor.

                   STATEMENT OF BOBBY BARNES

    Mr. Barnes. Members of this committee and Mr. Vice 
Chairman, I first would like to say that I am very humbled that 
any member of this committee would consider what I have to say 
to be of importance. In no way do I consider myself to be an 
expert on steroids. I have my thoughts on what has created the 
current situation as it relates to high school kids in general, 
but my testimony is truly only personal experience and opinion.
    Our experience may not have as much relevance as you would 
hope, but I do believe some of the core problems of our 
experience are universal and not related to just our community. 
I believe I could best serve this committee by answering your 
questions; however, I will try to give a sufficient accounting 
of my thoughts through this presentation.
    There is a great deal of blame to pass around as to what I 
feel has contributed to the problem. If I were pressed to give 
a single most important problem at the high school level, it 
would be the loss of accountability for our actions and 
accepting the blame for the choices that we make. Parents are 
not the sole blame for the final actions of their children, but 
they are the start of holding their kids accountable. There are 
those who sadly make excuses for their kids and point fingers 
elsewhere. Coaches are culpable in their drive for success 
measured by winning at all costs. The prevailing attitude in 
many schools is don't ask and don't tell.
    I believe in our profession, but I know that in many walks 
of life there will always be those that do not do the right 
thing. Peers place a great deal of pressure on those that might 
not try steroids, but for as long as there has been a gathering 
of youth, peer pressure has played a part in doing the wrong 
thing.
    This brings me to society today and role models. I cannot 
speak for the young men who have used steroids to enhance 
athletic ability, but it is my belief that our kids did not try 
steroids simply because some professional athlete had. It is my 
opinion they were just trying to get bigger, faster and 
stronger the easiest and fastest way they knew how. I 
considered their actions selfish and ill-advised.
    In looking at all the circumstances, I believe they never 
felt that what they were doing was anybody's business, and I 
feel they never worried about consequences. This area of 
consequences is very much a touchy subject for me, and I 
believe this is where I have the most to say to this committee.
    Almost daily we see and hear through the media that a 
professional athlete has admitted to or is believed to have 
used illegal drugs for the purpose of enhancing physical 
ability to perform, yet to this date the consequences of their 
actions have been mostly verbal. I do not wish any professional 
athlete to be made an example of, but if this committee and 
professional sports wants to see results, they must come up 
with a comprehensive punishment where the youth of today will 
see that all levels answer for their actions.
    Our kids were given felony charges and dismissed for the 
remaining seven games of their season. A school within a few 
miles of our community caught football players admittedly using 
illegal substances, and they were suspended for two games and 
had no felony records. I do not believe that our kids or theirs 
should have been given felony charges; however, our school 
followed school policy clearly known by our kids, and I assume 
the police filed charges based on the law.
    There must be a clear consequence at all levels so that 
they do fear not only for their health and safety, but also for 
what will be the end result of their actions. Thank you.
    Mr. Shays. Thank you, Mr. Barnes.
    [The prepared statement of Mr. Barnes follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.027
    
    [GRAPHIC] [TIFF OMITTED] T1242.028
    
    Chairman Tom Davis. Mr. Courson.

                   STATEMENT OF STEVE COURSON

    Mr. Courson. First of all, it's really a privilege to be 
asked to be here to talk to you people today. I come from a 
very unusual background in this dilemma that we're talking 
about. I've been a professional athlete, arguably part of one 
of the greatest football teams in NFL history; a strength 
athlete, steroid user, high school coach; and I have also given 
hundreds of steroid prevention seminars in high schools, junior 
high schools and colleges.
    What we're looking at is a very unpleasant reality of 
modern sport. It is something that I believe is as much 
societal as anything else.
    When we talk about the health effects of these drugs, I 
myself have had some heart problems. I was on a heart 
transplant list for 3\1/2\ years, so I've had time to 
contemplate some of my discussions very deeply, and fortunately 
through diet and exercise, I have been able to completely 
reverse the symptoms of my illness. But when we talk about 
health effects, even my health effects and my heart problems, 
one of the problems is our lack of long-term research. And Lyle 
Alzado, former Oakland Raiders star, and myself, I am very 
suspicious of anabolic steroids' relationship to my illness, 
and I will tell you why.
    If you understand heart disease, extreme heavy body weights 
are a heart risk factor, and I feel some of the body weights in 
professional sports today, some of these people are going to be 
facing some serious health consequences later in life, 
especially if they don't lose weight once they get done 
playing.
    I would also like to talk about the health effects that 
affect children in particular. Stunting of linear bone growth 
is probably the No. 1 thing that I talk about when I do 
seminars to kids. We've seen the statistics among 8th-graders; 
we're talking some studies saying 80,000 8th-graders. If you've 
ever looked at the faces of 8th-graders and try to imagine the 
fact that they're taking steroids, it's a very sobering 
experience.
    As far as the NFL goes, anabolic steroid use, to the best 
of our knowledge, started back in the 1960's. In the 1970's, it 
is probably fair to say that every team had a certain amount of 
anabolic steroid use. At this time this was a result of the 
competitive aspects of football, the fact that people were 
looking for an advanced training way to make themselves better, 
bigger, faster and stronger. Again, I can't underline the 
competitive nature of the sport, it's just the way it is.
    But I think what the NFL has done, and to their credit, 
Bill Fralic and the NFL Players Association in 1989 approached 
Commissioner Rozelle and they approached Commissioner Tagliabue 
about instituting random drug testing in sport. And the NFL 
responded, creating the most stringent policy of testing in 
professional sports as we know it. The question is, is it 
enough? And I think the BALCO investigation has shown us that 
there are holes in drug testing, as there are holes with the 
example of the Carolina Panthers. These we need to work to 
close.
    When it gets down to adolescence, when you think about 
dealing with this, I would like to be solution-oriented. I 
think there are things that we can do to help the adolescent 
problem. I think, No. 1, we need to develop a uniform high 
school steroid policy that everybody follows. I think No. 2, we 
need research on improving drug detection, research on long-
term health effects. And I would also basically encourage 
legislation to prevent the nonmedical use of genetic 
engineering and gene doping before it becomes a problem.
    I'd like to end with one statement. I've given hundreds of 
lectures and seminars in schools, and the most asked question I 
get from kids at the end of my seminars is--far and away what 
they ask me the most--they ask me, do I think I could have made 
it in the NFL without drugs, and I think that should tell us a 
lot. Thank you.
    Mr. Shays. Thank you all for your very honest and helpful 
testimony.
    [The prepared statement of Mr. Courson follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.029
    
    [GRAPHIC] [TIFF OMITTED] T1242.030
    
    [GRAPHIC] [TIFF OMITTED] T1242.031
    
    [GRAPHIC] [TIFF OMITTED] T1242.032
    
    Mr. Shays. Dr. Goldberg.

                   STATEMENT OF LINN GOLDBERG

    Dr. Goldberg. Mr. Vice Chairman and committee members, I am 
honored to participate in this important hearing. I am 
professor of medicine at the Oregon Health and Science 
University, and codeveloper of the NIDA-sponsored drug 
prevention and health promotion programs entitled ATLAS and 
ATHENA for young athletes.
    Over 50 percent of students participate in school sports, 
and many feel pressured to perform at a high level. The CDC 
reports approximately 1 million adolescents have used or are 
using anabolic steroids, and the latest University of Michigan 
data reveals past-year steroid use among 12th-graders has never 
been higher.
    As you've heard, steroid use can have significant harmful 
effects, including stunted height for growing adolescents; 
cardiovascular, kidney, liver disease; clotting disorders; and 
tumor growth. There can be devastating psychological 
disturbances, and, for females, usually lead to permanent 
development of male characteristics.
    Research has shown certain factors promote or prevent 
adolescent use of anabolic steroids. Because factors vary by 
age and gender, a prevention cannot be a one-size-fits-all 
approach. Those influences include behaviors of high-profile 
athletes, media images in advertisements, and, most important, 
family, peer and coach attitudes and practices. Because teenage 
habits cluster, those who use steroids are more likely to use 
alcohol and other drugs.
    With professional and Olympic athletes, what they do does 
matter. When Ben Johnson broke the 100-meter world record at 
the Seoul Olympics, teen athletes reported that Johnson's use 
of steroids positively influenced them to use these drugs in 
the future. After Mark McGwire's use of steroid precursor 
androstenedione was publicized, identification with Mr. McGwire 
was strongly associated with intended use of that steroid 
hormone. At the same time, reports revealed quadrupling of 
andro sales, and national data showed steroid use to increase 
among America's youth.
    Professional sports policies can influence performance-
enhancing drug use. While the NFL does have a strong in-season 
steroid policy and exemplary lab to perform tests, the 
unfairness of its preseason consequences which allow athletes 
to continue participating while on steroids and lack of draft 
status impact when an athlete tests positive combined could 
encourage others to use drugs to enhance their chances to make 
an NFL team. Furthermore, the lack of game-day testing and the 
short list of stimulants are weaknesses in the policy.
    Images influence behavior as well. Each children's toy, 
from GI Joe figures to comic strip characters, have had 
makeovers reflecting unrealistic muscular body types. The 
blatant advertising tactic using the term ``on steroids'' used 
to market products from automobiles to running shoes is a 
strategy suggesting that their product is so superb, it's 
similar to being on steroids. No other drug would be used in 
this egregious fashion.
    Some coaches and administrators deny this problem exists. 
When we surveyed coaches about the use of steroids among their 
athletes, their response was, ``Not in my school.'' Coaches 
reported that steroid use occurred, but only at other schools. 
Recently a mother who reported learning of steroid use at a 
Texas school was derided by the coach. School officials did 
nothing until nine athletes confessed to use. A Connecticut 
high school football coach said he feared pressure on his 
football players was causing some to make unhealthy choices. 
Last month six athletes in his school, including those on the 
championship football team, were arrested for steroid use and 
distribution. Despite this, the school superintendent said, 
``This is not something I believe is a problem on our football 
team.''
    So how can drug use in teen sports be prevented? In 
addition to drug-free role models and national campaigns, there 
needs to be a local approach to provide schools with the 
necessary tools. With NIDA funding and working with dedicated 
coaches and students, we created and studied the ATLAS and 
ATHENA programs. These gender-specific, peer-taught and coach-
directed programs help students discover how to achieve their 
athletic goals using sports nutrition and strength training, 
and how to avoid steroids and other health-harming substances. 
We found ATLAS and ATHENA-trained students reduced their 
performance-enhancing drug use, including steroids; reduced 
alcohol and illicit drugs; lowered drinking and driving; and 
enhanced health behaviors.
    Last October, Congress amended the Controlled Substances 
Act, listing ATLAS and ATHENA as national models. Although 
funding for steroid education is present in that 2004 act, 
those funds have yet to be appropriated.
    School sports provide an opportunity to influence health 
behavior. Deterring steroid use and other use requires 
exemplary role models, insightful school administrators, 
educated coaches and science-based programs that are proven to 
work. This will create a positive team environment and promote 
healthy, well-adjusted young athletes for the future.
    Mr. Shays. Thank you, Dr. Goldberg.
    [Note.--The pictures are on file with the committee.]
    [The prepared statement of Dr. Goldberg follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.033
    
    [GRAPHIC] [TIFF OMITTED] T1242.034
    
    [GRAPHIC] [TIFF OMITTED] T1242.035
    
    [GRAPHIC] [TIFF OMITTED] T1242.036
    
    [GRAPHIC] [TIFF OMITTED] T1242.037
    
    [GRAPHIC] [TIFF OMITTED] T1242.038
    
    Chairman Tom Davis. Dr. Wadler.

                  STATEMENT OF GARY I. WADLER

    Dr. Wadler. Thank you, Mr. Chairman. I welcome this 
opportunity to appear again before this committee as you 
further explore the issue of performance-enhancing drugs in 
professional sports and its impact on the youth of America.
    I am especially privileged to appear on this panel with two 
other physicians with whom I have collaborated in the past and 
for whom I have the highest regard, Dr. John Lombardo and Dr. 
Linn Goldberg.
    As you may recall my credentials in antidoping, I represent 
the United States as an unpaid member of the World Ant-Doping 
Agency's Prohibited List and Methods Committee.
    Last month, both in my prepared statements and in response 
to questions by this committee, I addressed a number of 
deficiencies that exist in Major League Baseball's drug policy. 
Today I would like to explore with you some observations 
concerning the policy of the National Football League. Before I 
do so, I would like to state that, in my view, the NFL's drug 
policy is the most comprehensive of the four major professional 
sports leagues in the United States. But that does not mean 
there is no room for improvement. And I am confident that the 
National Football League and the National Football League 
Players Association would agree with me on that point.
    For years the NFL's program has closely paralleled that of 
the Olympics, and for that I commend them. However, since 1999, 
the antidoping landscape has undergone a sea change, especially 
with the establishment of the World Anti-Doping Agency [WADA], 
and with the adoption of the World Anti-Doping Code.
    In the past 6 years, we have witnessed unprecedented 
changes of antidoping initiatives around the world. Now, as 
evidenced by these hearings, it's time for the major 
professional sports leagues in the United States to follow 
suit.
    Many of the best elements of the historic Olympic 
antidoping programs have been incorporated into the World Anti-
Doping Code. Similarly, many of the successful and innovative 
elements, the core of the current National Football League 
program, should be preserved and integrated into a more 
contemporary policy. As I articulated during the Major League 
Baseball hearings, it is my belief that the World Code and its 
international standards should serve as the backbone of 
enhanced policies and programs in professional sports. The 
World Code is the gold standard.
    I fully recognize that the NFL's current policy is not only 
a product of the league's unique history on antidoping, but it 
also is a result of the collective bargaining process. That 
being said, having the World Anti-Doping Code as the backbone 
of the enhanced NFL policy would only serve to further NFL's 
commitment to antidoping.
    Having participated in the drafting of the World Code and 
its list of prohibited substances, both of which I distributed 
to this committee when I last appeared, I would like to 
emphasize there can be no shortcuts in documenting the league's 
antidoping policies, technical standards, or list of prohibited 
substance and methods. Simply stated, a detailed and very 
detailed written policy as exemplified by the World Code is in 
the best interest of both the players and the league. 
Recognizing the delicate balance that exists between drug-free 
sport and the protection of athletes' rights, there can be no 
room for ambiguity and misinterpretation as doping cases are 
adjudicated.
    Time does not permit me to detail all the specific issues I 
believe need to be addressed in the NFL's current policy; 
therefore, I will highlight but a few, and I'm sure others will 
surface during the questions and answers that follow this 
panel's opening statements.
    With respect to the prohibited list, I believe the NFL and 
other major sports should adopt WADA's list as their own. 
Regarding the NFL's current list, I would like to direct your 
attention to the section entitled ``Certain Stimulants'' on 
page 12 of the 2004 National Football League Policy and 
Anabolic Steroids and Related Substances, hereinafter ``the 
Steroid Policy.''
    As you may recall, I expressed serious concern that Major 
League Baseball had omitted stimulants such as amphetamines 
from its list of prohibited substances. In my judgment, the 
NFL's steroid policy, as it relates to stimulants, also needs 
to be revisited and revised. For example, the policy tends to 
omit the strongest stimulants such as amphetamine, yet it 
includes substances such as the very mild stimulant synephrine, 
which still remains categorized as a dietary supplement in the 
United States. In fact, of the eight stimulants prohibited by 
the NFL in its 2004 steroid policy, two are not banned by the 
World Anti-Doping Agency, while two others are only prohibited 
while consumed in large quantities.
    It is odd that the NFL policy groups these weak stimulants 
together with anabolic steroids, potentially subjecting an 
athlete to a four-game suspension for taking them. By contrast, 
WADA prohibits more than 40 stimulants, most of which are more 
potent as performance-enhancing drugs than the stimulants 
banned by the NFL's 2004 steroid policy.
    Furthermore, unlike the NFL's steroid policy, WADA only 
bans stimulants in competition because of their short duration 
of action. However, recognizing that certain stimulants such as 
methamphetamine, cocaine and ecstasy are clearly drugs of abuse 
and are not used to enhance performance, compelling arguments 
can be made to treat those stimulants as drugs of abuse.
    Offenders would face different consequences as set forth in 
the NFL's other drug policy entitled the 2004 policy and 
program for substances of abuse.
    However, the converse is also true. That is, if a 
particular stimulant is primarily used as a performance-
enhancing drug, it should be so categorized and its abuse 
should carry the same sanctions that are associated with the 
use of other performance-enhancing drugs.
    Another subject worthy of consideration by the NFL is the 
concept of therapeutic-use exemptions. WADA has published an 
international standard and established a process that allows 
for precompetition approval for the use of a drug otherwise 
deemed performance-enhancing. Under rigorous medical 
supervision, this standard allows athletes with legitimate 
medical needs to receive proper treatment without fear of a 
failed drug test.
    Currently, the NFL's steroid policy as I understand it 
grants such approvals only after the fact. In my judgment, the 
NFL should adopt WADA's therapeutic-use standard in its 
entirety, thereby according greater clarity, transparency and 
accountability.
    Two additional subjects I would like to briefly address in 
my opening statement relate to two anabolic agents, 
testosterone and growth hormone. The recent revelations 
regarding the use of testosterone by a number of Carolina 
Panthers provides me with the opportunity to emphasize to this 
committee that our limitations in antidoping in great measure 
can be attributed to either, one, limitations of policy and/or 
to, two, limitations of science. Currently, to test for doping 
with testosterone, we employ the T/E ratio method, that is, 
examining the ratio of testosterone to epitestosterone. The NFL 
has recently revisited its standard and adopted one implemented 
this year by WADA, effectively lowering the threshold for a 
positive test from 6:1 to 4:1. This represents a change in 
policy. The same subject, doping with testosterone, has also 
been addressed by the development of alternative technology 
that does not use a T/E ratio. This technology is called 
isotope ratio mass spectrometry, and it represents a change in 
science. As new drugs and methods appear that lend themselves 
to doping, the challenges to both science and policy will 
become all the greater.
    As my statement draws to a close, I would like to strongly 
encourage the NFL to implement blood testing, particularly for 
the detection of growth hormone abuse. Sadly, growth hormone is 
increasingly being marketed to young people on the Internet 
from sources around the globe. This is an increasingly serious 
health concern. Whether the abuse of growth hormone actually 
increases strength, improves recovery time or just increases 
one's size, there is a prevailing perception by users that it 
is performance-enhancing. By implementing blood testing, the 
National Football League can send a powerful message both to 
its players and to its fans that such behavior is contrary to 
the spirit of sport and represents a dangerous threat to the 
public health.
    Finally, I would like to reiterate that, in my opinion, the 
complexity of antidoping does and will continue to exceed the 
capacity of professional sports leagues to design, implement 
and monitor an effective, transparent and accountable program. 
Professional sports leagues should heed the experience of the 
Olympic movement, which recognized its credibility was 
compromised by doping. By passing the antidoping baton to WADA 
and to national antidoping agencies like USADA, Olympic 
organizers have been able to focus their attention on fielding 
great events rather than on drug science and policy. With the 
multidimensional problem of doping becoming increasingly 
complex, with gene doping and sophisticated new drug delivery 
systems lurking in the not-too-distant future, such a 
proposition seems not only practical but inevitable. I look 
forward to your questions and comments and thank you very much.
    [The prepared statement of Dr. Wadler follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.043
    
    [GRAPHIC] [TIFF OMITTED] T1242.044
    
    [GRAPHIC] [TIFF OMITTED] T1242.045
    
    [GRAPHIC] [TIFF OMITTED] T1242.046
    
    [GRAPHIC] [TIFF OMITTED] T1242.047
    
    [GRAPHIC] [TIFF OMITTED] T1242.048
    
    Chairman Tom Davis. Thank you very much.
    Dr. Lombardo.

                   STATEMENT OF JOHN LOMBARDO

    Dr. Lombardo. I would like to thank Mr. Davis, Mr. Waxman, 
Mr. Shays and the rest of the committee for giving me the 
opportunity to speak today.
    Since my graduation from medical school, I have had the 
opportunity to work as a team physician at the high school, 
collegiate and professional level, and I've served as an 
adviser to the NCAA, the USOC and the NFL on various issues. As 
a practicing physician for over 27 years, I have viewed 
firsthand the problems with the trends and issues concerning 
performance-enhancing drugs and substances by athletes and 
nonathletes of all ages. I appreciate the opportunity to share 
my thoughts with you concerning these performance-enhancing 
substances and the NFL's role in decrying and deterring their 
use within the league and by all athletes and nonathletes of 
any age. There is a segment of our society who searches for the 
quick fix, fast-food answer and the magic pill to cure all our 
ills. They want to overcome all their obstacles and genetic 
deficiencies with some type of pill or medication. Winning is 
the only goal that satisfies these people, they are prepared to 
win at all costs, and to them, the end justifies the means. My 
judgment and education has told me that the end-justifies-the-
means philosophy leads to chaos, and that's where it will lead. 
Performance-enhancing substances can be a staple in such an 
environment. With the popularity of athletes at all levels and 
the rewards to be gained, increasing adulation among friends, 
family, fans and the media, the use of performance-enhancing 
substances by athletes can be very understandable.
    However, the use of these substances does not affect only 
the one person that uses them. These are coercive. By that I 
mean that if one person takes these substances, they force 
other people in order to compete with them to take them also. 
That is the real problem with these drugs. It is their coercive 
nature and the way they force people to do things that they 
otherwise do not want to do.
    On the other side, there are risks to being exposed as a 
cheater, being sanctioned, losing a medal or facing adverse 
effects from these drugs. These may very well pale in 
comparison to the young athlete or any athlete to the potential 
positive rewards that the athlete sees. Although we may all 
understand the athlete's choice to use these substances and the 
reason they do it, we can never allow this to become an 
acceptable procedure. The adverse medical effects of anabolic 
steroid use can be seen in a number of systems. They affect the 
cardiovascular system, the immune system, the musculoskeletal 
system, the reproductive system and psychologically. Groups 
such as adolescents and women have additional specific adverse 
effects or consequences in addition to the general adverse 
effects. In adolescents specifically, these general effects can 
be intensified and magnified by their use of the steroids. If 
you look at youth, there are many influences on the youth and 
on our young athletes. These include the leaders in various 
fields, entertainers, athletes, parents, coaches, peers, older 
friends and schoolmates. It is difficult to say whether the 
reported actions of a professional athlete, the pressure of 
parents and coaches to succeed or the examples of older 
teammates or friends are the major influences on the use of 
performance-enhancing substances. They all are influences.
    Another important issue with adolescent steroid use is the 
significant percentage of nonathletes who use steroids not for 
a competive edge but to attain the well-developed, muscular 
look. This is not only young men but young women also who are 
less likely to be influenced by anything that a professional 
athlete or college athlete does or by anything that is 
sanctioned by some world agency or any league.
    Human growth hormone is another issue that has presented 
itself to us, and it sets a new set of problems. Human growth 
hormone, which is not a controlled substance as are anabolic 
steroids, is widely available through America on the Internet, 
through prescriptions by physicians, shipped across borders to 
institutions, companies and to individuals. The obtained 
substances may be human growth hormone or may be some 
counterfeit substance. There are anecdotal reports of the use 
of human growth hormone by athletes including NFL players. 
Light may be shed on these reports through ongoing 
investigations. However, attempts by us and other organizations 
to assess the scope of human growth hormone use have yielded 
little data and clarity. When compared to the effectiveness of 
anabolic steroids, the efficacy of human growth hormone to 
performance enhancement is not as well accepted either 
scientifically or anecdotally among athletes. More importantly, 
when it comes to human growth hormone, the adverse effect 
profile of this substance is severe. It can have a severe 
effect on the heart, liver, spleen, kidneys and other organs 
and systems. The credibility of the medical and scientific 
community, lost early on the steroid issue, is dependent upon 
accurate information, on effectiveness and adverse effects. 
Care must be taken not to give inaccurate information 
concerning human growth hormone.
    With steroids, the adverse effects are real and could be 
severe. But the incidence is low and may occur later in life. 
This can be a potential problem that the users don't see these 
problems in other people, only the positive effects. To combat 
this issue, a multipronged approach must be used. A program 
must be developed that has a policy which is accepted by all 
involved parties and which defines the goals of the policy, the 
banned drugs and the other parts of the program. There must be 
an educational component which includes education about the 
drugs and the policy, testing, discipline and the availability 
of assistance to those who have medical and psychological 
problems. Testing is a major weapon in the arsenal of drug 
abuse. The amount of testing must be sufficient so that the 
athlete does not know when the test may occur. The test must be 
sensitive enough to identify the banned substances, and the 
discipline must be severe enough to make it undesirable for the 
athlete. I do not believe the number of positives is a good 
indicator of a successful program as is the number of repeat 
offenders. When this number is low, it reflects an 
understanding on the part of the players that the consequences 
of use, loss of pay, loss of playing time, other embarrassment 
to themselves and their family outweighs the benefit of use.
    The NFL's policy on anabolic steroids represents a 
cooperative effort between the NFL and the players association. 
The policy is founded on three important principles. The 
maintenance of the integrity of the competition, a level 
playing field and protecting the health and safety of the 
players, while most importantly setting an appropriate example 
for our Nation's youth. All the elements of an efficient, fair 
and adaptable program are present. These include: unannounced 
annual and random testing both in and out of competition, 
players are eligible to be tested at any time throughout the 
year; stringent and exacting collection procedures, state-of-
the-art analytical procedures using the same laboratories that 
are used by other testing programs including WADA; a 
comprehensive list of prohibited substances, masking agents and 
methods; strict liability standards for violations; and a 
mandatory suspension without pay upon first violation.
    Throughout the past 15 years, all aspects of the NFL's 
policy have been regularly reevaluated by the NFL and the NFL 
Players Association in consultation with a variety of leading 
experts, and changes have been made to maintain a thorough and 
effective program. This is achieved by monitoring the latest 
scientific and technological advances; investigating reports of 
use patterns and new substances; and acting quickly to make 
appropriate changes when the evidence supports them. The policy 
works because the leadership of the NFL and the NFL Players 
Association view themselves as guardians of the game of 
football and accept all the responsibilities which accompany 
this role.
    Without reservation, I am proud of my involvement with the 
NFL's steroid policy and have every belief that it will 
continue to be among the best and most effective in sports. 
Thank you.
    [The prepared statement of Dr. Lombardo follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.073
    
    [GRAPHIC] [TIFF OMITTED] T1242.074
    
    [GRAPHIC] [TIFF OMITTED] T1242.075
    
    [GRAPHIC] [TIFF OMITTED] T1242.076
    
    [GRAPHIC] [TIFF OMITTED] T1242.077
    
    [GRAPHIC] [TIFF OMITTED] T1242.078
    
    Chairman Tom Davis. Thank you very much.
    Dr. Finkle.

                  STATEMENT OF BRYAN S. FINKLE

    Dr. Finkle. Thank you, Chairman Davis, Mr. Waxman and 
members of the committee.
    I, too, very much appreciate the opportunity to participate 
in today's hearing, and I certainly applaud the committee's 
interest in the NFL's steroid testing program and its potential 
for adverse impacts on the young people of the United States.
    By way of brief background, I am a scientist. For more than 
40 years, I have been a forensic toxicologist with a continuing 
experience in toxicology of substance abuse and at least 20 
years of involvement in sport antidoping toxicology. My 
association with the National Football League's steroid policy 
dates from its inception, some 12, 13 years ago. Currently I 
serve as the chief forensic toxicologist for the National 
Football League's steroid performance-enhancing drug program, 
also the substance-abuse program, for which I have been jointly 
selected by both the league and the National Football League 
Players Association. I am responsible for all technical aspects 
of the programs, including oversight of the laboratory 
performance, quality control and interpretation of test 
results.
    I also provide support to the substance-abuse treatment 
program and manage research studies designed to evaluate new 
analytical technology and ways to improve testing. The NFL's 
steroid policy is a carefully crafted, thoughtfully negotiated 
program which is designed to detect and prevent substance use 
and abuse. It has evolved over more than 10, in fact almost 13 
years to its present level of sophistication. Importantly, the 
policy is a living document. It is one that requires mutual 
effort and agreement of the league, the players association, 
the players themselves and the teams. The laboratory analysis 
of urine specimens for which I am responsible to detect 
prohibited drugs and their metabolites is just one essential 
part of an overall comprehensive program. It cannot stand 
alone. Analysis not only can accurately identify drugs that are 
being used but acts as a deterrent, creating the risk of being 
detected and the adverse consequences that occur as a result to 
those who might otherwise wish or attempt to cheat. 
Scientifically, the program features an extensive testing 
protocol which is followed rigidly involving detailed 
procedures for specimen collection, defined analytical methods 
and blindfolded control processes. These practices follow 
closely, very closely, those recommended by the World Anti-
Doping Agency and the U.S. Anti-Doping Agency, and I am 
confident that they would satisfy any reasonable review. 
Importantly, through periodic review of these methods and 
processes, systematic improvements have been made to the 
program over the last several years. This flexibility for 
program assessment and policy change is a very important 
feature of the NFL's programs.
    For example, working with scientists at the UCLA Olympic 
laboratory, we have taken advantage of new and refined 
techniques for detecting many new substances and have 
introduced new forms of testing to assist the detection of 
exogenous testosterone use. In addition, we routinely consult 
with a variety of outside experts to assist us in addressing 
specific concerns. This happened when the concern came up with 
the effects of ephedrine use on heat and hydration issues 
associated and also with growth hormone. While the range of 
substances specifically banned by the NFL is less extensive 
than WADA, the NFL prohibited list is designed specifically for 
football. Unlike WADA, which is responsible for monitoring use 
in perhaps as many as 100 diverse different sports across the 
world year round, the NFL monitors a relatively small 
population of athletes with common characteristics. They are 
young males with exceptional strength and speed. And we monitor 
drugs that influence their performance goals.
    Accordingly, the program as designed is based upon the 
intelligence and experience gained within the last 10 years and 
is tailored to meet the league's goals of protecting the health 
of its athletes and preserving the integrity of the sport. The 
NFL banned list is wide ranging. It is continuously reviewed 
and frequently revised. The testing of these substances 
requires exacting forensic and scientific standards.
    Currently, however, there is only one WADA certified 
laboratory in the United States--that is the Olympic laboratory 
at UCLA--that can routinely meet these standards of practice. 
In order to address the need for additional laboratory 
capability and capacity, the NFL has joined the U.S. Anti-
Doping Agency to fund the development of a new laboratory. It 
is the Sports Medicine Research and Testing Laboratory located 
at the University of Utah. When fully operational next year, it 
is anticipated it will be WADA certified and will work in close 
collaboration with the Olympic lab at UCLA. It will have the 
most up-to-date instruments and technology and will be staffed 
by experienced analysts and toxicologists. In addition to 
testing, a primary function of the laboratory will be to 
conduct sponsored research studies to broaden our understanding 
of performance-enhancing substances and to develop new 
analytical methods. It will also be available to assist other 
sports programs.
    The NFL's collaboration with USADA to fund testing and 
research is unique in the United States and is evidence of its 
serious intent to address steroid and other substance abuse 
issues as they affect the health of athletes and the sport. So, 
in summary, for the past 15 years, the NFL has had a 
comprehensive testing program for the detection of steroids and 
other performance-enhancing substances. It is founded on the 
best science and technology and is bolstered by the continuing 
cooperation of the league and the players association. Overall, 
it represents a proactive effort to eliminate the use and 
associated health risks of performance-enhancing substances 
from its sport.
    I would like to add just a couple of sentences based on 
something we've already heard this morning. Let me emphasize 
for the committee, since I have the responsibility, 
amphetamines, methamphetamine and its analogs, are strictly 
banned by the NFL, and they are tested for routinely in our 
programs. Their use is illegal without a prescription. Team 
physicians act responsibly in these matters. The inventories of 
amphetamine type drugs that are available on prescription to 
teams is audited and supervised. There is some doubt in 
football from a pharmacological-toxicological point of view 
whether amphetamines are indeed performance-enhancing, but they 
are certainly misused and abused as substances of abuse, and we 
test for them. We test for them also in the window. Someone 
mentioned game day. It is possible on occasion to test on game 
day, but in any event, we test within the window of time that 
would allow us to detect the use of these substances in a 
carefully designed program. Thank you.
    [The prepared statement of Dr. Finkle follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.079
    
    [GRAPHIC] [TIFF OMITTED] T1242.080
    
    [GRAPHIC] [TIFF OMITTED] T1242.081
    
    [GRAPHIC] [TIFF OMITTED] T1242.082
    
    Chairman Tom Davis. Thank you very much.
    I want to thank all of you very much. Let me start with the 
coaches. How prevalent is steroid use? Each of you have had 
some experience with your players. How prevalent is it, and 
where do they get it?
    I will start with you, Coach Stewart.
    Mr. Stewart. Mr. Chairman, again, I've only had two 
instances where I've detected steroid use. Other than that, 
pretty much nil.
    Chairman Tom Davis. Do you have any idea where they got it?
    Mr. Stewart. Not really. Because, again, both young men 
denied even taking the steroids. So I have no idea where they 
got their hands on it. But I would say probably--they were both 
weight lifters. They lifted weights on a regular basis. So I 
presume they got them around the weight lifters they were 
participating with.
    Chairman Tom Davis. Mr. Barnes, any idea?
    Mr. Barnes. Yes, we know where our kids got their steroids. 
They admitted to that in our meetings that we had. They went to 
Rocky Point in Mexico, which is close of course to where our 
proximity is, and were able to buy them freely. There was just 
a story that I saw on television, I don't remember which one it 
was, that talked about they even have doctors down there that 
give prescriptions if they want to try to make it look as legal 
as possible. That's all they do is give prescriptions for 
steroids and illegal drugs. It's freely purchased there.
    Chairman Tom Davis. How many players did you have to 
discipline in the end?
    Mr. Barnes. We had 10 that were removed from our football 
team in that first year as a head coach. That was quite an 
experience for me.
    Chairman Tom Davis. How did the other kids react to it? Did 
they get the message?
    Mr. Barnes. Well, the other kids were just like our whole 
community. This was a difficult situation. We all have to 
remember that we were on the front end of exposure nationwide. 
I know that there's been steroids long before this happened to 
our high school. But it hasn't come to the forefront from a 
media standpoint as often as it has in the past year or 2 
years. So suddenly our school became popular, and this of 
course has created a difficult situation for our community 
because the parents are tired of the media attention that 
they've gotten. At the same time, I think that we have a lot of 
parents that understand the importance of what happened and the 
ramifications. There are many parents that are going to be very 
unhappy that I'm here.
    Chairman Tom Davis. They need to understand you're here 
under subpoena.
    Mr. Barnes. Yes, they understand.
    Chairman Tom Davis. I don't think it's a reflection on your 
community. In fact, you handled it right. You probably did more 
to prevent it.
    Mr. Barnes. We have many people that are proud of the fact 
that we took a problem and did something with it. It's not just 
those that are upset with the way that we handled it. There are 
things that happened that it's probably not important to this 
committee because it's our own internal little problem of how 
things were handled. For instance, parents were very upset 
that, when I did the interview process to get them to tell the 
truth, that they weren't allowed to be a part of the process. 
We could speak on that forever. But the bottom line is, you 
know, there's a lot of energy being spent where parents I think 
need to be talked to about enabling their kids by saying, you 
know, that's not the problem, what you did, the problem is the 
way they wouldn't let us come in there. That energy that's 
being spent, I think, could be better spent on making our kids 
understand that their health was at risk here.
    Chairman Tom Davis. Thank you.
    Mr. Courson, you had a very successful NFL career, 
including playing for a Super Bowl championship team, and 
you've been very open about your steroid use during your 
playing days. Could you try to elaborate on the steroids you 
used, the health problems you suffered as a result?
    Mr. Courson. As far as my heart health problems, again, 
that's very unclear. My doctors, we don't know. I've always 
said that I believe that they contributed to my health 
problems, and the reason I state that is, if you understand 
heart disease at all, increased body mass is a risk factor. 
That's just a common understanding with heart disease. The 
thing that I experienced from the short-term standpoint was the 
increased aggressiveness. The thing I guess that was the most 
addicting aspect for me about them as a former user was the way 
they enhanced my training. In other words, you almost develop a 
love-hate relationship. You love what they do for your 
training, but you hate compromising yourself to gain the 
advantage from a drug.
    Chairman Tom Davis. But it did give you a considerable 
advantage, didn't it?
    Mr. Courson. That is probably the most difficult aspect 
from a competitive standpoint with this dilemma for athletes in 
general. They work. And they work dramatically well.
    Chairman Tom Davis. Is it possible to get the same level of 
achievement through ordinary means without taking steroids?
    Mr. Courson. All things being equal, someone who's 
genetically blessed, the drugs will always provide an example. 
You cannot train to the same degree. You can make tremendous 
gains without them, but the person who's using, everything 
being equal, is always going to have the advantage, in my 
opinion.
    Chairman Tom Davis. Thank you. And thank you for sharing 
your story with us.
    Dr. Goldberg, you mentioned in your testimony that the 
Atlas and Athena programs have been effective and successful in 
promoting healthy lifestyles and preventing steroid use. How 
many high schools are currently implementing either Atlas or 
the Athena programs, and have they been adopted by high schools 
nationwide? And why aren't more schools using the program?
    Dr. Goldberg. Good questions. First, there are about 60 
schools, I believe, across the country and more are doing it. 
We just had 100 curricula purchased in Texas. We're going to 
Connecticut in 2 weeks for 60 coaches. I was just in Ohio last 
week with another 15. I think part of the hearings that you've 
had has increased and highlighted this problem. Dr. Elliott and 
I are professors of medicine, and we're not really marketing 
the program, so really people have to look at the model 
programs list to see whether they want it or not. We 
implemented it in five schools in Nashville, TN, 2 months ago. 
So there is an increase, but that is coming more in dribs.
    Chairman Tom Davis. Thank you very much.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to thank all the members of this panel. I think your 
testimony has been very, very helpful. I do have some 
questions, and I want to pursue them.
    Mr. Courson, I guess my bottom line question to you is, in 
your judgment, can players evade the current testing system? 
And if that is so, that leads to a lot of other questions for 
you and the doctors. But what is your opinion of that?
    Mr. Courson. Well, I've written and stated publicly since 
1988 about the various loopholes in drug testing. Obviously, we 
all know about growth hormone. We also know about low doses of 
testosterone. The Balco investigation has probably exposed 
probably the most dangerous threat to drug testing yet, and 
that's designer drugs. When you alter--basically when you alter 
the molecular structure of a drug where you render it 
undetectable, undetectable means undetectable, and that is a 
real challenge for Mr. Blotner and his people without question.
    Mr. Waxman. What changes would you recommend in order to 
stop this kind of evasion?
    Mr. Courson. Well, what I would do personally, if I were 
boss for a day, what I would do is basically help the U.S. 
antidoping commission as far as funding to improve the 
technology, to basically deal with an ever-changing landscape. 
That also means the threat of gene doping. That technology is 
here. It's a matter of what we call the diffusion of 
innovation. Who's going to be brave enough to try it?
    Mr. Waxman. What percent of the football players, 
professional football players do you think are using steroids 
today?
    Mr. Courson. That would be very hard for me to determine. 
First of all, I've been out of the game for 20 years. I'm not 
around those guys. I don't train with them. But we do know 
that, of course, drug testing has loopholes. We do know the 
intense pressure that players are under. I think the NFL is 
doing the best job that they can do with the technology at 
hand.
    But, then again, when you look at the size of players 
today; diet and training hasn't really changed. So it would 
lead me to believe that it's out there, and that it is 
prevalent. To what degree, I don't think we'll ever know, 
especially when you recognize the individual and institutional 
denial associated with the use of these drugs.
    Mr. Waxman. The NFL reported in the last 5 years that less 
than 1 percent of players have tested positive for steroids. On 
the other hand, some people are saying they are evading them, 
as you think along those same lines. Former Olympic antidoping 
official Robert Voy estimated in 2001 that one-third of NFL 
players were using steroids. And current broadcaster and former 
Kansas City Chief Bill Maas recently suggested that use has 
increased to levels above those in the 1980's before the league 
had a policy in place. Does that sound like an overestimation 
to you?
    Mr. Courson. Would it surprise me? No. Do I know that? Can 
I quantify that or qualify that? No. I wouldn't be able to say 
simply because, again, I'm not around those players. But, then 
again, we have to recognize the fact that line of scrimmages 
are bigger than ever. And I think--to be honest with you, I 
think one thing the NFL may want to consider--and I know the 
league is not going to want to hear this--but maybe a weight 
limit in time.
    Mr. Waxman. A what?
    Mr. Courson. A weight limit in time, especially with 
genetic engineering around the corner.
    Mr. Waxman. What do the doctors think about these points 
that Mr. Courson has raised?
    Dr. Lombardo.
    Dr. Lombardo. I think, on the aspect of size, I think you 
have to look at the players. If we have a problem in the NFL, 
it's the same problem we have with the youth and with society 
in general. It's called morbid obesity. The game changed. I was 
a team physician for Ohio State for 14 years. In those years, I 
watched the linemen change from lean, fast people to people who 
were fairly big, fairly heavy, extremely heavy, somewhat obese, 
because the nature of the game changed.
    The Pittsburgh Steeler line of the seventies that Mr. 
Courson played on played a different type of football. If you 
watch the way the game is played at the line of scrimmage, they 
have big people who just get in the way and move people a 
little bit, and that's the name of the game. It has gone all 
the way down to high school. If you look at the McDonald's high 
school all American team or the Parade high school all American 
team in the line, they all average over 300 pounds. So this is 
not something that happens and blossoms when they arrive in the 
NFL. This is a problem all through football and the game of 
football and the way it has changed. In order to combat that, 
the people on the other side of the ball have to have just the 
same amount of mass to hold the line of scrimmage.
    Mr. Waxman. I guess the question I would have of you, and 
if others can comment on it in whatever time I may have 
available, is this just a natural phenomenon or is this the use 
of drugs? We don't see 300-pound roly poly players. We see 300-
pound pretty strong, muscular players. So the number of 
football players that are much larger than the past is clear.
    Dr. Lombardo. I'm not so certain that you see the 300-pound 
muscular players as much as you would think as much as the 300-
pound roly poly players. I think we need to look at the body 
fat level of the players, and either one of us would be deemed 
to be correct on that. But I do think that's a potential, 
whether it's drug use or whether it's the nature of the game. 
If it is, like I said, these previous players arrive in the 
league at 300 pounds, they don't come in the league and then 
become 300 pounds. As far as the percentage of the people who 
use drugs, I think anybody's estimate is what I call the 
guesstimates of people, because they have no idea what the 
percentage of drug use is in the league, and I would never 
hazard a guess as to what the percentage of drug use is in the 
league. I just know that the testing we use is the same 
testing, same analytic procedure, everything the exact same as 
used by WADA and every other doping agency. So, therefore, if 
there's a problem, it's a problem that's science-wise and not 
just program-wise.
    Mr. Waxman. Thank you.
    Because my time is just about out, Dr. Wadler, do you 
believe this testing regime that NFL has is stringent enough 
for amphetamines and other stimulants?
    Dr. Wadler. I think I need to clarify that, and perhaps the 
NFL could clarify that. They actually have two drug policies as 
I understand it. They have a drug abuse policy which deals 
basically with what we might consider recreational drugs. Then 
they have their steroid policy which deals with the sanctions 
and penalties as opposed to treatment. The first one, as I 
understand it, is to get people help if they have a problem 
with methamphetamines and things of that sort. As I understand 
it, the steroid policy which lists the eight stimulants is 
inadequate because those are not the stimulants we see in terms 
of performance-enhancing drug abuse. There we're talking 40, 
50, at least. In fact, as we sit here this morning, there's a 
meeting going on in Montreal that they have devoted to just 
what stimulants should be on the list. So that amphetamines, in 
my view, and the related stimulants belong together with the 
other performance-enhancing drugs and should be dealt with with 
those consequences, because the use of those drugs are for 
treating, they're for gaining unfair athletic advantage. People 
who have problems with MDMA, ecstasy, meth and so on, that's a 
different issue. So I think it needs greater clarity. And it 
may be true. There's a consequence if you're caught in this 
policy or that policy but if we're talking about performance-
enhancing drugs, the policy as it is written is inadequate. It 
really does not address those stimulants which enhance 
performance or are thought to enhance performance for which 
there should be significant sanctions.
    Mr. Waxman. Thank you very much.
    Chairman Tom Davis. Thank you.
    Mr. Souder.
    Mr. Souder. Thanks. I have a number of questions, but I 
want to followup directly on that one. Dr. Finkle also said he 
didn't believe that amphetamines may actually work as a 
stimulant in football, and you just used the phrase that people 
may think work. Do you believe they do or don't, or could you 
enlighten us a little on that?
    Dr. Lombardo. First of all, the basis for something being 
on the list doesn't mean it necessarily works. There's a 
question whether growth hormone actually works. So that has 
never been a sole criteria. We use actually three criteria. The 
potential to enhance performance, the risk to health and 
violating the spirit of sport. In terms of amphetamines, there 
is a long history going back about amphetamine use in sports. 
Certainly, we know about it in baseball. We talked about it 
previously. Its effects, for example, increased arousal, 
increased alertness, increased reaction time, increased eye-
hand coordination, weight reduction. I can go on. They mask 
fatigue. They mask pain. They have been a quintessential drug 
for years in sports. The first reported deaths ever in 
competitive athletics were two cyclists in the sixties from 
heat illness from taking amphetamines. The ultimate question of 
whether there's debate as to how effective they are I really 
think is misdirecting the nature of the discussion. That is not 
the criteria.
    Mr. Souder. Let me say, for a lack of a better word, a 
super Notre Dame hotdog, that I'll take a couple of 280-pound 
guys that can block Michigan as opposed to a rolly polly 300-
pound guy. But let me ask this fundamental question, are you in 
effect saying, any of you, and I have another question, I'd 
just like somebody to react to this, that often you hear an 
athlete comes out of high school, and they haven't had the 
correct weight training going into college. Usually the 300-
pound guys are already there. If they can play in the NFL, 
they're there in college, that you can't get up to 300 pounds 
with going to year-round weight training using things that are 
legal and that you have to use an illegal substance? In other 
words, is weight not really a criteria here? It's just if it's 
sudden, if it's out of the size characteristic that body might 
be able to carry or is this something over 4 years you can 
actually buildup and change your body structure through legal 
substances that aren't a danger to your health other than that 
you may become obese later on in life if you don't readjust?
    Dr. Lombardo. I think if everybody would just go back to 
the time when they were 17 and think of the weight and size you 
were when you graduated high school, or 18, and think of what 
you graduated college at, and then what you are right now. Your 
body undergoes tremendous change all through your life. 
Probably the single biggest time of change is as you go through 
puberty and as you go up to about the age of 22 which is why 
you see a lot of times people come in as freshmen, they're big, 
they may be soft, and they firm up a little bit and gain 
weight. Part of that is the natural weight gain you're going to 
get with proper nutrition and with weight training. So you can 
get up to that point without the use of drugs. I firmly believe 
you can, if that's the goal and that's the place you want to 
be.
    Mr. Souder. In fact, one of the challenges of competitive 
sports is that, in anything highly competitive, you kind of 
distort your body characteristics. I think it's fairly safe to 
say that most Members of Congress, if they weren't ADD before 
they became Members of Congress, they developed those 
characteristics after they're in. That we certainly have 
certain things that we have to get much more fine tuned. An 
athlete who's a runner is going to get his leg muscles 
disproportionate to the rest of his body if he's going to work 
his legs aggressively. The question is, are you cheating or 
doing things that are inordinately damaging to your health that 
aren't recoverable and where are those lines? The implication 
here was, is that it can't be done naturally and what you just 
said as I understood it was that there is a logical body 
weight, but we're obviously going to push these guys past their 
logical body weight. It's how far can you go for how long and 
how do you do that and in that type of question as far as 
testing.
    I want to make sure I get this question in to Dr. Finkle. 
Do you believe the problem was much greater before your policy 
went in?
    Dr. Finkle. Yes, without question. I was first involved 
with the National Football League as a consultant during 
Commissioner Rozelle's time in the 1980's, and it was freely 
known and acknowledged and addressed during the last years of 
his tenure as commissioner that there was a very serious 
problem and health problem. He set in motion, it was picked up 
by Commissioner Tagliabue when he came into office, to address 
that problem. So absolutely the problem was much worse a 
generation ago, and it is under control now. It is not perfect. 
We still have serious problems, but it is under control now.
    Mr. Souder. I want to ask this question. Last night on ESPN 
Outside the Lines, Super Bowl XXX, 9 years ago, most valuable 
player and Dallas Cowboys cornerback Larry Brown said he 
believes that 40 percent of the players in today's NFL are 
using steroids. He has been here long since the time that you 
were. Do you believe that statement has any logic in fact? Is 
it possible that 40 percent of the players could be getting 
through? If you can just elaborate on that.
    Dr. Finkle. Anything is possible, of course, but I'm a 
scientist. I like to see data. In this world of substance abuse 
and social issues, we're constantly faced with anecdotes, 
stories, news stories. I'm not saying that the people who make 
these statements don't believe them. I'm simply saying that, 
when challenged, usually when challenged to produce the data or 
the foundation for their opinion, it is sadly lacking. The 
consequence of that is that I greet with great skepticism what 
I read for the most part as off-the-cuff statements like that 
unless I can see some data to support it. And I know of no such 
data.
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Let's turn 
to the issue of penalties. The NFL policy calls for a four-game 
suspension for a first violation of the policy and a six-game 
suspension for the second, each without pay. I understand that 
these suspension periods are not insubstantial in light of the 
relatively short career of NFL players. However, these 
penalties are much lower than the standards currently in place 
for Olympic athletes which require a 2-year ban for the first 
violation and a lifetime ban, which I like, by the way, for the 
second. Moreover, under the NFL's policy, players who test 
positive during the preseason must serve their four-game 
suspension during the regular season but are allowed to 
practice and play with the team during the remainder of the 
preseason.
    Dr. Goldberg, do you think that the NFL should incorporate 
the WADA penalty scheme into the policy for anabolic steroids 
and related substances?
    And then, I would like to know what you think, Dr. Wadler.
    Dr. Goldberg. I have a little different opinion. If I were 
the king and said that I wanted to try and erase anabolic 
steroid use in any team sport, the Olympic model is a paradigm 
for individual athletes. You've got swimmers, wrestlers, 
boxers, track and field. And so the penalty goes to that 
individual and rightly so. You've got a team, and sometimes 
teams and team ownership can try to coddle a player, protect a 
player. If you're going to really try to get at the heart of 
the issue, I think, if I were king, that I would construct a 
team penalty where it could impact on draft choices, where it 
could impact on win-losses, and there would be a team penalty. 
If there were a team penalty, then you would have--the 
teammates would exert peer pressure on the other teammates who 
were possibly users. You would also see management effect a 
change among those individuals. So if I were the king and I 
wanted to eliminate it, I think that would be the best way.
    Mr. Cummings. While you're up there in the king's seat, 
would you--let's hang right there. Would you also give a 
penalty to the player?
    Dr. Goldberg. Oh, absolutely. But I'm saying that, in a 
team sport, which is a very different paradigm than an 
individual sport which WADA is enforcing, and these are 
makeshift teams when they're put together, when we have USA 
Basketball or USA Baseball, they are diverse people and they're 
not working together. But we have essentially a business in 
baseball, football, basketball, then we're talking about a real 
team, with management.
    Mr. Cummings. I have to ask you this. You just said 
something that was very interesting. You said the management or 
whatever--I am not trying to put words in your mouth so you 
correct me if I am wrong--tend to coddle players. What does 
that mean?
    Dr. Goldberg. I can just go back to my own experience with 
a player who trained in our laboratory in the 1980's. He went 
to his NFL team. He made the team, and then he called me up, 
and he asked me about using steroids. I told him not to use 
steroids. His wife called a few weeks later and told me she 
found a bottle of steroids in the bathroom with his jersey 
number on it. So that told me something about the use back 
then. I know there have been changes. But often people try to 
protect their own kids, parents, coaches, and there's a halo 
around them. As I described when we talked about our coaches, 
when we said, are kids using steroids on your team, they said, 
not in our school, not on my team, but other teams are using 
them. So I think that's sort of a natural habit to coddle, to 
put a halo around the athletes that you deal with. And 
sometimes you feel they wouldn't do that when in fact they are.
    Mr. Cummings. Dr. Wadler.
    Dr. Wadler. Yes. With respect to the world antidoping code, 
there is a section on consequence to teams, article 11, which I 
will not bore you with. But it does make provisions for target 
testing where an individual team member tests positive. So 
there is some provision for it. There's another element to this 
which I think is worthy of at least some discussion. That deals 
with the hearing process when one has a positive test. I 
understand fully the nature of the collective bargaining 
agreement between the players association and the union, but 
there are sports--I cite men's professional tennis as an 
example--using the WADA example whereby there is a process in 
which the vested interests of management and the players have 
an arm's distance relationship and the decisionmaking to go 
through a hearing or an adjudication process. I think that 
ought to be looked at. I certainly understand the complexities 
of collective bargaining. But, for example, let me cite men's 
professional tennis. I know they are going to appear before you 
at some point. If management found a positive urine test in a 
professional tennis player, that ultimately would go to a 
tribunal independent of the management of the sport, 
independent of the union of the sport and the experts in that 
case, a doctor, a lawyer and a forensic scientist, would review 
the evidence and make a decision. That would be the sanction. 
It deals with the issue of any appearance of any other interest 
that you may have been alluding to and removes it.
    It's complicated and certainly complicated in the context 
of collective bargaining, but I think it would enhance public 
perception that everything is out in the open. I'm not 
suggesting everything is not out in the open, but there is 
always the perception. I think some of the questions today 
alluded to the perception. Do we think it's going on? My answer 
to that, by the way, it's what we think that doesn't matter. 
It's what we know that matters. And what we know really has to 
be embodied in a comprehensive testing program. That's why I 
feel the world antidoping code is in fact the gold standard we 
should use to find out the questions rather than speculation.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you. Before they go, just one 
other question for Dr. Lombardo.
    In an AP article this morning, the chairman of WADA, Dick 
Pound wonders that if 9-year-old girls are taking steroids just 
to look good, then what are the odds that the enormous players 
in the NFL are on steroids? That is a question he would like to 
ask the NFL medical advisers, and since he couldn't be 
attending, I'll ask it for him. With everybody doing the things 
that are going on, why don't we catch more people?
    Dr. Lombardo. I could turn that around to any testing 
situation. Why doesn't any testing situation catch more people? 
On the one hand, Mr. Cummings is talking about a zero tolerance 
policy, stopping the use, eliminating the use. On the other 
hand, you want to judge a program by the number of positives 
that it has. I think there's a little contradiction there. And 
I think that one of the things we have to look at is these 
people are going to cheat. The majority of players that test 
positive in the NFL have a reason that they are, that's the 
only chance they have to make it in the league. That's the 
reason. It's not the star players who are setting records, and 
they're tested a phenomenal amount of times using the same 
strict analytical procedures that Mr. Pound's organization 
uses. We use the same analytical techniques. We use the same 
labs. We use the same testing procedures, same collection 
procedures, same substances and essentially come up with our 
results. So, again, I do not think that the number of people 
that are caught is an indicator of the prevalence of the 
problem nor do I think it is an indicator of the success of the 
testing program.
    Chairman Tom Davis. Let me say this. I understand that 
testing now occurs on a random basis throughout the week. Is it 
true that, previously, testing was limited to a certain day of 
the week?
    Dr. Lombardo. No, it's been probably 8 years since we 
changed that. Everybody has to be tested the day after the 
game. And then they can be tested any other day the remainder 
of the week.
    Chairman Tom Davis. How long does it take to get a steroid 
out of the body?
    Dr. Lombardo. It depends. That's a very difficult question. 
It depends on what you use, how you use it. There's no average. 
I think it would give you a false sense of what the problem is 
if we----
    Chairman Tom Davis. Could it be 12 hours?
    Dr. Lombardo. It would be very difficult to say something 
is going to get out of your body and not change your profile 
within 12 hours.
    Chairman Tom Davis. Yes, Dr. Wadler.
    Dr. Wadler. I want to emphasize something I mentioned 
before. The limitations of policy and the limitations of 
science. I think most of us are concerned regarding those 
individuals who are taking testosterone below the level which 
you can detect it using T/E ratios. By narrowing the window 
from 6:1 to 4:1, the likelihood of finding somebody is greater.
    But the concern I have and others have is that there is 
this pretesting going on by athletes who are learning how to 
keep their ratio, say at 4:1, keeping it at 3:1. We see this in 
another form of drug abuse, with EPO where red blood counts are 
very carefully monitored just below the detection. So if I were 
to cheat and I can find a laboratory that would monitor my 
blood or my urine and constantly tell me, I could run 3:1 using 
patches and creams, not injections, so I have an even level, 
I'll beat you every time. That's a real concern. And that's a 
limitation of science. Not a limitation of policy. That's a 
real issue and probably one of the most important issues in 
terms of the National Football League.
    Chairman Tom Davis. Dr. Finkle.
    Dr. Finkle. I would just like to respond briefly to that. 
Yes, there is indeed a limit of science, and indeed the 
athletes who are intent upon cheating and using testosterone 
can get up to all kinds of quite sophisticated ways to defeat 
the test. But some have suggested that our testing program is 
not sufficient with respect to testosterone, and I would like 
to just try to alter that perception a little bit. The fact is 
that no testing organization has more stringent tests than the 
NFL for this particular steroid. We have adhered strictly to 
the same testing standards as WADA and the Olympics. We used 
the 6:1 ratio when it was standard for them and for us. When 
the Olympics moved to 4:1, we moved this January. After 
bargaining and discussing with the players association and the 
league, we moved to 4:1. And we would be willing to change it 
as our science permits us to do so. We have discussed this 
issue and agreed to adopt the new and more stringent standard. 
Any suggestion that the prior NFL standard of 6:1 was higher 
than what was allowable by the Olympic standard is simply not 
correct.
    The NFL also pioneered, by the way, the use of highly 
sophisticated tests that you heard earlier, CIR, carbon isotope 
ratio analysis. We use that. We use it in the UCLA Olympic 
testing laboratory in our program. We use that test data to 
confirm tests that show that T/E ratios exceed our threshold. 
This is the same protocol that's followed by other antidoping 
agencies, including WADA.
    Let me say, with respect to people that may use creams with 
testosterone and have very low levels of testosterone in their 
body, yes, they may well and probably will on occasion come in 
with a test that we cannot at the laboratory by our criteria 
report as positive to our medical adviser or to the league. 
That is a true statement. On the other hand, even recently, 
where there have been low levels allegedly used of 
testosterone, we see aberrations in urine profiles, and we 
monitor those players through Dr. Lombardo in the future. So 
the players are not entirely beating the test in the way that 
they would like to think all of the time. But it is a 
limitation of science, and we do the best we can with the 
science and technology available to us.
    Chairman Tom Davis. Thank you very much.
    Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman.
    I think we all understand that this is a complicated issue. 
We understand the limits of science. We understand false 
positives, etc. But in terms of policy, let me just ask a very 
simple question, picking up on a point that Mr. Cummings made a 
moment ago. That is that, under current NFL policy as I 
understand it, players who test positive during the preseason 
must serve their four-game suspension during the regular 
season, a four-game suspension and that, if they are found 
positive again, it is a six-game suspension. Given the severity 
of what we are discussing today and the seriousness of the 
issue, I think many people would say, excuse me, some guy has 
been found using steroids and what you're saying, making 
millions of dollars a year, you're going to lose a little bit 
of money, but no problem, you come back, and you're using it 
again, you're only going to be suspended. Some people might 
think that this is a fairly weak policy. Could we get some 
response to that?
    Dr. Finkle. Frankly, I think it's draconian.
    Mr. Sanders. You think it's draconian.
    Dr. Finkle. I do indeed. If somebody said to me, as an 
employee, I was about to lose, first offense, at least 25 
percent of my gross income and not be able to practice my 
profession for almost a quarter of my season in this case, that 
is a very, very serious penalty.
    Mr. Sanders. But if somebody told you, if there's a kid 
three blocks away from here who's dealing in drugs and is 
arrested, that kid also pays a pretty serious penalty. That kid 
goes to jail for years and his life is destroyed. He doesn't 
make millions of dollars. I don't quite understand that answer. 
What we're talking about is people doing illegal activity, and 
you're saying, it's weak? I would respectfully disagree with 
that.
    Dr. Goldberg. If I were to violate the law in my practice 
of medicine, I would not be able to practice medicine. It would 
be more, I am sure, than one-fourth of my year of practice.
    Mr. Sanders. Anybody else want to comment on that? I think 
the American people might think, and again understanding that 
we want to make sure that the testing is right and people have 
the right to appeal it, and we have independent testers. But on 
the surface--and please explain to me what I'm missing, because 
I surely disagree with Dr. Finkle on this. If a guy is found 
using an illegal substance, money is taken away from him; he is 
not paid for four games. Then he's back, and he does it again, 
and all we're doing is suspending? I think most Americans would 
say that's kind of a slap on the wrist.
    Mr. Courson. I think one thing that's very evident from the 
baseball hearings is that athletes in general don't comprehend 
that breaking the rules is also in this day and age breaking 
the law.
    Mr. Sanders. That's a very good point.
    Mr. Courson. We see that throughout the sports world, not 
just in the NFL.
    Mr. Sanders. Yes. Dr. Wadler.
    Dr. Wadler. I think we have to ultimately be serious about 
this, to paraphrase Mr. Selig. There needs to be zero 
tolerance, and there have to be consequences, provided we have 
a fair hearing process.
    Mr. Sanders. Absolutely.
    Dr. Wadler. That's very, very--I cannot emphasize that 
enough. Assuming a fair process, the entire process, and 
somebody blatantly cheated using anabolic steroids or growth 
hormone, I personally believe there should be a 2-year 
suspension.
    Mr. Sanders. You think that the current policy is too weak?
    Dr. Wadler. Not only in football, I think in any of the 
sports we're talking about. If you took anabolic steroids, 
cheated and went through a hearing process, defended yourself, 
the whole 9 yards, and at the end of the day, you were guilty, 
I think the consequence should be 2 years.
    Mr. Sanders. Our high school coaches, do you want to 
comment?
    Mr. Barnes. Mr. Courson brought up a great point from our 
standpoint. Our kids aren't sure that they did anything wrong 
still to this day.
    And they believe that what they did was personally for 
their gain, and that it didn't have anything to do with the 
outside world feeling like they broke a law. Our kids knew that 
the school policy was you don't use steroids; our kids knew 
that it was against the law to use steroids, our kids broke the 
law and broke a policy, but to this date, I don't really feel 
like they have focused on the seriousness of what they did and 
the ramifications that it has had for not only our community 
and our kids, but this is all a part of what we're all here 
for. What caused this? How do they see this.
    Do we blame professional sports? Our kids don't. I don't 
believe professional sports had anything to do with our kids 
using steroids. Do role models create a problem? Yes, they do. 
And for any of these gentlemen to say that role models are not 
responsible are incorrect. They took that position, maybe not 
willingly, but it is given to them, it is thrust upon them. And 
yes, NFL players, professional baseball, Congressmen, our 
Senators all are role models to our kids. Our kids don't say a 
football player was a role model and this is why I did this. 
You could ask them, do you have another role model, and it 
could be a teacher, it could be a Congressman, it could be 
those kind of things.
    But what he had to say was correct, they're invincible, 
they don't feel like healthwise they're going to get hurt, and 
they don't feel like they've really broke the law because they 
see things out there that there has been no punishment.
    Dr. Goldberg. Can I make a comment? The problem is sort of 
a trickled-down effect where we get from professional and high-
profiled athletes down to the high school level, and I have 
worked with high school kids all over the country. And the 
problem is--and Chairman Davis asked me the question about our 
Atlas and Athena programs, why aren't they in a lot of places. 
Well, a lot of these schools can't afford new books, and they 
don't have the money for programs.
    In the Anabolic Steroid Control Act of 2004 there is an 
education policy, and there is money devoted to education for 
steroid use, but no money has been appropriated by Congress. 
You've got it in the act, but there is no appropriation. So as 
long as that continues, you are not going to get the high 
quality education efforts in the high schools.
    Mr. Shays [presiding]. OK, thank you.
    Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    You know, when we started talking about steroids, I was 
kind of nonplussed by it; but my grandson, who is like a super 
soccer star, I start talking to him about it, and he said oh, 
yeah, he said in junior high. So I would ask the coaches, do 
you think that maybe we have the focus on the wrong ball of 
maybe going after marijuana and alcohol in the schools, as 
opposed to also looking at far-too-early in-life use and even 
exploration of steroids?
    When he made that comment to me, he said everybody wants to 
be like the big superstars, whether it's soccer or whether it's 
baseball or whether it's football, and if they think even 
remotely that they can achieve that. It was at that point, Mr. 
Chairman, that I realized how important these hearings are. So 
I'd like to ask the coaches if maybe they think we're--no pun 
intended--but if we have our eye on the wrong ball.
    Mr. Stewart. I think they need to widen. They need to widen 
beyond marijuana and alcohol because a problem exists. And 
personally, I wasn't really abreast on steroid use until I lost 
the young man a few weeks ago. And so I think we need to 
broaden the field to include performance-enhancing drugs; 
because again, so many of the athletes have aspirations to get 
to that level. And lifting weighs twice a week--Kenny Barnes 
can attest to this, lifting weights twice a week and running is 
not fast enough. They want to speed it up, so they take the 
route of using the performance-enhancing drugs to get to where 
they want to be.
    Mr. Barnes. Well, I agree with Coach Stewart. There is no 
profound answer to your question because there is a pursuit of 
who do we go talk to to keep these things from happening from 
our education process today. It's not as though we're out there 
blindly letting kids do things and our educational system 
doesn't care. I see a lot of programs in our area where they're 
concerned about these things that are going on and they're 
attempting to communicate with the youth of today to try to 
stay away from these things. How much more media attention can 
there be right now on the BALCO situation, and especially in 
our community? To be honest with you, we're very tired of the 
attention that we've got in our little community because it's 
as though that's all there is to our community.
    So the media is doing their job of giving us all there is 
to know that there is a problem right now.
    Ms. Brown-Waite. Can I ask a followup question?
    Mr. Shays. Your green light is on.
    Ms. Brown-Waite. Tell me what steps the education system is 
really using; do you have film strips, do you have people come 
in and talk to the students? What exactly is being done to 
discourage this kind of steroid use in schools?
    Mr. Stewart. Well, I brought in a medical staff, a 
certified athletic trainer, school nurse and our team doctor, 
and they discussed the hazards of using steroids. And again, 
most of our kids believe that nothing is going to happen to 
them, they are invincible; but we all know 5 years from now, 10 
years from now, 15 years from now, they're going to have a 
problem.
    Mr. Barnes. Our programs are pretty much left to each 
individual school, but the AIA, which is Arizona 
Interscholastic Association, requests that we spend as much 
time as possible on talking to kids about the problems with 
drugs, etc., and that's on a complete community of the school, 
it's not just about football players or athletes. So I want to 
make it quite clear that it's not just a football or baseball 
or basketball situation, it's important to all of our students 
and our student athletes. So we focus on trying to talk to the 
kids and give them--for us and our football program, we have a 
meeting each year--which I've got to be at tomorrow at 7 
o'clock--and we talk to our parents, we make sure that we meet 
with our parents and we say here is what we need to watch out 
for. So we're active and proactive with this stuff. There are 
schools that I know of in Arizona that are trying to be 
proactive.
    Dr. Goldberg. Can I make one comment? Film strips, doctors 
talking, lectures don't educate kids about drugs, they just 
don't. Just say no does not educate kids about drugs, it has to 
be delivered, I think, by kids delivering them to kids who are 
training with the coach support, I think that is the only way 
you can do it. And that is what the paradigm that we use to 
reduce alcohol, illicit drugs and steroid use.
    Mr. Courson. I'd like to answer your question, also. I had 
7 years of high school coaching experience myself, so I can 
really relate to the two gentlemen here on what they deal with 
firsthand.
    I think one of the issues I think we really need to look 
at--and this is more from a philosophical standpoint--part of 
the problem that we have with all performance-enhancing drugs 
deals with the win-at-all-costs mentality. And I think what we 
really need in our school sports is a change of philosophy 
where coaches, administrators, basically we want to put the 
intrinsic value of sports on a pedestal equal or perhaps above 
winning. And what I'm saying is the game of football has taught 
me some great lessons, not to quit, prepare for success through 
hard work, being a team person, all of those are valuable tools 
in the game of life, but when we hire and fire coaches even at 
the high school level based on winning and losing, our coaches 
don't get the opportunity to basically prepare kids for life. I 
think we should look at our high schools and our junior highs 
as training camps for life. And until we can address that 
philosophically as a country, we're going to have a very 
difficult time in addressing this issue.
    Ms. Brown-Waite. Thank you.
    Mr. Shays. Thank you very much.
    Dr. Lombardo. Can I just say one thing to followup with 
that?
    Mr. Shays. Yes, of course.
    Dr. Lombardo. Just something everyone can identify with. 
What is the first question you ask your child when they get 
home from playing a game? Did you win? That simple question 
tells the child exactly what's important in the games. Without 
a doubt, that's the first thing--and if you ask a group of 
parents, they will deny it, but it's the first thing they ask 
them. If you don't change that, you're not going to change this 
problem one bit. And I really--I firmly believe that and agree 
with Mr. Courson on that, that until we change that win-at-all-
costs philosophy, we're never going to solve this problem.
    Mr. Shays. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Dr. Lombardo, I'd like to start with you. I've been trying 
to get a complete copy of the collective bargaining agreement--
Mr. Chairman, I don't know if I need to make a request for 
that, I didn't see it in the documents that we requested it for 
the hearing, but maybe that is best in the hands of the 
commissioner in the next panel. But in the parts of the 
collective bargaining agreements that I've been given, I don't 
see anything in here that says that upon a positive test there 
will be public notification.
    Dr. Lombardo. I'm not sure if it's in the policy, exactly 
as those words in the policy, but there is public notification 
of a positive test.
    Mr. Lynch. Where does that come from?
    Dr. Lombardo. It comes from the league office, and the 
commissioner can address that.
    Mr. Lynch. Is that memorialized somewhere, that there shall 
be----
    Dr. Lombardo. I'm not sure if that's--again, I don't know 
specifically if that line is in the policy, he will be able to 
answer that.
    Mr. Lynch. I know you're involved in the whole testing 
policy and you're central to that. I mean, when is the--well, 
maybe I should leave that for the next panel.
    Let me move on. Mr. Courson indicated earlier today that in 
2004 there were 350 players over 300 pounds. If you compare in 
1983 there were 5 players, and in the last year there were 350 
players over 300 pounds, I want to read you something that Dr. 
Frank Katz, who is an expert in human physiology and he has 
formerly consulted with 5 NFL teams, he indicated that the only 
way to explain this startling increase in size is steroid use. 
He said, ``No one can prove it and no one is going to admit it, 
but how else can you explain it, there are just too many guys 
who are too huge.''
    Going from 5 players in 1983 who were over 300 pounds to 
350 players who are now over 300 pounds, is something going on 
here? I'm going to ask the other gentlemen as well.
    Dr. Lombardo. In 1983 the rules of football were that you 
could not use your hands to block, you had to have your hands 
in close. Somebody over 300 pounds would not have been able to 
play the game of football at that time.
    If you look at college weights, those have significantly 
increased over the same amount of time. If you look at linemen 
weight in high school, they have significantly increased over 
the same amount of time. If you look at the body composition of 
these professional football players, these are not your 12 
percent body fat, 300 pound behemoths that are artificially 
induced, many of these are 25-30 percent body fat, obese 
individuals who are playing a sport that is now designed for a 
large person to play and being opposed by a person who is the 
exact same nature to stop them from moving.
    Mr. Lynch. So let me get this straight. You're saying this 
is because we are selecting big people, we're not building big 
people. That is your statement there----
    Dr. Lombardo. They're selected from high school----
    Mr. Lynch. That this 6,000 percent increase from 1983 to 
today is because we're picking people, and we didn't need big 
football players in 1983, we need them now.
    Dr. Lombardo. In high school they're selecting them to 
play, they're selecting them in college to play that, and those 
same individuals are coming to the National Football League 
over 300 pounds, yes.
    Mr. Lynch. I heard you say that earlier.
    Now, do you track these--I mean, from what we're seeing, 
it's not only that they're bigger, but at a certain period in 
their lives, in their young careers, they're actually getting 
very big very fast. Do you track these kids from high school? 
Do you have some data there what the kid is coming--weighing 
coming out of high school? The colleges, you get a lot of your 
players out of colleges, they track the weights of their 
players and then you get them, do you track these players to 
see if there is any unusual spikes in their weight and their 
growth?
    Dr. Lombardo. I was the team physician for a high school 
for 27 years, I've been the team physician for Ohio State 
University for 14 years prior to this, and working with the NFL 
for many years, basically they're spikes--they're not spikes 
that come up as you follow a player's career, they gain weight 
as they go overtime. Watch them as they come in as freshman, 
they're 260, 270 pounds, then as they get to be seniors, 
juniors, they're up to 290, 300 pounds or over. Some of them 
come to the college at 300 pounds and they move up. I don't 
think that is an indication of steroid use, I firmly believe 
that the majority of the reason for that is the fashion of the 
game will give those people who are that weight, that size an 
advantage, and that's what is used.
    Mr. Lynch. Dr. Wadler, what are your thoughts on that, 
those numbers and the statement of Dr. Frank Katz, the 
consultant to 5 NFL teams?
    Dr. Wadler. Well, certainly it raises questions clearly, I 
mean, those shock anybody. But I certainly expect the 
experience that Dr. Lombardo has seen at the high school, 
collegiate and professional levels. But certainly it is 
something that needs to be studied. We need to know more about 
the body composition of the league athletes in football, we 
need to know the same with body fat and body mass; and I think 
we need to have an air-tight testing program regarding drugs, 
including growth hormones--speaking of size--which means blood 
testing, which is still not implemented in the NFL.
    So I think we've got to do all of those things. Clearly 
it's an unhealthy situation on the merits of the weight alone, 
but clearly we need to understand how much of this is related 
to nutrition and related matters, how much of this is related 
to drugs, how much of this is related to steroids, how much of 
this is related to growth hormone; and I still would like to 
get back to the growth hormone because I don't think we should 
walk away from this so easily.
    Mr. Shays. Sir, your time has expired. You have gone a 
minute over your time. The Chair would recognize Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman. And welcome to all of 
you.
    As one who has worked pretty extensively on this issue for 
about 7 years, the better part of 7 years, since I've been 
here, I'm very happy to be part of this. I will say it's pretty 
obvious that there is a lot less stress or antagonism in this 
hearing than there was a couple of weeks ago with baseball, and 
I think that's a direct acknowledgement of the work that 
Commissioner Tagliabue and Mr. Upshaw have done, and I 
congratulate you on that. But I also really want you to 
understand that we need more--there is a long way to go. And it 
starts with this notion that there really needs to be 
independent oversight in some places.
    And I agree with you, Dr. Goldberg, we need an education 
program. I had an approps bill this year--here's the catch in 
my problem, it ought not to be all on the taxpayers. 
Professional sports entities, recognizing that they're in the 
business to make money, have resources, they also have some 
responsibility, if not, indeed, culpability here, and we need 
them to step up to the plate. I know the NFL has done some 
things to help certainly with USADA and expanding its 
technologies, but we need to do more.
    Let me get to the independent oversight pieces, and I want 
to talk to Dr. Lombardo and Dr. Finkel specifically about it. 
And this relates to some of the recent history that we've had 
in all sports as it relates to medical staffs. We know at the 
University of Washington a physician, a volunteer physician 
loosely affiliated with their athletic department was passing 
out--was convicted of passing out and overprescribing 
medications.
    We know that the doctor in South Carolina that's been 
accused of prescribing steroids to the three Carolina Panthers, 
while not affiliated with the team, that allegation is out 
there, it taints the good work that's been done, and makes us 
question whether we have the proper structure in place to get 
to where we need to go.
    What rules or ethics do you promulgate now with each team, 
and what are the league mandates as it relates to those rules 
of ethics to medical training staffs?
    Dr. Lombardo. There are certain--there is prohibited 
activities for teams. If a team physician or an athlete or 
someone within the team were to give a prohibitive substance to 
a player, there is a significant--and again, I don't know the 
exact administrative fine or dismissal or suspension, but there 
is a sanction for that activity. So, again, I think that along 
those lines, there are rules and regulations that the team and 
the team physician, the medical staffs, must also follow, as 
well as the player.
    Mr. Sweeney. Are you intensely training physicians and 
medical staff? Are you updating them?
    Dr. Lombardo. We talk to the trainers two to three times a 
year, and to the physicians one to two times a year, and the 
players as many times as we----
    Mr. Sweeney. Who derives those standards, is that you?
    Dr. Lombardo. I act as an advisor, I will advise the NFL as 
to what I think should be done, and we will work together 
accordingly to put them in place.
    Mr. Sweeney. So there is a league-wide policy written and 
prescribed to by each team?
    Dr. Lombardo. I believe so. I think that Mr. Tagliabue can 
answer that better, Mr. Henderson can answer it better than I 
as far as the exact way the rule is written.
    Dr. Finkle. Could I just address your question with respect 
to independence? There is perhaps more independence in the 
League's program than you might first imagine. The League has 
advisory committees made up of independent scientists, 
physicians and other knowledgeable people that meet at least 
twice a year and advise the League, very frankly and openly, 
about the kind of issues we're talking about here today, our 
deficiencies, how they might be rectified and how they might be 
improved.
    Mr. Sweeney. My point is who chooses them? How independent 
are they?
    Dr. Finkle. They're independent in the sense that they're 
certainly not employed by the National Football League; neither 
am I, neither is Dr. Lombardo. I'm an independent consultant to 
the National Football League, but I also am a consultant to 
WADA and to the U.S. Anti-Doping Agency, and I consider myself 
an independent professional person. I provide as frank and as 
open opinion based on my profession as I can to the National 
Football League when I'm asked, and if they don't accept my 
advice, that's the way it goes. But I'm independent to that 
extent.
    I just wanted to point out that the programs as a whole, 
including the treatment program, have these advisory committees 
that advise the League and look after them. So it's not 
entirely an in-house closed room in which decisions and 
policies are made.
    Mr. Sweeney. I will conclude. I've got some other questions 
I want to submit to you, Dr. Finkel.
    But the NIH has already studied and recognized that there 
is a shorter life expectancy among NFL players, and I'm 
wondering if you have done any research or looked at the notion 
that it could be connected to the steroids use of other 
substances because there is a long way for the NFL to go----
    Mr. Shays. We need a short answer to that, a yes or no, 
have you done it?
    Dr. Lombardo. The commissioner stated a committee to look 
at cardiovascular disease, and that issue; and they will start 
working on that this year. It was put together last year.
    Mr. Shays. Thank you, Mr. Davis, you have the floor.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And I want to thank all of the witnesses for participating in 
what I think is one of the most serious discussions of this 
issue that I've heard, and I really appreciate the fact that 
you're here.
    I want to go back to the philosophical construct because I 
think that sort of determines to a great extent what we do and 
how we do it, and how we try and arrive at where it is that 
we're trying to go. And while I know that there are no simple 
solutions to very complex problems, it seems to me we're not 
certain how effective we are in curbing or beating back or 
holding down the use of performance-enhancing drugs.
    In your estimations--and I guess they would have to be 
quick answers because of the time--how effective are we being? 
And would you have any concrete recommendation for us? I mean, 
what can we, as Members of Congress, do that will help reduce 
this problem, especially as it relates to the national programs 
of athletics that we have, but also the impact on young people 
growing up? Because I happen to believe that drug use and abuse 
is one of the most serious challenges that we have in our 
country today. So if you could just respond to that as quickly 
as you could, I would appreciate it.
    Mr. Courson. I'd like to respond to that. I think one of 
the things that we need to do, as I mentioned in my opening 
statement, is to work together with the high schools to develop 
a standard school policy that everyone has to follow; I think 
that's a positive first step.
    Second to that, obviously we need to do more research as 
far as cleaning up some of the loopholes in drug testing and 
research in the long-term health effects.
    And third, obviously any school policy is not effective 
without an educational component. And a uniform code of either 
discipline and/or treatment to deal with offenders. And then on 
top of that, again, I'm repeating myself here, but I do believe 
we need to nip in the bud the oncoming problem with genetic 
engineering, I can't repeat that enough. It's here.
    Dr. Wadler. And I think, as I said earlier, that we've seen 
a sea change since Senator McCain's hearings back in 1999. I 
think it's had a profound effect. And if you look over the last 
6 years, there has been many steps on the road which brings us 
here today. But I think it's not a time for adjustment at the 
margins. I really think it requires a paradigm shift in our 
thinking. And I, again, put out for this committee and for all 
those who are seriously studying this issue that we adopt a 
world anti-doping code as our gold standard, as our road map 
and make those adjustments so they can apply to the various 
sports as appropriate. But it's time to move away from the 
little changes and add this substance, do this little thing, do 
that little thing, it really requires that paradigm shift.
    We now have a global standard, I think we should endorse 
that global standard, and I think that will enable us to 
address issues like genetics and gene doping, it will allow us 
to address creative ways of developing educational programs, it 
will enable us to provide the necessary research funds to do 
the research that is absolutely necessary as we go forward, and 
it will provide us with the standards of lists of substances to 
be addressed, it will give us the process for adjudicating 
cases where individuals have been accused of doping. I just 
think it's time for a paradigm shift and to move away from just 
slight adjustments at the margins, which is what we have been 
tending to be doing.
    Dr. Lombardo. Mr. Davis, I think that when you use the word 
philosophical, my Jesuit training takes me back to the essay. 
The world is an essay, it's not a multiple choice and objective 
test. And the essay starts with what's the cause of this thing, 
and the cause of this thing still comes back to that one thing, 
that winning is the only thing that counts, no matter how you 
get there, and that's what we espouse.
    When we bring people and take winners, put them on 
pedestals, give them so much adulation and praise, then that's 
what our youth are going to want to be.
    The other thing is we have to take a realistic look at 
ourselves. Genetically I would never play in the NBA, so I 
cannot be anything I want to be. There is no drug, nothing that 
could have got me there. But there are people who think they 
take a drug and they can become that type of athlete, the 
genetically special people. Realize our limitations, take 
winning out of the equation, I think you have a start. And then 
educate people along the lines of the program that Dr. Goldberg 
says.
    Mr. Davis of Illinois. I thank the gentleman, very much.
    I consider myself a pretty staunch libertarian in terms of 
individual rights, individual liberties, but I do believe that 
we've allowed standards of expectations to slip, and we do need 
to look at changing the paradigm shift.
    Thank you very much, Mr. Chairman.
    Mr. Shays. I thank the gentleman. I haven't yet asked 
questions, and I would like to start by asking you, Mr. Barnes. 
I'm a bit unclear as to the reaction of the parents--I don't 
want to dwell a long time on it. But the 10 students that were 
suspended also have charges against them, and I just want to 
know if the parents basically were reinforcing your suspension 
or questioning it, and that's what I wanted you to just focus 
on.
    Mr. Barnes. Realize, of course, that I have to go back to 
my town----
    Mr. Shays. I understand.
    Mr. Barnes. And coach these parents and their kids that are 
still coming out, so I'm going to be as diplomatic as I can 
with this answer; but I can tell you that their focus was out 
of their concern more for their personal rights of being 
allowed to come in the interviewing process when the kids were 
asked to tell the truth. They've had a great deal of focus on 
that. They're very upset with the school principal at that time 
and myself--I'm the only one that's still there.
    Mr. Shays. OK. I get the gist of it. But the bottom line is 
you sent a tremendously positive message to every kid that 
follows, and I hope that you're not inclined to back off----
    Mr. Barnes. Oh, I don't in any way apologize for what I 
did. I prayed and studied on this daily, and it was a difficult 
time for me. And I feel like I stuck with and did the right 
thing. And there are many in our community that were proud of 
the way it was handled, it's not just that. But these people 
are the parents of these young men, who they love.
    Mr. Shays. I understand they love their kids, but they also 
are teaching their kids an incredible message.
    Evidently I'm needed on a vote. Mr. Waxman, I'm going to 
give you the gavel. And we will go to Mr. Clay. I'm sorry, Mr. 
Souder is here.
    Mr. Souder [presiding]. I'm sorry. We're having a recorded 
vote over at Homeland Security, and Mr. Davis and Mr. Shays and 
I are all there.
    Mr. Clay.
    Mr. Clay. Mr. Courson, you have stated in your testimony 
that human growth hormone and testosterone in low doses have 
long been a strategy used by athletes in many sports to avoid 
detection. Do you have evidence that football players are using 
human growth hormones?
    Mr. Courson. I don't have any direct evidence, all I know 
is what has been reported in the 60 Minutes piece. That was the 
combination that they reported, testosterone creams and the 
growth hormone, talking about growth hormone, which makes 
sense, understanding some of the frailties in drug detection.
    Mr. Clay. Have you ever witnessed any player using----
    Mr. Courson. Anabolic steroids back in my time? I've 
witnessed a lot of anabolic steroid use, but back in my time 
there was no stringent policy like the NFL has today. I played 
before random testing and before the NFL basically started 
their testing program.
    Mr. Clay. Thank you for the response.
    Dr. Lombardo, the NFL's policy bans human growth hormone 
but doesn't provide the testing for HGH. Since HGH is detected 
through blood tests and the policy does not provide for blood 
testing, why doesn't the NFL test for HGH?
    Dr. Lombardo. I'm going to defer this to the scientific 
consultant that we have who tells us whether tests are to be 
used.
    Dr. Finkle. Certainly there is a validated test for growth 
hormone that was applied at the Athens Olympic games; it is not 
perfect, there is much yet to do in development.
    Ideally we would like a test where we continue to use urine 
specimens, or even alternative specimens such as saliva. It 
would be up to the negotiating parties, the League and the 
Players Association, to agree that this problem--on the basis 
of advice from people such as me and others--needs to be 
addressed, and at the point that they address it and decide 
that blood sampling needs to be taken and analyzed, we will be 
ready to do it. That is the position as we are today.
    Mr. Clay. Thanks for that response.
    Dr. Wadler, you recommend that the NFL conduct blood tests 
for the human growth hormone. Why do you think it is important 
to test for HGH?
    Dr. Wadler. Well, clearly it is a feeling in many quarters 
that it's being abused. We know there is no urine test that is 
acceptable at the present time, so the only option we have is a 
blood test. And knowing its limitations, that does two things; 
one, it sends a message that you could get caught; and second, 
if one is caught, there are consequences to pay. I'm saying 
there are other things we can find out from blood as well the 
NFL doesn't test for, like EPO, which deals with endurance. But 
with respect to growth hormone, I think there is strong reason 
to believe it's being abused, and we currently have no test for 
it in urine. If we have any way to detect it other than 
intelligence, being caught with the goods, if you will, it's by 
blood testing.
    Mr. Clay. According to the----
    Dr. Finkle. Just to followup with a very brief comment if I 
might. About the worse thing we can do, certainly as a 
scientist, is to put in place a test that is not full proof 
with respect to detection. If we announce to any population of 
suspected drug users that we're going to use a test to catch 
them and they learn that test is inadequate, then it is 
completely ineffective. And I think the degree of conservatism 
exercised just at the moment with respect to growth hormone is 
well placed.
    Mr. Clay. You're going to have to cut it short because my 
time is running out, but doesn't the Anti-Doping Agency have a 
blood test that's reliable?
    Dr. Lombardo. The answer is yes. We ran the test in Athens 
that was validated, it's an isoform test, and that's the 
answer.
    Mr. Clay. OK. Dr. Wadler, according to the NFL, random in-
season testing typically takes place on certain set days of the 
week. Newer steroid creams and patches can be used in such a 
fashion that they are undetectable even after only a day or 
two. So if a player knows he will only be tested twice a week, 
he can take steroids on a schedule that will allow him to pass 
tests given on those 2 days.
    Would the NFL policy be improved by changing the testing 
schedule so that it is impossible for players to predict the 
day of the week in which they might be tested?
    Dr. Wadler. As I said previously, steroid testing should be 
done 365, 24/7; you never know when they're going to come for a 
specimen.
    Dr. Lombardo. Mr. Clay, I think there is one misconception 
about that.
    The individuals who use steroid creams can stay under any 
level because what they're doing is masking and staying under 
the level of 4-1. So regardless of what day of the week it's 
testing, regardless of what organization does the testing, the 
same labs do the testing, the same labs are looking for it, 
therefore creams could be used the day of the test in a WADA 
test or our test. We still have a problem.
    Mr. Souder. Thank you, Mr. Clay. I yield back to Mr. Shays, 
since I cut him off earlier on his question.
    Mr. Shays. Thank you. Mr. Barnes, let me just say to you, 
you did the right thing. And it's a tough decision, I know 
parents love their kids, but these kids are learning life's 
lessons. But the thing that disturbs me a little bit, and I 
would like comment from all the panelists, when I hear of high 
school kids that are involved in this, they're arrested, 
they're charged with a felony, I don't hear that when I hear 
major league sports players get it. Somebody explain to me why 
would the kids become felons and with the League guys, they 
don't. And maybe, Mr. Courson, you could start off. Is your mic 
on, by the way?
    Mr. Courson. Yes, it's on. That is a very interesting 
question, applying the law tougher to minors than you do to 
adults, again, that doesn't make sense to me. Again, that 
probably reflects on the elevated stature that athletes at the 
elite level are given. And obviously that's not what I would 
call a great message.
    Mr. Shays. Mr. Finkle, maybe you could respond to that one?
    Dr. Finkle. Well, just briefly. Clearly the National 
Football League is not a law enforcement agency. As you well 
know, players like any other citizen that contravene the law 
are indeed arrested with some frequency and are prosecuted. And 
the League supports that as far as I know, and supports it when 
it involves drugs, which involves me with the testing.
    With respect to why law enforcement agencies don't charge, 
on a regular basis at least, players that have used or 
possessed or distribute steroids, I can't answer that, I don't 
know.
    Mr. Shays. Let me ask a question of all of you and just go 
down the line. I would be interested to know whether you think 
that there should be a uniform policy in the NFL, Major League 
Baseball, the NBA and the NHL, a uniform policy on steroids 
which, if there was, it would probably involve the Federal 
Government encouraging that.
    Mr. Stewart.
    Mr. Stewart. I think there need to be one policy for all 
the professional teams, because as has been mentioned today, 
there are some loopholes, depending on what major sport you're 
participating in, baseball compared to football compared to 
hockey.
    Mr. Shays. Mr. Barnes.
    Mr. Barnes. Well, obviously the effect of this, just as you 
said, and there does need to be uniform laws down the road, all 
the way through from professional sports. Don't contain it just 
for professional sports; the college level, the high school 
level, the kids need to know and the parents what the judgment 
is going to be for being held accountable. And that's something 
that we didn't have, we didn't have an equal accountability for 
our situation. That's hard for me to answer to those parents.
    Mr. Shays. Mr. Courson.
    Mr. Courson. I think a uniform testing program is a good 
idea but, I might add to what Coach Barnes said is that the 
NCAA is big business also, and when we talk about the--we were 
talking earlier about the sizes of the linemen; the cycle 
starts in high school, and then it goes to college and then it 
goes to pros. So the NFL is caught between a rock and a hard 
spot because they get what comes to them.
    Dr. Goldberg. Harmonization of all the policies, I think, 
would take pressure all off the leagues, too; so I think it 
sounds great.
    Dr. Wadler. I think I have been making that point kind of 
consistently. I believe there should be uniform policy based on 
the World Anti-Doping code for all professional sports, not 
limited to anabolic steroids, but also to other performance-
enhancing drugs.
    Mr. Shays. Thank you.
    Dr. Lombardo. I think that there is individual differences 
among the different sports that have to be maintained and 
respected before someone puts a uniformed code. Things have a 
tendency to migrate away from superiority to mediocrity when 
you band things together.
    Mr. Shays. I don't understand that, but I would like to 
come back if I can.
    Mr. Finkle.
    Dr. Finkle. Yes. I believe that in general principles. For 
example, I think that all sports should stand together and ban 
unequivocally these kinds of drugs, absolutely unequivocally.
    Mr. Shays. And have the same basic penalty as well? In 
other words, with baseball it's five strikes, with football it 
appears it's four strikes.
    Dr. Finkle. It might be a nice thought; how that would 
apply, given--I'm not a lawyer or an executive of these sports, 
but I think those things are so intimate to the negotiation 
process in sports that it would be wrong and inappropriate for 
me to make such a statement that all penalties across all 
sports should be the same. But I think the basic principles 
should be uniformly applied. We all condemn the use of these 
drugs, they are very serious, have very terrible health 
consequences. But I think the application can be a little bit 
different----
    Mr. Shays. My time has expired.
    Dr. Finkle [continuing]. As the needs arise.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by first saying the name John Walters; does 
that ring a bell to you, Dr. Finkle?
    Dr. Finkle. Yes, I know John Walters.
    Mr. Towns. How about you, Dr. Lombardo.
    Dr. Lombardo. No.
    Mr. Towns. How about you, Dr. Wadler?
    Dr. Wadler. Director of the Office of National Drug Policy.
    Mr. Towns. That's correct. And the reason I asked that 
question is it seems to me that you should have some discussion 
with him along the way. If he is in charge, I mean, it seems to 
me you should be talking to him; there should be some dialog 
and communication at some point in time.
    Dr. Wadler. I have, since 1999, communicated regularly with 
the Office of National Drug Control Policy; they have been 
intimate in the development of the World Anti-Doping Agency, 
the World Anti-Doping code. They sit on the executive committee 
of the World Anti-Doping Agency, have chaired some of their 
educational initiatives of the World Anti-Doping Agency. They 
certainly have been a very active player over the past 6 years.
    Mr. Towns. What about you, Dr. Goldberg?
    Dr. Goldberg. I worked with him also since 1999. Tomorrow 
I'm going to New York to meet with magazines about the problems 
of drugs in sports. In fact, this is my packet from Mr. 
Walter's agency. And I'm going to--I spoke last week in Dallas, 
TX about drug testing in adolescent sports. So they've been 
very active and very helpful, from conferences and dealing with 
the media in the National League, meeting with press for many 
years.
    Dr. Finkle. The same is true for me. And likewise, I have 
given, even in the past year, talks for ONDCP at high schools 
and high school programs. And I might add the senior person 
employee at ONDCP was, for a long time, a member of an advisory 
committee to the NFL; so there was a relationship.
    Mr. Towns. Well, I'm happy to hear that at least some of 
you know him, I'm happy to hear that.
    Let me ask this question: Do you feel that the Congress 
really should be involved in this issue? And just go right down 
the line, yes or no. Do you feel that the Congress should be 
involved in this issue of steroids?
    Dr. Finkle. To the extent that these hearings heighten the 
awareness of the public in general in all of the aspects that 
you have heard today, I think it's extremely important that 
Congress has a voice in this problem.
    Mr. Towns. Dr. Lombardo.
    Dr. Lombardo. As leaders of the country, you set the tone 
for the country. If you call this a severe problem then it can 
be viewed as a severe problem; if you don't, it won't be.
    Dr. Wadler. As I said, going back to 1999, I think the 
Congress led the way in the hearings in the Senate, addressing 
Olympic sports. In the 6 years since then, I think the Federal 
Government has played a significant role. We already saw the 
reaction of baseball when they had to testify before this. I 
understand that even as a result of these hearings today, some 
modifications in the NFL policy, which may have occurred 
anyway, I don't know; so I think it's an essential role, and I 
look forward to it being a continuing role.
    Mr. Towns. Dr. Goldberg.
    Dr. Goldberg. There are potentially dangerous drugs, 
Congress has made them illegal. They are drugs that have 
infiltrated adolescent sport. I think it's important to address 
this issue head on, and Congress has done that, and then 
expanded on the list just this last October. And I think it's 
important that Congress do be involved.
    Mr. Towns. Mr. Courson.
    Mr. Courson. Yes. I really agree with Congress being 
involved. All I have to think about is 500,000 to a million 
adolescents using, I think that says it all.
    Mr. Towns. All right. Thank you, thank you very much.
    Mr. Barnes.
    Mr. Barnes. Yes. Continue to be involved. And support those 
that do the things that you feel like are right and make sure 
that the media puts that out there also. When the NFL does 
things that you think are good versus what baseball is doing, 
expound on that. Challenge their own peers. Let baseball say to 
themselves, if they're happy with the things that the NFL is 
doing, we need to get our act together. And stay involved, but 
continue to challenge.
    Mr. Towns. Mr. Stewart.
    Mr. Stewart. I also feel that you should stay involved. We 
need big brother looking down on the rest of us to make sure 
we're doing the right things. Again, we've got young folks' 
lives at stake, we want to protect that.
    Mr. Towns. Let me just ask a followup question because my 
time has expired. In your discussions with Mr. Stewart, at any 
point in time did he propose a national testing--a toxicology 
lab, a national toxicology lab? Walters, I mean. John Walters.
    Dr. Finkle. Not in any discussions I've had with his staff, 
no.
    Dr. Wadler. No that I'm specifically aware of. But clearly, 
again, they have been intimately involved with the laboratory 
aspects of the World Anti-Doping Agency, including USADA. But 
in terms of a national independent one, I have not--I'm not 
aware of that.
    Mr. Towns. Does that make any sense?
    Dr. Wadler. Well, I think the U.S. Anti-Doping Agency is 
well equipped. They have a WADA certified laboratory, really 
state-of-the-art. There is some 32 labs in the world.
    Mr. Towns. But we're talking about in the country, we're 
talking about uniformly, we're talking about all the way 
through in terms of all sports, even in high school, I think, 
as Mr. Stewart mentioned early on. If we're talking about that, 
then why don't we come up with a national lab, toxicology lab 
for everybody to send it there, they evaluate it and tell you, 
because I think that's important.
    Dr. Wadler. I don't think it's a matter of the process. We 
now have standards for anti-doping laboratories, which is 
different than forensic laboratories and clinical laboratories. 
The question is how many should the United States have to meet 
the demand? And I think that's a practical issue. As you heard, 
there is going to be an NFL lab now in--is it Salt Lake? In 
Salt Lake. We may need one on the east coast to accommodate 
testing.
    It's a very expensive business, it's a very technical 
business. And Dr. Finkle can certainly attest to that. So I 
think we have a mechanism to produce the laboratory--as many 
laboratories in this country as the demand requires. The 
standards are there. We don't have to reinvent the wheel in 
that regard. It's just the numbers of them.
    Dr. Finkle. I agree with that statement, but there is a 
need to support all this testing with research. And some 
countries in the world have, in fact, adopted a national 
laboratory for that purpose, for doing research, being a 
central resource, and providing the operational laboratories, 
the testing laboratories in their particular countries with 
that kind of support as they go about the testing. And I think 
that is something that can be considered very seriously in the 
United States.
    But funding is an issue; I mean, you've heard a lot from 
Dr. Wadler about the World Anti-Doping Agency today, but even 
they are struggling with money; I mean, they're going to cut 
back testing by quite a bit because they don't have enough 
money to do what they think is the right thing to do.
    Mr. Towns. See, now you make an argument for centralizing 
it.
    Mr. Souder. Mr. Towns, you've gone over quite a bit 
already. I understand the problem that you're addressing, but 
we need to keep it rolling.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I was one of those members who was 
reluctant, when we had the baseball hearings, whether or not it 
would just be a media show or it would be productive; and after 
that hearing and this hearing here today, I think it is 
extremely productive because we've put the issue on the table. 
And one of the main reasons that we're here is because of the 
impact that our professional players have on our younger 
generations, and it is important that we deal with that issue. 
Now with that in mind, I want to talk to the coaches or ask the 
coaches some questions.
    We've been identifying some problems, Congressman Towns 
just raised the issue and went through the questioning on 
whether Congress should be involved. My issue to you first is, 
what resources do you think that you need that you don't have 
now, whether it's congressional oversight, whether it's 
education, whether it's money, whether it's your principals, 
your school district superintendents; what are the resources 
you need to address the issue that we're dealing with respect 
to the use of steroids as it relates to younger players?
    Mr. Barnes. I don't know that our resources are really the 
major problem in our situation. I mean, again, I can't speak 
for across the Nation, but I can speak for our particular 
situation.
    But obviously money and the ability to educate the parents 
and the kids is always important; that's the way that you hope 
that you stop the problem. We can talk about punishment and 
that type of stuff all we want, but if we could just educate 
the parents and the kids where they didn't feel infallible. The 
kids really believe I can take these steroids, and nothing is 
happening to me right now, so I'm not being harmed.
    And things like what this committee is doing and the things 
that the media has brought out through the BALCO situation, 
that's all, as far as I'm concerned, positive in educating our 
kids.
    Like has been mentioned before, I think Dr. Goldberg, you 
can bring in film and you can bring in speakers all you want, I 
truly believe that you would be a waste of money, I hate to say 
that, but that's my gut feeling; because then we get back to 
what we've talked about before, it is the peer pressure, it's 
the enabling by the parents, it's what they see with their role 
models, it is a combination of all these things that are going 
to have these young people feel invincible and I'm going to 
give it a try. And I may have talked in circles here and not 
given you an answer, but I don't know for sure that's it's 
doing all those kinds of things.
    Mr. Ruppersberger. Let me ask you this; those of us who 
played sports will say our coaches had a tremendous amount of 
impact on our life, you have to be disciplined, you have to 
sacrifice, it's teamwork. There is a school in my district, 
Delaney High School, that requires each player to sign--ahead 
of the season to sign a form, and then the coaches go over with 
the player that you're going to be held to a higher standard, 
that if you are involved with alcohol you will be disciplined. 
And again, do we need to educate our coaches more, the coaches 
who have the discipline and really have the influence over 
these kids?
    Mr. Barnes. Well, I think coaches clinics would be a great 
place for that, but with the proper funds and funding----
    Mr. Ruppersberger. Well, I'm talking even more than just a 
clinic, a system that is going to deal with this issue. I'm 
going to get to you docs soon. Do you have anything to say on 
what I asked?
    Mr. Stewart. I would just like to add that I still feel 
that the education in my situation would be a big help. I don't 
see any additional funding really addressing the problem, we 
just need to get the word out to the young men and young women.
    Mr. Ruppersberger. But we need to have a system to make 
sure that we implement it. Let's go to the docs.
    Dr. Goldberg. I've been studying this problem for 18 years, 
and I've literally talked to hundreds of school districts 
around the country and in Puerto Rico, when we put our programs 
in, and people that would like our program.
    I think most important is funding. It doesn't cost a lot to 
do education funding, say for our program it's about $5 a kid, 
that's about it.
    Mr. Ruppersberger. But you know, we always talk about 
funding. We need to have a standard in the system of where the 
funding is going to go.
    Dr. Goldberg. Well, I think what you have to do, there are 
verified programs by the National Institute on Drug Abuse that 
have been verified to work, and there is model programs. And 
Mr. Sweeney had said, well, government can't cover everything, 
and I agree with that----
    Mr. Ruppersberger. My light is coming on, and I'm going to 
get something out because then you can talk but I can't.
    First thing, we need to involve the parents, that's an 
important issue that we really haven't talked about, and what 
programs are available. But before we even have any of our 
students play these sports, do we need to bring them all in, 
individually and as a family? That's another thing.
    There is the issue of online purchasing of steroids, I want 
to ask you all to think about how we deal with that. It's 
tough, it's coming from other countries, and we clearly need to 
deal with that because it's accessible, one way or another the 
kids are getting it. So let's talk about how we implement and 
what we're going to do to focus on that. Comments, and then my 
time is up, so you can keep talking.
    Dr. Wadler. Regarding coaching, I do think we need to 
address in this country the issue of coach certification. If 
you get your hair cut, somebody has to get credentials, if you 
get your nails done, somebody needs to get credentials. We have 
no credentialing, as far as I know, mechanism of coaches who 
have this enormous impact on young people. The coach says jump, 
the kid says how high; the parent says jump, I'm not jumping. 
So we need to address that, somewhere along the line, the way 
we deal with coaches in this country.
    Mr. Ruppersberger. OK, Dr. Lombardo.
    Dr. Lombardo. You need a multipronged effort. I mean, the 
one effort is education. You have to educate people, otherwise 
there is no chance for them at all to have anything to change 
because they don't know any different. I think you're going to 
have to implement something with parents. Unfortunately when we 
went to school, the parents--if I got in trouble with school or 
you got in trouble at school, we were in trouble at home. Here, 
the school is in trouble and the child comes home in trouble. 
That's an attitude we have to change; that's educational.
    I think there has to be research because we don't know 
enough about a lot of these things, we need to know more. And 
we're always going to need to know more because there will 
always be more coming out there. There is a dark side to this. 
As BALCO brought out, avery intelligent biochemist made those 
drugs, this wasn't somebody make it in the bathroom. And I 
think some research needs to be done, and ongoing research 
funds need to be available in order to fight this battle.
    Mr. Courson. I think you also need a deterrent, and when we 
talk about drug testing at the high school level, with the 
expense of it, I think most school districts will cringe. But 
in Pennsylvania, for instance, part of the work I do is geared 
at overweight kids, childhood obesity. And in Pennsylvania 
we're implementing body mass indexing of our kids; and what you 
could do to offset the prohibitive costs of drug testing at the 
high school and junior high level, is use body mass indexing to 
basically chart some unusual growths that would occur, and then 
use the limited testing on those kids to basically funnel them 
to the appropriate discipline and help.
    Dr. Goldberg. If I could comment on that. That sounds like 
a great way to deal with those athletes that are increasing 
mass. Take a look at the first baseball player in Major League 
Baseball that was caught, he was not a big guy, he was a 
regular size guy that was using something. And so you've got 
small wrestlers, you've got small weightlifters, you have all 
different people that can use this for recovery and not 
necessarily for mass. So there is a difference in just doing 
that.
    Mr. Courson. Right. That's true, but you could use limited 
drug testing randomly throughout the rest of the athletic 
population also, and the students. It's just cutting down 
costs.
    Mr. Souder. Thank you. I wanted to ask Mr. Stewart and Mr. 
Barnes, have you had athletes that have been recruited by 
colleges, NCAA?
    Mr. Barnes. Yes.
    Mr. Souder. Do you know what the rules are as far as what 
colleges can give you? How many contacts they can make to your 
kids?
    Mr. Stewart. Yes.
    Mr. Souder. And do you follow those pretty rigidly?
    Mr. Stewart. Oh, very much so.
    Mr. Souder. Would you say high school coaches follow that 
more rigidly and are more concerned about that than they are 
steroids in this instance?
    Mr. Stewart. Well, quite a few of the coaches do because, 
again, you want to continue to have those coaches recruit your 
schools; and if you break the rules, NCAA will come down on the 
university, and in turn, they will probably stop recruiting in 
schools.
    Mr. Souder. Don't you think it's interesting, because as an 
alumnus of Notre Dame, one of the things they make crystal 
clear to every alumnus, if you take any possible recruit out to 
even lunch, you could put their whole program in danger. If you 
recruit illegally. Why do you think there is so much concern 
about that and so little, comparatively, in the system about 
steroids? In other words, is it the sanction? Because what you 
immediately raised was the sanction, they might not recruit, 
the university might not recruit because they might lose their 
ability to build their ball game. And when we alluded to this 
earlier, maybe some of the problem here is that there needs to 
be penalties broader than the individual, and would the 
behavior--let me ask Dr. Finkle this question.
    Do you believe that if the team was told that if one of 
their players was caught, that they would not be eligible for 
the post season games, that they would implement different drug 
testing policies?
    Dr. Finkle. You're speaking at the college level and the 
high school level?
    Mr. Souder. I think I have clearly indicated at high school 
and college, that the fear of sanctions creates major behavior 
changes at every high school, every college, not about 
narcotics, but about recruiting--which is less dangerous to the 
kids, less dangerous to the universities than narcotics--and 
when they stand up to communicate it, they didn't all of a 
sudden say this is a lot of money, this could impact our 
university and so on; what they saw was they might get 
suspended as a team, in addition to the players.
    And the question is, because this comes at the core of can 
you catch it or not, if a given team like the Indianapolis 
Colts felt that if one of their players, maybe even a second 
tier player could keep them from being eligible to go to the 
playoffs, would they implement a different drug testing policy.
    Dr. Finkle. Well, I don't think the team can implement the 
policy, the League and the Players Association in agreement 
would have to implement the policy.
    But to answer your question, of course such very, very 
severe consequences for detection of players or a single player 
that was using an illegal drug, that would have a tremendous 
effect, there is no question about that.
    Mr. Souder. So you believe they would actually change their 
policies?
    Dr. Finkle. I don't know whether the League or the Players 
Association would change the policy or not. The club doesn't 
have a policy, the League and the Players Association have a 
policy.
    Mr. Souder. The fundamental question here is can it be 
done? And that suggests it could be done, what it is, is there 
a will to get it done?
    Dr. Finkle. Absolutely, that is the question, is there a 
will to do such a thing and how effective it would be.
    Mr. Barnes. Mr. Souder, could I say something to that? I'll 
be quick.
    It concerns me that we--and I know that you're trying to 
get to a positive end to this, but it concerns me that we would 
go so far as to punish a whole team for the actions of one 
particular man. And I'm a team person, that's what I try to 
teach our kids is that we're in this together. Now the 
punishment phase, having everybody punished, is punishing those 
that have done everything right, with the exception of a 
particular person.
    If we get so deep into this that we're going to punish the 
whole program over the actions of one particular young man, 
then I don't think the punishment will fit the crime. That's 
just a personal opinion I'm just throwing out there.
    Mr. Souder. So you disagree with the NCAA----
    Mr. Barnes. I'm concerned that it punishes those that are 
doing things right when you go that deep as to punish a whole 
program.
    Mr. Souder. I understand the concept. But you disagree with 
the NCAA sanctions on these universities that illegally 
recruit?
    Mr. Barnes. No, I think that they're the best thing that 
could happen.
    Mr. Souder. Then that was punishing the university over an 
individual case because often the coach doesn't even know. The 
university doesn't even know. Universities have lost their 
ability.
    Mr. Barnes. But I believe in the university level there's a 
personal punishment before there's a team sanction.
    Mr. Souder. But if they have a team sanction, they have to 
report it to the NCAA. Then the NCAA looks at the sanction, 
and, in fact, it's treated as a team. Even if an alumnus does 
something on their own and the university doesn't know it, the 
coach doesn't know it, because we decided that the problem was 
so great that the only way to get this is to say, get real. You 
have to get down there in that. We had this in baseball. We may 
get into it today in football.
    One thing we didn't followup on that I found very 
interesting at the tail end of our baseball hearing, it had 
been a long day, and we had heard that these things were 
negotiated and that a team couldn't actually do anything 
because it was a negotiated contract. But it was interesting, 
because Mr. Towers said, at San Diego--he said after Ken 
Caminetti--and he said he was so frustrated with Ken Caminetti, 
who was a friend of his, and he hadn't seen it coming, he was 
astounded by what happened, that he said, we cleaned up our 
minor league system and our locker room.
    Afterwards as I reflected and looked at some of the 
testimony, I thought, what did he mean when he said, I have 100 
percent confidence we don't have it in San Diego? It may have 
meant that his players had to give a waiver to do it, but I'm 
not convinced, and if you're telling me, in fact, that the 
union or management would be the block here, and that this is a 
negotiated-type thing whether they're going to follow the law, 
that suggests we may have to intervene.
    But the key question here is that if there were sanctions 
that were broader--because if this is tough to catch, and it 
takes things like probable cause, shifts in body weight, shifts 
in performance behavior and so on, a random preseason testing 
with occasional testing before--particularly as the new 
variations wear out and you don't necessarily get to, is it 24 
hours, is it 72 hours, how long is it in the system, how do you 
track it; all those kinds of questions suggest the team has to 
have a direct incentive as well, and the trainers, and we have 
to basically award trainers in the locker room, the key people 
who can see this and do this, and they have to be viewed as 
quasipolicemen.
    Mr. Waxman. Mr. Chairman, before you recess, I just want to 
ask one last question of this group. You were asked whether 
there ought to be one uniform standard for all sports. I would 
like to ask a question similar to that, and that is whether you 
think there ought to be some independent group that runs the 
testing program rather than the league itself, because if the 
league comes up with a small figure, people will say, maybe 
they're not doing an adequate job. So for the integrity of the 
tests and for the public confidence that the tests are being 
done appropriately, what do you think of the idea of having an 
independent group do it? Whichever way. We could start with 
you, Mr. Stewart, if you're ready. If you don't have an opinion 
on it and you want to think it over, that is fine, too.
    Mr. Stewart. I think to me the issue is credibility, and an 
outside source shows a credible group.
    Mr. Barnes. Being at the high school level, it would be 
difficult for me to answer that question. So it's probably 
better if these gentlemen do.
    Mr. Waxman. Mr. Courson.
    Mr. Courson. I think an independent source would take away 
a lot of the headaches.
    Dr. Goldberg. I agree with that.
    Dr. Wadler. That's the point I've been trying to make. So 
many times I've made speeches at this microphone, but I do 
think you need that independence to provide the credibility 
that the public so desperately wants.
    Mr. Waxman. Thank you.
    Dr. Lombardo.
    Dr. Lombardo. Since I'm intimately involved in this, I 
don't think it's necessary to have an independent group. I 
think it can be adequately handled and is being adequately 
handled to the same extent that it would be by any independent 
agency.
    Mr. Waxman. Dr. Finkle.
    Dr. Finkle. I just want to emphasize what I said earlier on 
the same matter, and that is actually the program has a 
remarkable amount of independence now, and maybe we should 
emphasize that, find a way to put that out in an appropriate 
fashion so that the perception is not that in this case the NFL 
somehow has its cold hand on this. There are enormous 
independent aspects to it right now.
    Mr. Waxman. Thank you all very much. I very much appreciate 
the time you have given us.
    Chairman Tom Davis. I appreciate it. It has been a long 
morning for you. We will recess the hearing and, because we 
have intervening votes on the House floor, come back about 2 
o'clock. Thank you very much.
    [Recess.]
    Chairman Tom Davis. Commissioner, thank you. Mr. Henderson, 
Mr. Upshaw, thank you for your patience on this. Unfortunately 
we had a series of votes. I hope you at least got a lunch out 
of it.
    The committee will come back to order. We will now 
recognize our distinguished second panel. We have Mr. Paul 
Tagliabue, the commissioner of the National Football League; we 
have Harold Henderson, the executive vice president of labor 
relations for the National Football League; and we have Gene 
Upshaw, the executive director of the National Football League 
Players Association.
    It is our policy we swear everyone in before you testify. 
Just rise with me.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. I think you know the rules. 
Mr. Tagliabue, Mr. Commissioner, we will start with you. Take 
what time you need. Your entire statement is in the record. 
Again, we appreciate your patience. Thank you. Let the record 
note, too, they sat through the whole first panel to hear 
everybody testify out there in the audience. I know that 
everyone appreciates that as well. I know you have a high 
interest in this. We appreciate your proactivity in this area.

 STATEMENTS OF PAUL TAGLIABUE, COMMISSIONER, NATIONAL FOOTBALL 
   LEAGUE; HAROLD HENDERSON, EXECUTIVE VICE PRESIDENT, LABOR 
RELATIONS, NATIONAL FOOTBALL LEAGUE; AND GENE UPSHAW, EXECUTIVE 
     DIRECTOR, NATIONAL FOOTBALL LEAGUE PLAYERS ASSOCIATION

                  STATEMENT OF PAUL TAGLIABUE

    Mr. Tagliabue. Thank you, Mr. Chairman and members of the 
committee. I'm very pleased to be here with Harold Henderson, 
who's the head of our labor relations group for the teams and 
the league, and with Gene Upshaw as the executive director of 
the NFL Players Association, which is the collective bargaining 
association of our players. Gene, of course, played in the 
league during three decades and is a Hall of Fame player. He's 
one of two players in the history of our league to play in 
Super Bowls in three different decades, in the 1960's, the 
1970's and the 1980's. The only other such player is Jerry 
Rice. So I think Gene is very well suited by dint of his 
service as a player and as the head of the players union to 
speak to some of the issues about what has gone on or not gone 
on in locker rooms in the NFL in the past as well as currently, 
and I'm sure he will speak to that.
    I want to take my hat off to the prior panel because I 
think they illustrated for us something that we've tried to 
make an article of our business operations, which is to reach 
out and listen to people who are dealing with different aspects 
of sport at all levels of sport, and in particular I want to 
express thanks to Steve Courson and the two high school 
coaches, because over the term of my 16 years as commissioner, 
one of the things we've tried to do is have excellent relations 
with high school football in an effort to understand the 
challenges that they face and to see whether we can do 
something to help them, and if so, what that might be. So this 
was a continuation of a dialog that we've had going on.
    For my own part, I think I'm here not just as commissioner 
of the National Football League, but as a parent and as a 
grandparent, and also as someone who has spent most of his 
life, for better or worse, for richer or poorer, involved in 
sports. I would not be where I am had I not had the opportunity 
to go to Georgetown on a basketball scholarship, having grown 
up in Jersey City, spending 8 or 10 hours in school yards 
playing every sport under the sun. And so sports for me has 
been a great part of my life, and I still view youth sports and 
college sports as important to me as professional sports.
    The issues that the committee is considering are obviously 
wide-ranging and address a wide range of concerns, the health 
of athletes who use these substances, the values of sport that 
are either promoted or debased by what people in sports do, and 
the proper role of government and the private sector in 
combating the use of these substances.
    I'll say right at the top how I view our responsibility. We 
feel that our program is the best in American sports, but we 
have the responsibility to make it even better. It is often 
said, if it ain't broke, don't fix it. I've tried to operate 
for 16 years as commissioner on an opposite premise, which is 
if it ain't broke, fix it anyway, because things can always be 
made better, you can always improve your operations. That's the 
attitude that we come here with.
    For two decades, the National Football League has had very 
strong programs in place to rid its locker rooms and its 
playing fields of performance-enhancing substances. During that 
period we feel we've also been a positive force in helping 
youth football address these issues. We have not had all the 
answers, but we have worked with leading institutions, top 
scientists, top physicians and others to stay ahead of an ever-
changing curve. Our policies, which have included stiff 
discipline and sanctions as well as other elements, we feel 
have been constructive over the long term.
    Today I would endorse what Steve Courson and others said 
earlier, that the quickening pace of change in medicine and 
science, including genetics, is confronting all of us with 
challenges in the future that will make those of the past seem 
relatively easy to deal with.
    In our efforts, we've had strong support and active 
participation in all of our programs, including our youth 
football efforts, from the NFL Players Association, which, as I 
said earlier, is the collective bargaining representative of 
our player-employees. Together we continue to have, intend to 
have, very strong policies and programs to deal with the 
scientific, the medical, the ethical and the legal issues that 
are generated by the ever-escalating availability of body-
changing, performance-enhancing substances. They are body-
changing, they are performance-enhancing, and eventually they 
are going to be gene-altering. That's the environment that 
we're in.
    More than 20 years ago, in 1983, my predecessor Pete 
Rozelle notified all NFL players that anabolic steroids were 
within the categories of drugs prohibited for use in the 
National Football League. In 1987 and 1988, the league did 
testing to identify the dimensions of the problem and to 
educate players as to the risks that they were undertaking when 
they would use steroids or other performance-enhancing 
substances. In 1989, when I was the league attorney, 
Commissioner Rozelle suspended players for the first time for 
violating the league's then drug testing prohibitions. I want 
to say this, because I really believe it's important. We've 
been at this for 20 years. It didn't take Congress in 1999 or 
the creation of WADA 5 years ago for us to address these 
issues. We were there in the early 1980's, the mid-'80's, and 
the late 1980's, and we've been improving our program ever 
since. I'll come back to that issue a little bit later.
    Shortly after becoming commissioner in late 1989, we 
instituted a number of changes in the league's substance abuse 
program and in our relationships, meaning that we tried to get 
better and better services from independent outside parties. 
These changes took account of the growing complexity of the 
issues, the increasingly varied types of substances that were 
out there, as well as the need to ensure fairness in all of our 
processes. And Dr. Lombardo and Dr. Finkle from whom you've 
heard this morning have been key parts of our program.
    In the early 1990's, we also worked closely with the 
National Institute on Drug Abuse, with the White House Office 
on Substance Abuse. We made every effort we could to avail 
ourselves of the resources of NIH and other Federal agencies 
and programs aimed at interdicting drug use by Americans. I 
must say at that time, there were no federally financed 
programs for testing for steroids. There certainly was research 
going on for cocaine testing, marijuana testing in the 
transportation sector and other areas, but we funded, along 
with the Olympic Committee, certain labs along with 
universities. I believe the first two labs that were in place 
were at UCLA and one in Indiana. The one in Indiana then went 
bankrupt, and we've continued with the UCLA lab, which is an 
Olympic and WADA-certified lab. But we've been investing in 
research right from the beginning.
    Two other matters are key. The first is the subject of 
human growth hormone. Dr. Lombardo spoke about it a little bit 
this morning. We've prohibited this substance since 1991. 
Currently there is no readily available test. There was mention 
this morning of the fact that we're not testing for human 
growth hormone. Well, there is no lab in the United States that 
does test for human growth hormone. We understand that later 
this year, there may be one or more labs with this capability 
in the United States, and if there is, and if we can satisfy 
ourselves that lab has a test protocol that is validated and 
reliable, then we will consider how to incorporate the program 
addressing human growth hormone based upon blood testing, if 
that is what is necessary, into our programs. But when people 
say that the NFL's program is deficient because it's not 
testing for human growth hormone, that's because there has been 
no tests, and there have been no labs. The WADA tested, and of 
11,000 Olympic athletes, I believe, in connection with the 
Athens Games, 300, there were no positive tests, and so there 
is an issue as to the scale of use of this substance among 
athletes. But the basic point is that those tests were in 
Europe, the labs were in Europe, and there are no tests in the 
United States. So our standards there and our capabilities 
there are in line with everyone else.
    Second, on testosterone, this is an area that we've worked 
on for a decade or more. It is a substance naturally appearing 
in the body. We have been leaders, as Dr. Finkle said, in 
developing the testosterone, epitestosterone ratio tests that 
are used to identify the presence of illicit amounts of 
testosterone in an athlete. We have worked together with the 
other organizations to take the ratio down from 6:1, they're 
now down to 4:1, and to see whether there are even additional 
ways, as Dr. Finkle suggested, by comparing urine samples or 
the time line for a player's testosterone levels to show, to 
figure out that he has been using illicit amounts of 
testosterone, even if a single test doesn't hit the ratio.
    The one thing I think is critically important in this area 
is for us to be factual and complete and not selective and 
self-serving as we analyze these issues. Some things were said 
this morning that I don't think meet that standard. There was 
comments about our out-of-competition testing versus WADA's 
out-of-competition testing, and the suggestion was made that we 
are administering too many out-of-competition tests compared to 
WADA.
    We don't feel that our players are out of competition at 
any time of the year. They are employees, obligated, subject to 
collectively bargaining rules, to work 12 months a year. So 
there is no time of the year that they are out of competition. 
That's one of the reasons we subject them to year-round drug 
testing for these performance-enhancing drugs.
    Another area is with respect to therapeutic use exemptions. 
We don't give them because our players are not out of 
competition. The therapeutic use exemption in this context can 
become a fishing license to see who will give a prescription 
for a substance that we don't want used. So we have a system on 
our appeal process where it has to be raised as an affirmative 
defense.
    To suggest that our program is deficient because they do it 
one way and we do it the other way is to say that the rules of 
procedure in the Federal courts are deficient because the State 
courts do it differently. It's a minor point. Both programs 
have a great deal of validity. What you need is a process 
that's fair and balanced, and we have that.
    There are other areas that I also feel that there has not 
been a balanced approach. On the issue of the size of our 
players, we've been aware of it. You would have to be blind not 
to be aware of the fact that athletes in general are growing. 
We have Yao Ming playing in the NBA. No one saw Chinese players 
of that size playing in the NBA 20 years ago. One statistical 
point of interest is that over the past 20 years, based on the 
studies I've seen, our players have become both smaller and 
bigger. We have a far greater number of big players and a far 
greater number of smaller players, under 6 feet and under 190 
pounds. It reflects the specialization in our game, a so-called 
flea-flicker-type receiver or the fleet defensive back. At the 
other end of the spectrum we have the large player.
    With respect to the large players, we don't believe that 
they are getting there because of steroids. If you read all the 
literature about steroids, what does it do? It reduces body 
fat. It makes athletes lean and sculpted. It has an effect on 
muscular and skeletal structure. These large players are 
exhibiting none of those characteristics. To the contrary, they 
have high body fat. They tend to be the antithesis of the 
sculpted, lean athlete.
    If steroids were raging in the 1970's in the NFL, and I 
think everyone admits that their use has declined today, then 
we would have had more 300-pound players in the NFL in the 
1970's. That strongly suggests it's not related to the use of 
steroids.
    The other thing is the data itself. Gene Upshaw is going to 
talk about 300-pound players that he blocked against in the 
1960's. Where the notion comes up there were only 5 in the 
league 20 years ago when he played against 10 of them in his 
career in the 1960's, I don't know. The next question is, if 
more players are over 300 pounds today, how many were between 
285 and 299 20 years ago? We don't have that data in front of 
us.
    We created a special committee on obesity about 18 months 
ago, I appointed it, chaired by a team physician who is, I 
believe, at Johns Hopkins to address this issue of the large 
size of the players. We feel we have a universe of individuals 
that's nowhere else found in America. We're concerned about 
that. We want to make sure that we don't do things with those 
athletes, don't ask them to do things that will have long-term 
negative effects for their health, and perhaps in the process 
we can learn things about others in society who are going to 
have to deal with issues of obesity.
    So we're studying it, we're studying it seriously, but 
we're certainly not going to jump to a conclusion that because 
we have larger athletes today, there is increased steroid use 
in the National Football League. I think it's nonsense. Whoever 
thought we would have a quarterback like Daunte Culpepper? Bart 
Starr used to be the paradigm. Billy Kilmer used to be the 
paradigm. Today we have a young man who's 6 feet 6 and 268 
pounds playing quarterback. Are we to conclude that he's using 
steroids? I don't like to smear people in that fashion.
    I'll make a final comment about youth football. We started 
a youth football fund about 5 years ago. We funded it with our 
players association. The players gave up money that would 
ordinarily go into their salaries, about $150 million over 5 
years, to fund a youth football fund, which Gene Upshaw and I 
co-chair. One of the leading things we've done with this 
program is to put out materials like this for high school and 
youth football. This is a four-volume series that we published. 
It's published in hard copy. It's on the Internet on a Web 
site, NFLhighschool.com. It's on a lot of other Web sites. It 
was prepared with our funding in conjunction with the Yale 
University School of Pediatrics, the American Red Cross, the 
National Athletic Trainers Association, the Institute for the 
Study of Youth Sports at Michigan State University, and it's 
out there and can be downloaded in any house in America that 
has a computer, or in any school. We've distributed it to every 
high school in America. It's called Health Concerns for Young 
Athletes. It's a four-volume series.
    There's a whole section in here on substance abuse, 
emphasizing that for the high school--young high school 
football player, steroids are definitely a concern, and they're 
prohibited. But coaches need to know that other things, 
according to Federal statistics, are even a more severe 
problem, including alcohol, marijuana, cocaine, ecstasy and 
other recreational drugs. We have a whole section in here on 
anabolic steroids.
    So we agree 1,000 percent that dealing with this problem 
among young people is critically important, and we stand ready 
to intensify our efforts in that area. As many of you probably 
know, we have the longest-standing public service television 
program advertising series in support of the United Way. We 
could do additional things in this area. If messaging is 
important, if programs are important, we're prepared to fund 
programs as we have been doing around the country emphasizing 
these concerns.
    I'll stop there and be prepared to take your questions. We 
certainly appreciate the committee's interest in these matters 
and the fact that you have focused everyone's attention, 
including our own, on these issues.
    If it's permissible, I'll turn it over to Mr. Henderson and 
then to Mr. Upshaw.
    Mr. Waxman [presiding]. Thank you very much for your 
testimony.
    [The prepared statement of Mr. Tagliabue follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.083
    
    [GRAPHIC] [TIFF OMITTED] T1242.084
    
    [GRAPHIC] [TIFF OMITTED] T1242.085
    
    [GRAPHIC] [TIFF OMITTED] T1242.086
    
    [GRAPHIC] [TIFF OMITTED] T1242.087
    
    [GRAPHIC] [TIFF OMITTED] T1242.088
    
    [GRAPHIC] [TIFF OMITTED] T1242.089
    
    [GRAPHIC] [TIFF OMITTED] T1242.090
    
    [GRAPHIC] [TIFF OMITTED] T1242.091
    
    [GRAPHIC] [TIFF OMITTED] T1242.092
    
    [GRAPHIC] [TIFF OMITTED] T1242.093
    
    [GRAPHIC] [TIFF OMITTED] T1242.094
    
    [GRAPHIC] [TIFF OMITTED] T1242.095
    
    [GRAPHIC] [TIFF OMITTED] T1242.096
    
    [GRAPHIC] [TIFF OMITTED] T1242.097
    
    Mr. Waxman. Let's hear from Mr. Henderson next and then Mr. 
Upshaw.

                 STATEMENT OF HAROLD HENDERSON

    Mr. Henderson. Good afternoon, Chairman Davis and members 
of the committee. The commissioner introduced me. I'm Harold 
Henderson, appointed by the commissioner in 1991 as executive 
vice president for labor relations. I also head the NFL 
Management Council, the multi-employer bargaining unit. In that 
capacity I am directly responsible for all matters related to 
the players in regard to their employment by the clubs in the 
National Football League, including negotiation and 
administration of the collective bargaining agreement. That's 
with the players and the players association that represents 
the players.
    When I arrived at the NFL in 1991, labor relations was 
nonexistent. Following a players strike at the expiration of 
the contract in 1987, the players returned to work without an 
agreement. Several years of antitrust litigation followed, 
during which period the union disclaimed continuing 
representation of the NFL players and ceased doing business 
with the NFL. The parties were unable to resolve their 
bargaining differences 'til after a 3-month-long trial through 
the whole summer of 1992. Then we spent the next 6 months 
negotiating a new CBA with Gene Upshaw and his union.
    While we ultimately reached an agreement that is viewed by 
many as the best in the history of professional sports, that 6-
month period was one of hard-fought negotiations, often 
contentious and acrimonious. The total lack of trust on both 
sides of the table made the situation especially difficult. In 
short, we fought about everything.
    After negotiation of the CBA terms related to economic and 
system issues was completed in March 1993, the union and the 
Management Council turned their attention to the policies on 
drug and alcohol abuse, and steroids, and performance-enhancing 
substances. This was against the background of nearly 5 years 
without a collective bargaining agreement and 3 years without 
union participation, during which time both programs had been 
modified substantially. Discipline was instituted and 
subsequently increased, a strict liability standard was 
instituted, and additional substances were added to the banned 
list.
    Despite these changes, and despite earlier union objections 
to the discipline process and other policy provisions, the 
negotiation of the collective bargaining provisions concerning 
the policy on anabolic steroids and related substances was 
agreed in a relatively short time with very little debate or 
acrimony.
    The union agreed there was no place for steroids in the 
National Football League for three reasons. Their first concern 
was for the players' health. Even at that time there was 
sufficient medical indication of adverse medical effects on 
people using these substances. Second, they were concerned that 
the use of these substances would threaten the fairness and 
integrity of the athletic competition on the field as well as 
the competition between players vying for a position on the 
team. It was considered unfair and undesirable that players who 
did not wish to use those substances would feel forced to do so 
in order to compete effectively with those who did. Third, they 
recognized that our players are role models and that use of 
such substances may well influence young athletes to use them 
as well. Those were exactly the same reasons the league wanted 
a strong policy.
    After a thorough and detailed review of the then current 
policy, it was adopted by the NFLPA, making it part of the 
collective bargaining agreement without significant change. 
That included continuation of the league's adviser for anabolic 
steroids and related substances, Dr. John Lombardo, who spoke 
earlier today, and adoption of the same testing laboratories 
which had been used. It also carried forth the principle of 
strict liability. A player is held responsible for what is in 
his body.
    Others here today have described provisions of our policy 
in detail so I won't get into it. The NFL steroid policy has 
been modified almost every year since the Management Council 
and the NFLPA agreed. Most of those modifications involve 
adding to the banned substance list. It has been our practice 
to make those changes in the spring of each year, effective 
upon publication to the players in May of each year. Further, 
we meet twice a year with an advisory panel of experts in the 
field unrelated to the NFL steroid program, whose advice is 
used to ensure that our program reflects all current scientific 
and medical advances in the field.
    Over the years we've discussed with the players several 
times the appropriateness of the discipline schedule in our 
steroid policy. Our goal has been to balance deterrence and 
punishment with appropriate fairness for the individual. A 
first violation is punished by suspension of four games, 
regular or postseason, without pay. Our players are paid on a 
per-game basis, usually 17 paychecks over the course of the 
season, so that for the 4-week suspension, a player loses 
nearly 25 percent of his annual salary. Additional financial 
losses are incurred by forfeiture of signing bonuses or a 
failure to make incentives because they weren't on the field. 
For a second offense, a player is suspended for a minimum of 
six games, and a third offense for at least 12 months.
    These are severe sanctions for a professional football 
player. I think it is significant that in my 14 years with the 
league, there has never been a player suspended for a second 
time. The purpose of the discipline and our policy is as a 
deterrent, and we believe that it works.
    Education and awareness is also an important part of the 
program. We communicate to the players through direct 
communications and newsletters from Gene Upshaw and from me, 
bulletin board posters at team meetings. We established a toll-
free telephone line on which players can get information about 
dietary supplements and other potential sources of 
unintentional ingestion of banned substances. You heard here 
about our newly established supplemental certification program 
where manufacturers of food supplements can have them certified 
by an independent lab to contain no substances banned by our 
program.
    In summary, in a labor relations environment in which 
nearly every issue is hotly contested and debated, frequently 
resolved through arbitration or litigation rather than 
agreement, in the area of steroids and related substances, the 
league and the union have seen eye to eye on nearly every 
point. With full support of the players and the clubs, we 
maintain a very effective policy, tough but fair, which works 
for the clubs, the league, the players and the public.
    We will continue to be alert for new performance-enhancing 
substances and new ways to avoid detection. We will continue to 
use the most effective, reliable state-of-the-art methodology 
and equipment to detect illegal use of banned substances. We 
will continue to invest in research and development to keep us 
current on the scientific and medical developments in this 
area, in part through a new laboratory funded jointly by the 
NFL and the U.S. Anti-Doping Association. We will strive to 
continue to ensure that our players are positive role models 
for America's youth, athletes or not.
    I welcome your questions.
    Mr. Duncan [presiding]. Very fine testimony, Mr. Henderson. 
Thank you very much.
    Mr. Upshaw.

                    STATEMENT OF GENE UPSHAW

    Mr. Upshaw. Thank you, Mr. Chairman. I am Gene Upshaw. I'm 
the executive director of the National Football League players 
association. We're an exclusive bargaining agent on behalf of 
all the players in the National Football League.
    There are numerous issues in which management and labor 
disagree, and we are presently involved in a very serious 
extension of our collective bargaining agreement. But I want to 
start by saying there is no disagreement when it comes to this 
issue of steroid use and performance-enhancing drugs in our 
game. We will do all we can to get it out of the game and out 
of our society, because there is no place for performance-
enhancing substances in our American life.
    Our collectively bargained program on anabolic steroids has 
been in place for several decades and is the most comprehensive 
in sports today. How did we get here? In 1967, when I was 
drafted by the Oakland Raiders in the first round, I entered 
into a league that had no drug policy, that had no testing, 
that had no education, that had nothing in the form that we see 
it today. I played through the 1960's, the 1970's and the 
1980's. I retired after the 1982 season and became the 
executive director of the NFL Players Association.
    Back then, no one was keeping track of sacks. If you asked 
Deacon Jones today, he would say he would be the sack leader if 
someone had kept track of that. It was the same way with 300-
pound players. I had to play against guys that were 300 pounds 
in 1967 when I first came into the league, and they were still 
there when I left in 1982. Just to name a few, Buck Buchanan, 
Ernie Ladd, Louie Kelcher, Wilber Young, Bob Brown with the 
Green Bay Packers. I also believe my old teammate and roommate 
for 15 years might have tipped the scales at 300 a few times or 
two.
    In 1987, the NFL began testing players for steroid use. In 
1989, we began suspending players. And in 1990, we instituted a 
year-round random testing program. Today I would like to 
believe that we have sorted out a lot of the issues that we 
need to sort out over that period of time.
    You have heard from the commissioner and from Harold 
Henderson on what our program looks like, but the one thing 
that has been clear about our position and about where we are 
today, there has never been any doubt that the players in the 
National Football League wanted it off the field. The reason 
that we have always wanted it off the field, because players 
have always stressed to me, and they did it when I was playing, 
and they are doing it still today, that if you don't get it 
away from the other guy, we're forced to take it to compete. We 
also understand the health effects that it causes. We also 
understand our role as role models and leaders in this area, 
and we intend to uphold that. We have always been in favor of 
getting rid of steroids out of the National Football League and 
anywhere else it is in our society.
    When you look at our collective bargaining agreement and 
you look at the disagreements that we've had over the years 
with the NFL, the only place that you find random testing is in 
this area, because we believe strongly in it. The players know 
that there is no way to escape if you are using performance-
enhancing substances, including steroids.
    I must say, we would be naive to not be aware that there 
are people out there trying to stay ahead of the curve. We will 
continue to monitor that and try to stay ahead of them. We can 
only know what we know. And as soon as we find out something, 
we do something about it. In 2003, the laboratory at UCLA 
turned up a new substance, a designer steroid that we all heard 
about today, THG. They informed us of it, we talked about it, 
and I think we did it over a phone call. Immediately it went on 
the list. Even as ephedra came on the market 3 years ago, even 
though now it seems to be back in some form, it still remains 
on our banned list because we understand the effects that it 
has on our players.
    Someone said that we need active players here. I talk to 
active players, I spend most of my time in locker rooms around 
the NFL, and I can tell you this: Over the years that I've been 
in this position in the locker room, and I did include some 
quotes from active players in my testimony that's part of this 
record, but I want to point out one thing that I think is very 
important. We have never had one player in the National 
Football League defend another player, his teammate or anyone 
else that tested positive for using drugs and using steroids. 
Not a one. You are responsible for what you put in your body. 
We stand behind that. Our players support that. We believe our 
program is fair.
    I heard a word today when I was sitting back there that 
said codify, and I started thinking, what is that? We don't 
believe that our system codifies any player. That is the main 
reason it is not in the hands of teams and clubs. It is 
independent, away from them. We will look at it in a way that 
if you test positive, you will be suspended. Players expect 
that. We believe that it is a severe penalty to be suspended. 
If there are changes that need to be made in our policy, as 
Harold has pointed out, we're not above changing, wherever 
change needs to be. We want to have the best, and we want to 
make our program even better. We have always strived to do 
that. But there is no room for this substance in our sport or 
anywhere in our society when it comes to athletic competition.
    The players will support this committee, and we do support 
this committee, and we also support what the NFL and the 
players have been able to accomplish over a long period of 
time. We didn't just come to this dance a couple of weeks ago. 
We started out many, many years ago, and we'll stay until the 
song is over. Thank you.
    [The prepared statement of Mr. Upshaw follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.098
    
    [GRAPHIC] [TIFF OMITTED] T1242.099
    
    [GRAPHIC] [TIFF OMITTED] T1242.100
    
    [GRAPHIC] [TIFF OMITTED] T1242.101
    
    [GRAPHIC] [TIFF OMITTED] T1242.102
    
    [GRAPHIC] [TIFF OMITTED] T1242.103
    
    [GRAPHIC] [TIFF OMITTED] T1242.104
    
    [GRAPHIC] [TIFF OMITTED] T1242.105
    
    [GRAPHIC] [TIFF OMITTED] T1242.106
    
    [GRAPHIC] [TIFF OMITTED] T1242.107
    
    Chairman Tom Davis [presiding]. I want to thank all of you 
for your testimony and your patience being with us today.
    Commissioner Tagliabue and Mr. Upshaw, there has been a lot 
of discussion about the cooperation between the NFL, the 
players association and even this committee leading up to 
today's hearing. I think you are both to be commended for 
facilitating such a positive working relationship.
    The first panel answered this question, and I want to get 
your answer as well: how the average American is supposed to 
look at the size, strength and speed of today's NFL linebackers 
and not conclude that they might be taking performance-
enhancing drugs? That's chatter. That's not data. The first 
panel addressed it in terms of specialization and the like, and 
I just want to give you an opportunity to do the same.
    Mr. Upshaw. Well, I think the NFL is a particle of what we 
get. It starts at the college level. You heard the statistics 
about the high school players and the size that they are. They 
are getting bigger. They come to us the size that we get them. 
What's really amazing about the size is that one of our 
strictest fines is overweight. When they come to us that big, 
we try to reduce them down. One of the biggest fights I had 
with Harold is the amount of fines that the players get for 
being overweight for a period of days or weeks. It's pretty 
close to $200 a pound per day for being overweight. So we are 
trying to get them down. They come to us at a certain size, and 
we just accept that.
    But everyone has also pointed out, and the Commissioner 
has, too, the rules have changed. When I was playing, there was 
a Green Bay sweep, and everyone ran it, and they had guards 
that looked like me. I couldn't play tight end today. But the 
rules changed that now we have basically five tackles across 
the front. You don't have an offensive guard, a center and two 
tackles; what you have is five tackles, and they all get in 
front of each over, and they push each other around.
    That is the difference in where we are today when it 
relates to size. Obviously when you see a young, aspiring 
athlete out there, and he sees this size, and he decides I need 
to be that big to play, we're not saying that they're not doing 
things that they shouldn't be doing, but the NFL is basically 
getting what the colleges and the high schools are providing.
    Chairman Tom Davis. Thanks.
    Mr. Tagliabue. Mr. Chairman, I guess if I could--just to 
add a point. I think what we're seeing in athletics today, not 
just at our level, but at the youth level, is specialization. 
We read about it constantly in the sports pages, parents 
complaining about the fact that their son or daughter is 12 or 
13 years old, and all he or she wants to do is play one sport. 
They want to play football all year, they want to play soccer 
all year, they want to play women's basketball all year.
    Coupled with specialization goes weight training. Sometimes 
it's weight loss. In wrestling, doctors have expressed to me 
concern about high-schoolers losing weight to get down from 185 
to the 152-pound division. Then we see people gaining weight 
through strict weightlifting programs.
    Our players now are employed 11 months of the year. Mr. 
Henderson has a story about his own son that illustrates, I 
think, what perfectly clean, drug-free workouts can do in terms 
of body size. I know you don't want to beat this to death, but 
I'll turn it over to him.
    Mr. Henderson. Several Members have spoken about their 
children and grandchildren in sports. I had the experience a 
few years ago, my son was a four-sport athlete in high school 
locally in Fairfax County. He wrestled, captain of the 
wrestling team and football team his senior year. He would 
wrestle at 152. He played football at about 165. He was blessed 
with his mother's genes. He was about 5 foot 8 in about his 
10th-grade year. He's still 5 foot 8. He went to college. He 
played football in college. He went from a high school program 
where he cut weight, put on weight, cut weight, put on weight, 
to full-time football, around-the-year training there, and he 
went from 165 to about 180, to about 190, and his senior year 
he captained the team at his college at over 200 pounds. I am 
as confident as anything that he never took any kind of 
substance to enhance his growth. He's still 5 foot 8.
    We have players now who come into the NFL, and unlike the 
1970's and 1980's when Mr. Courson and Mr. Upshaw played, it is 
a full-time job now. They don't come in in July and play 'til 
Christmas and go home and take it easy anymore. By March 1st, 
sometimes earlier, they're back at the facility lifting 
weights, training, running, year around, putting on bulk, 
working on dietary programs and nutritional programs and weight 
programs for the purpose of putting on weight. And it's 
effective. I've seen it in my own household. If you work at it, 
you can do it on an ordinary body. I think that's the element 
that we are disregarding too quickly, that hard work can 
produce the bulk, muscles, size as effectively as anything 
else.
    Chairman Tom Davis. Thank you.
    Let me just ask one other quick question. I noted in my 
opening statement the momentum is building behind the idea of 
an advisory committee. Mr. Waxman and I talked about it on 
March 17 at the Major League Baseball hearing. Is it safe to 
say that the NFL and the players association support this 
concept, an advisory committee of sports figures on that?
    Mr. Tagliabue. We would like to know a little bit more 
about what is going to be done, and we'd like to make sure 
we're investing our resources wisely, but we would certainly 
look forward to cooperating. We think there can be a very 
powerful statement here and an enhancement of what we're trying 
to do. Of course, there are programs out there like the 
Partnership for a Drug-Free America and many other things, but 
we will certainly support programs that are positive through 
the committee.
    Chairman Tom Davis. Thank you.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I want to commend the 
three of you for not just being here, but for the proactive way 
you have tried to deal with the steroid problem. If you could 
look back to the 1980's, there were reports of widespread use 
of steroids in football. Since then you have worked to refine 
and improve the policies. You didn't wait until the problem 
just couldn't be ignored any longer, you tried to make sure 
that you could do something about it.
    I think one of the issues that we have is that getting a 
clear picture of how much steroids and other performance-
enhancing drugs are used in the various professional and 
amateur sports, and for obvious reasons, since it is against 
the law, sports figures don't want to talk about it. You can 
understand that to be the case. No one questions whether the 
NFL has made a good faith effort to police steroids. You have, 
and you seem to be testing--you have testing numbers to back it 
up.
    But it is also true that a lot of people who follow sports 
closely believe that maybe some of the players use performance-
enhancing drugs but evade detection. That report about the 
Carolina Panther players reinforce that view. That is one of 
the issues we are trying to sort out today.
    What is your perspective about the extent of steroid use in 
the NFL? You had a serious problem in the 1980's. Do you 
believe that the problem is under control?
    Mr. Tagliabue. We believe it is. It's not perfect. We do 
about 9,000 tests a year. We have very extensive random 
testing, unannounced. We think that there is a tremendous 
deterrent element in there. As you know, we've suspended 54 
players over the period of years. Fifty-seven others have 
tested positively and just left the game. So we've had about 
seven a year.
    Our experience is very consistent with the WADA experience 
in 2004 and USADA. In 2004, USADA tested fewer athletes than we 
did, 7,600 versus 9,000. They did it in 45 sports. We did it in 
one sport. They had nine positive tests. On average we have 
about seven. So we don't think the low level of positives 
indicates a weak program any more than their low level of 
positive indicates a weak program. We think that the programs 
are effective.
    The three difficult areas are those that you have 
identified. One is testosterone when it's calibrated to be 
under the now ratio of 4:1 testosterone to epitestosterone. Two 
may be human growth hormone. I say ``may be'' because it's not 
yet clear that really does accomplish what some athletes would 
like to accomplish, but there is no current test for it. And 
the third is the designer steroid issue that Mr. Courson 
emphasized, of which THG in the BALCO investigation is only 
one.
    But our feeling is that, as Gene said, the culture of our 
athletes, the overwhelming number of our athletes, is to stay 
clean, to play clean, to be as dedicated to the same values of 
the game as the Vince Lombardis and the Bart Starrs and the 
Roger Staubachs and right up to today with the Donovan McNabbs 
and the Tom Bradys, and we don't feel that there is rampant 
efforts to cheat in our sport.
    Mr. Waxman. Are you doing an investigation of that report 
from 60 Minutes?
    Mr. Tagliabue. We are investigating. We do have our 
security department interviewing those players, and we will--at 
some point I will have--our security department is headed by a 
former top official of the FBI, and we are interviewing those 
players, cooperating with the DEA in trying to get to the 
bottom of that investigation in South Carolina.
    Mr. Waxman. When you finish your investigation, we would 
like to see a copy of that.
    Mr. Tagliabue. We would be pleased to share with you the 
results of our interviews and all we get from the DEA.
    Mr. Waxman. We are all in agreement about the goal. We want 
to get steroids and performance-enhancing drugs out of sports. 
I have asked this question of others. It came up this morning, 
and I would like your view on it. Do you think the adoption of 
a single uniform steroid policy across sports would help in 
reaching this goal?
    Mr. Tagliabue. I don't think so. I think that in this area, 
it's a question of general rules versus specialized programs. 
Both have their place in society. I think we have a specialized 
program, directed at our sport to deal with our needs, which 
incorporates all the best elements of the other programs. To 
some extent we've set the standard for the other programs. When 
I go to Europe, they praise the way we govern our sports. They 
have major issues in German soccer right now with game referees 
having taken bribes.
    I happen to believe that Americans can solve American 
problems just as well as anyone else in the world. I think when 
we apply our mind to it, we can be the best in the world. And 
if we've got to start outsourcing or offshoring our drug 
programs, then I think we're in trouble.
    Mr. Waxman. I wasn't thinking of that. I was thinking of--
--
    Mr. Tagliabue. But that's what the WADA is. It's 
outsourcing and offshoring our drug program. I think we can do 
it better here.
    Mr. Waxman. If we're going to do it better here, don't you 
think it would make sense to have baseball have the same policy 
as football, the same as others?
    Mr. Tagliabue. In terms of testing technology, in terms of 
science, in terms of perhaps even test protocols, the more we 
can do together, the better. If we can get $10 from 10 
different sports instead of just $5 from one sport and invest 
in better science and research, yes. But when it comes to 
process and other considerations, including discipline, I think 
we can deal with our own sport better than a uniform standard, 
which in many cases is going to become the lowest common 
denominator.
    Mr. Waxman. Thank you very much.
    Mr. Upshaw.
    Mr. Upshaw. I just want to add one thing. From what you 
heard this morning and what we already know, we all are using 
the same experts. We all are using the same labs. We all are 
using the same testing protocol, I mean, in a sense, and we've 
been doing this for years.
    The Commissioner remembers the days when this program was 
not in the shape that it's in. It's simply because of his 
leadership and his integrity that we were able to come together 
under a program in which the players feel very, very confident 
that they're treated fairly and that every player is treated 
the same. That has been the reason. When we go back to the 
early 1980's or the late 1980's and start talking about why do 
we have testing, it was the players who said, we want it, we 
need it, we don't want it in our sport. That's why we are where 
we are today.
    Mr. Waxman. Don't you think what is good for football 
should also be good for baseball?
    Mr. Upshaw. No. I couldn't hit a curveball. I don't think 
so. On the other hand, when it comes to trying to get it out of 
the sport, we should all be on the same page. I think we are on 
the same page. The difference is, where we are, we've been 
doing it for 20 years, and we've been trying to evolve and stay 
ahead of this. They haven't done it that way, and they have to 
do what's best, because I get asked all the time, what advice 
would I give baseball? I can't give them any advice. I'm more 
concerned about our league, our players, our teams and our 
sport. That's where I am.
    Mr. Waxman. Thank you very much.
    Mr. Duncan [presiding]. Thank you.
    I'm going to go for questions to Mr. Shays, but first I 
want to just say that a few weeks ago just before and just 
after our hearing with the baseball executives and players, 
there were a lot of media reports. I saw one about a boxer who 
had lost both of his legs because of steroid use. I saw other 
reports about high school kids having mental problems and even 
committing suicide.
    There was some criticism of this committee about holding 
these hearings. I even said--I told the media, this is my 17th 
year in the Congress. I have never seen so much media coverage. 
Some people said, well, we should have been holding hearings on 
some of the more important issues. This committee has about the 
broadest jurisdiction of any committee in the Congress. We have 
held hearings on every major issue there is out there, from the 
war in Iraq to everything else, and a lot of times those 
hearings aren't well attended. We couldn't help it because 
there was more media interest in this than some of the other 
things.
    But I think holding these hearings has brought attention to 
this issue like never before, and a lot of young people now 
know how dangerous some of these things are. I appreciate your 
attitude and your cooperation with this committee in regard to 
these hearings. I will tell Mr. Tagliabue that my constituent 
and good friend Lamar Alexander I know is a good friend of 
yours from law school days, and he certainly thinks a lot of 
you.
    Finally, I would just say, I've told people the biggest 
thing in my district is Tennessee football, and that the colors 
orange and white are almost more patriotic than red, white and 
blue. But I found out how tough pro football was a few years 
ago when we had an All-American linebacker named Chazon 
Bradley, and he was cut by the New York Giants. He told me 
later that when he came up, they moved him around like he was a 
toothpick. I have never forgotten that. So pro football has to 
be a very difficult profession.
    Go ahead, Mr. Shays.
    Mr. Shays. I want to say that this hearing today with all 
of you and the earlier panel is like light years different from 
Major League Baseball. I want to thank you for your 
cooperation. I want to thank you for being here before and 
listening to the first panel. I want to thank you for providing 
us all the data that we needed. And so I have nothing but 
admiration for--Commissioner, I want to thank you for knowing 
what the hell is going on. With all due respect, the 
commissioner of baseball hadn't even read the document that he 
had given us. They didn't even seem to know that in the 
document they gave us it said a penalty or a fine. Then they 
said, well, a fine really wasn't part of it. And then after the 
hearing, they said they voted to take the fines out as if they 
were part of it.
    I kind of love you guys, and yet I shouldn't because I 
still have problems. The problem I have is you still have four 
bites, and I don't understand it. I don't understand why 
someone who's breaking the law, who's cheating, should have one 
bite, should have two bites, should have three bites before 
they are asked to leave. So I need you to explain to me why you 
think that is OK.
    Mr. Tagliabue. I don't want to quibble, but I don't know 
what you mean by four bites. As soon as a player tests positive 
for a performance-enhancing----
    Mr. Shays. Let me explain what I mean then so you won't 
have to wonder. You don't suspend him the first time 
permanently, you don't suspend him the second time permanently, 
you don't suspend him the third time permanently. They still 
get to come back and play. And the fourth time, I think they're 
out. I'm not sure, but I think they're out.
    Mr. Tagliabue. Maybe I could just answer it in two parts. 
It's definitely worth discussing, obviously. First of all, as 
soon as a player tests positive for any one of these 
substances, or if he refuses to give a test, he's suspended for 
four games.
    Mr. Shays. That is one bite.
    Mr. Tagliabue. In other sports, that's equivalent to a 40-
game suspension. In baseball, that would be a 40-game 
suspension. In the NBA, it would be a 20-game suspension.
    Mr. Shays. Baseball has 10 days.
    Mr. Tagliabue. But ours is equivalent to 40 games in 
baseball, if they had the same policy.
    Second, it works. It's easy for me as the almighty God on 
high to be peremptory and say, throw them out of the sport. 
That's not fair. It works. We've had 54 violators and never a 
repeat. So four games works.
    Mr. Shays. So you really don't need the second at six games 
and the third at 1 year. That's what I'm wondering. I don't 
have a problem with the first pass.
    Mr. Tagliabue. But we don't have a first pass. We got 54 
violations, we've had 54 suspensions. There were two positive 
tests, and those--on the second time through, and those players 
retired. So the deterrent has worked. We've never gotten to the 
second.
    Mr. Shays. You have had two repeats?
    Mr. Tagliabue. We've had two repeats, and they retired from 
the game.
    Mr. Shays. When they were caught the second time?
    Mr. Tagliabue. When they were caught the second time, they 
retired. We had 54 players; 52 of the 54 were disciplined once, 
and there has never been a repeat. So it works.
    Mr. Shays. I'm impressed by that, but then maybe you all 
should be considering not having the third time being 1 year.
    Mr. Tagliabue. That's a fair point. Maybe we can take a 
fresh look at how these things are sequenced.
    Let me just make another point. We heard this morning about 
other sports with 2-year suspensions, including the WADA. They 
had a lot of exemptions from that. It's not actually as 
advertised. They have a bunch of exemptions, all the way down 
to warnings, as exemptions from the 2-year policy. If a player 
can show that what he did was not intentionally designed to 
violate the policy, he gets a warning, not a 2-year. We have 
absolute liability.
    Mr. Shays. Let me ask Mr. Upshaw to comment.
    Mr. Tagliabue. I'd like to make one further point. In many 
cases, if we went to something like a 2-year suspension for the 
first offense here, A, I think it would be unnecessary to 
deter, and, B, it would be the end of the player's career. He 
would go back in the street. In some cases he's going to be a 
young man whose only path out of the ghetto is football. He's 
going to go back and never return.
    Mr. Shays. Before Mr. Upshaw makes his point, I am not 
arguing that the first time be 2 years. I guess what I had a 
problem with was looking at the three and the four.
    Mr. Upshaw.
    Mr. Upshaw. As the commissioner has pointed out, we have 
not had repeat offenders. The thing that you have to also 
remember is that once you're in this program, you're randomly 
tested at least 24 times per year for the rest of your career. 
So you're always on the edge from that first time. There are 
not many clubs willing to take a chance when you're that close 
to basically losing it all. That is all part of being in the 
position where we feel that it has worked for us. We're not 
close-minded to what they're doing at WADA, but that's a 
different story, but we feel this works for our players, and 
our players believe it works because we don't have repeat 
offenders.
    Mr. Shays. I think that's an impressive statistic. I think 
it speaks volumes. What I will just conclude by saying is it 
strikes me then that it may be unnecessary to have a perceived 
third bite of the apple.
    Mr. Upshaw. Let's hope we never have to get there.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Tagliabue. We will take a look at that to see if we can 
make it clearer that this is peremptory.
    Mr. Duncan. Mr. Cummings.
    Mr. Cummings. Mr. Chairman, thank you very much.
    Let me say first of all to you, Mr. Tagliabue, to Mr. 
Henderson and to Mr. Upshaw, I sat through the entire baseball 
hearing, all 11 hours of it, and I got to tell you that this is 
a breath of fresh air compared to what we heard and what we 
experienced that day. I want to thank you for your testimony.
    One of the things--and I just want to pick up on where Mr. 
Shays left off. Mr. Tagliabue, having said what I just said, 
you said something just now that really kind of struck my 
interest. When Mr. Shays was talking about possibly, I guess, 
suspending folks for a lifetime, or putting them out of the 
game, you said for some of these folks, it's their only path 
out of the ghetto. Is that what you said?
    Mr. Tagliabue. Yes. Some of our players.
    Mr. Cummings. I live in the ghetto, all right? I've been 
there for a long time. I live within a shadow of Ravens 
stadium. I represent people who can't afford to go to the game. 
I represent people, if they are caught with a Schedule III 
drug, they go to jail. I am here to tell you, I feel no 
sympathy, none, for people who cheat, who make it harder on 
other players, and in the words of Mr. Henderson, I think Mr. 
Upshaw may have said it, too, what happens, it almost forces 
folks to say, well, if they're doing it, then I've got to do 
it.
    That is the thing that bothers me. These guys are getting 
paid, big time. Nobody says that kind of stuff to my guys on my 
street who are being arrested as we speak. They don't get any 
sympathy from me.
    What I would like to see is that after that second time, 
that they be thrown out of the game. We need to send a message 
to some of the kids in my neighborhood that professional 
sports, where people can bulk up or do whatever--I am not so 
worried about the weight stuff, I am more concerned about the 
example. They sit there and they say to themselves, you know, 
this is my--see, there is another way to look at this. This is 
my way out of the ghetto. But they don't understand that on 
their way trying to get to one of those games and be a part of 
the game, they may be derailed. And if they are derailed, they 
got major, major problems.
    So I guess what I am saying to you is that I hope that you 
do take a look at throwing folks out after the second offense. 
And I know and, Mr. Upshaw, I heard you and you, Mr. Henderson, 
you were very sincere, and I really appreciate it, but part of 
the reason why we hold these hearings, I think, is to try to 
send a message to our young people not to mess with not only 
these kinds of drugs, but other drugs.
    I heard you, Mr. Tagliabue. I know you to be an honorable 
man, and I hope that you will consider that. It is not just the 
guys that you are worrying about, at least they're making some 
money. My guys when they get arrested, you know what happens to 
them? They're sentenced to life with no--when I say life, I 
mean they can't get a job, they can't have certain occupations, 
they can't do a whole lot of things. They may not ever have a 
sentence where they serve a year or two, but just that record. 
And so they see this as a ticket out of the getto. Your players 
running around, it's a wonderful magazine with the fancy 
uniforms that you showed, the fancy uniforms, they're looking 
good. My guys can't get in the stadium. You follow me? And so I 
would appreciate it.
    Do you want to comment on that?
    Mr. Upshaw. I would like to comment on the end result of 
the second offense. That is where we are focused. We focus on 
the repeat offenders. We don't have repeat offenders. We all 
understand the economics here. That's why guys are playing the 
game. That's why guys in the game want this banned substance 
and steroids out of the game. They don't want it in there. 
That's why we're talking about it. And when it gets to going to 
try to educate other students, younger students, younger 
athletes, we have been on the cutting edge of doing as much as 
we can possibly do.
    Mr. Cummings. Moving over to Mr. Tagliabue, one of the 
things that you all said, which is very interesting, was the 
thing about the athletes and how small they are. We had a 
program with the NFL in my district where they were working 
with us on obesity issues in some high schools. I walked into 
the auditorium, and I'm expecting to see these big guys. These 
little tiny fellows--I'm almost finished, Mr. Chairman. These 
little tiny fellows. I said, what are you doing? They said, we 
play for the Ravens. I was shocked. So I know what you are 
talking about. There are a lot of pretty small fellows in the 
league.
    Mr. Upshaw. I just want to comment on that. That gets to 
the rules. Last weekend we went through the draft. There was a 
lot of discussion about one of the rule changes that we made on 
what you can do and can't do with a receiver as he goes 5 yards 
past the line of scrimmage. You will see a change in the 
defensive back, the way that they look, the size that they are, 
and what they can and cannot get away with based on what rules 
that we have.
    So when you have these big, huge Mack trucks sitting in the 
front blocking, you need some little, smaller guys to kind of 
ease through that hole, because they can't open up a hole big 
enough for a guy that's 240, 250 pounds. That's the gist of 
what happens in the game today.
    Chairman Tom Davis. Thank you.
    Mr. Tagliabue. I guess, Mr. Cummings, I think you and I 
agree on most everything here on the terms of discipline. We 
want it to be stiff. We don't have repeat offenders, as Gene 
just said. We have not had a repeat offender stay in the league 
in this area. And my only point was that at some juncture, I'd 
rather save a life than destroy it.
    Mr. Cummings. You heard my comments.
    Chairman Tom Davis. Thank you.
    Mr. Tagliabue. I think we agree on most everything here.
    Chairman Tom Davis. Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    Good afternoon. I sat through several hours of hearings 
when Major League Baseball appeared before this committee. Like 
some of the previous speakers, Mr. Shays and Mr. Cummings, I do 
applaud you for your forthrightness, for your interest in this 
issue, and for how you have tried to be proactive on this issue 
over the years.
    My question--one of the questions I had asked Major League 
Baseball that dealt with sports betting, betting on baseball; 
if you bet on baseball, you're gone. I take it that the NFL has 
a similar policy. I remember a case several years ago, I think, 
of a prominent quarterback who was betting, and he is no longer 
in the game. You do have a policy, Mr. Tagliabue, on sports 
betting?
    Mr. Tagliabue. Yes.
    Mr. Dent. What are the penalties for a player who bets on 
football while an active player?
    Mr. Tagliabue. I guess it's up to me.
    Mr. Dent. Up to you. So it is not like Major League 
Baseball where basically you're banned for life.
    Mr. Tagliabue. I'm sure I could ban someone for life. It 
would depend on what he did.
    Mr. Dent. I asked this question of baseball, and I will ask 
it of you. Do you believe that the steroid issue is as serious 
or more serious than the sports betting issue among players?
    Mr. Tagliabue. I think it's just as serious, but I think 
it's comparing apples and oranges. I guess the way I look at it 
is that an effective program in this area really has to go to 
about five points. One is education. One is strict enforcement 
of access to these substances, and I think that's a real, deep, 
big problem in our society, especially for young people. I've 
been told by experts that you can get some of these substances 
by going online, getting an 800 number, no matter where you 
live, calling a call center. The call center will switch you to 
Bermuda and get you a prescription. You can get drugs 
prescribed, and then they will be FedEx'd to you from someplace 
overseas. It's flooding in. Internet pharmacy.
    Education; enforcement relative to access; effective 
testing, which is a major deterrent; strong discipline; and at 
some point rehabilitation and giving people a second chance, I 
think those are the elements, and I think that's what we have.
    I think this is as severe as gambling. I think the 
challenges for young people here are greater because of 
confusion about what's a legitimate drug and what's 
illegitimate. We talked about stimulants this morning. A big 
part of the issue there is increasing prescriptions of wonder 
drugs for ADD and ADHD. I think this is a little more nuanced, 
I guess, than the gambling. I think they're both very severe 
problems, and they should be addressed severely.
    Mr. Dent. I understand and respect your answer. I guess I 
was hoping that we might say that this steroid issue is more 
serious because both sports gambling and illegal steroid use 
affect the integrity of your game to be sure, but the steroids 
certainly affect the health of the players considerably.
    Mr. Tagliabue. I think this is a lot more complicated than 
gambling. We're in an environment where gambling can be a big 
problem in our society. That's probably another week of 
hearings. Of course, that's being condoned in ways that it 
shouldn't be. Thank you.
    Chairman Tom Davis. Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    First of all, let me associate----
    Mr. Tagliabue. Including video poker on ESPN.
    Mr. Towns. Let me first associate myself with the remarks 
made by a couple of my colleagues in saying that dealing with 
you is a breath of fresh air when you compare it to Major 
League Baseball.
    Also, I want to commend you, Commissioner Tagliabue, and, 
of course, Mr. Upshaw and Mr. Henderson, for how you have 
actually dealt with the problem in terms of working together to 
deal with the whole drug abuse issue. I want to salute you for 
that.
    I just want to make certain that I fully understand what 
you are doing. Will you describe the process by which a player 
who is notified he has tested positive can appeal? If a player 
has tested positive, and he would like to appeal, what is the 
process? Maybe I should go all the way through.
    Mr. Henderson. I can answer that. A player who has tested 
positive is first notified by Dr. Lombardo, who is an adviser 
to the administrative head of the program. I think that his 
first step after advising the player of the positive test is to 
discuss with him whether there is a legitimate reason that he 
had a particular substance in his system, such as a 
prescription from a doctor or something like that.
    Once he makes that determination, either the case is 
dropped as not a positive, it's not considered a positive, or 
advanced. There may be some circumstances in which he's not 
fully satisfied of the player's innocence, but feels there is 
not enough conclusive evidence to go forward with the case, and 
we put him on probable cause testing, reasonable cause testing, 
and he's tested indefinitely at the program's discretion, 
randomly, several times regularly after that. Or if there is no 
adequate rationale, no reasonable explanation for the substance 
in the player's body, and no issue of proof with the evidence, 
he's given a notice of discipline.
    A letter is issued from people in my office notifying him 
that he is suspended immediately for 4 weeks and that he has a 
right of an appeal. If he wishes to appeal, he can bring a 
representative, including a lawyer of his choice, and his union 
representative to take advantage of his opportunity to have a 
hearing.
    A hearing, if he wants a hearing, an appeal hearing is held 
before a designated hearing officer with full due process 
afforded under the CBA, an opportunity to present evidence, 
witnesses. We also have--he can bring in a toxicologist of his 
own to refute any evidence that we have. Sometimes these 
hearings may be as short as an hour or so, but I've known them 
to take 8 hours or more. After he has fully exhausted his 
defenses, a decision is rendered.
    Mr. Towns. Let me make sure I understand that. Let me make 
sure I understand the appeals process. For instance, you're 
saying that you have tested positive, and I am saying, no, 
that's not the case. What happens to the player during that 
process?
    Mr. Henderson. What happens to the player?
    Mr. Towns. Yes, during that process.
    Mr. Henderson. Discipline is stayed pending the appeal, if 
that's what you mean. Nothing happens to the player prior to 
his appeal hearing.
    Mr. Towns. Right. So he can still continue to play.
    Mr. Henderson. If it's during the season, yes, he would 
continue to play.
    Mr. Towns. How long does this appeal process take?
    Mr. Henderson. It varies. Obviously during the season we 
make every effort to expedite it. We try to have it resolved, 
certainly within 30 days or less if possible, with lawyers 
involved and witnesses and things like that. Sometimes the 
process takes longer to put in place. In the off-season, the 
penalty is deferred until the season starts anyway, and so 
people are inclined not to rush it as much. There is not the 
same urgency, and sometimes it's as late as this time of year, 
May or even June, before those cases are resolved, because the 
discipline would be imposed only in September when the season 
starts.
    Mr. Towns. I know some suggestions were made up here about 
them being suspended for life and all that. Let me ask you, up 
to this point, how do you feel that the program has actually 
worked?
    Mr. Henderson. How do I feel that it's working?
    Mr. Towns. Yes.
    Mr. Henderson. I think it's working very effectively 
because--I never played football, unlike Mr. Upshaw and Mr. 
Courson, but since I've been here, I've spent a lot of time 
talking to players. I go to the teams, I spend time in the 
locker room, I spend time on the sidelines before the games. We 
have players come to the combine. We have players come to the 
competition committee meeting, and even some of our own 
committee meetings we have joint meetings with players 
involved. So I talk to a lot of players.
    The players believe that it's working. I cannot tell you 
how many players I've talked to who say, I can't believe 
anybody can beat a test. I'm tested every time I turn around. 
Unless there's some real serious hole in it, I don't know 
anybody that can beat the test. The players generally don't 
believe that people are beating the tests.
    Mr. Upshaw. There was an article in the Washington Post 
today, and there were several active players that basically 
commented about the program. One was our president, Troy 
Vincent. As president of the players association he fully 
supports and understands exactly what we're talking about here 
today and how much he supports it. He's in the locker room with 
his teammates. He understands what's going on.
    I happen to have been in a locker room with a player who 
has passed away. I was there at the end. He to this day 
believes that steroids led to his death. That was Lyle Alzado. 
That was his words. So to be there firsthand to deal with it, 
to understand it, to know it's there was very--had a very, very 
profound impact on all of us.
    Mr. Towns. I guess the only thing that I would say, and I 
know my time has expired--we've got a vote, I know. The only 
thing I would say is that if you can find a way to sort of 
assist in terms of making young people aware of the dangers, 
maybe some of this money when you suspend a person, take some 
of that money and put it into a program of that magnitude, I 
think might be helpful to the young people because that is a 
real concern, because they really look at football players as 
role models. And, of course, that is something that we--I think 
we need to just spend more time and energy some way or another 
getting the message to young people. They are 25 percent of our 
population, but they are 100 percent of our future.
    Mr. Chairman, I yield back.
    Mr. Souder [presiding]. I, too, want to say I believe 
football has a much better policy than what we saw out of 
baseball. But I have some concerns, and I want to raise some. I 
am going to raise some different concerns. Some of this you can 
maybe respond back in writing because it's far too 
comprehensive here.
    One is after you heard the three Carolina football players 
who were in the Super Bowl admit to steroids, did the NFL do 
any after-action report where you went and talked to the 
players and say, how did this happen? What could we have done 
differently? And if you did do an after-action report and made 
any changes, could you provide that to the committee?
    Point No. 2, we have heard, with all due respect, on the 
earlier panel from the NFL doctors and hear a lot of whining 
about how, oh, this starts in high school, and it moves through 
college, and then proceeded to also hear ``first time.'' Give 
me a break. This isn't a first time. You yourselves have 
testified all day today that most likely, unless you have an 
exception like you talked about in the one league, where you 
say if indeed they can prove it's the first time, that probably 
it has been a habitual pattern all the way through high school 
and college where they were bulking up.
    One of the questions--this is a series of questions, but it 
comes to the fact that the San Diego Chargers' first-round 
draft pick Luis Castillo tested positive to andro and didn't 
get a penalty. If you are so concerned about what is happening 
in high school and college, how come he didn't get a penalty? 
That is a clear way to send something.
    In the process here is--do you have a drug testing program 
for incoming players? Is there a gap in testing between the 
players' final college game in November and the NFL combine in 
March? What happens if they test positive there? Do they come 
under suspensions?
    I would like to hear what happens with Mr. Castillo. 
Clearly the way to get ahold of it is as soon as they're coming 
in. You can't say it's a first time because I just don't 
believe that in most cases it is actually the first time.
    The third thing--and this comes to a core question. I don't 
know whether this is true or not. I want to give Mr. Upshaw a 
chance to respond. Last night on ESPN, you are probably aware 
of this, Gary Plummer, a linebacker for the 49ers and the 
Chargers, said--you said, Mr. Upshaw, that you had been working 
on this for 20 years. He said:

    The NFL had wanted us to make that part of the collective 
bargaining agreement to agree to steroid testing. And, you 
know, the players association, Gene Upshaw and the rest of 
them, were just vehemently against it. No, no way. Now, 
remember that these were the guys that came up in the 1970's 
when all were doing it. I'm sitting in the back of the room 
waving my arm, like waves arms, are you kidding me, Gino? You 
give up this stuff for more money? Give up this stuff for more 
money? Let's do it today. Let's do it yesterday. You know. And 
there were some guys that felt that way, but I did get some 
guys turning around, and he turns around, looking at saying, 
who's this young guy in the back wanting to agree to steroid 
testing? You know, there were a lot of players at that time who 
wanted no part of steroid testing.

    Is that statement true?
    Mr. Upshaw. No. I think the record will show that I have 
supported and continue to support and have been a strong 
supporter of testing for steroids. I don't know what Gary 
Plummer is talking about, but knowing that he's a linebacker, I 
sort of take that into the balance of this also.
    But I am not here to defend my position on steroids. It's 
very clear. It's very clear. There is no room for steroids in 
the game. There never has been. I never have supported steroids 
in the game. It's true, I played in the 1960's, the 1970's and 
the 1980's, but I never left the locker room. I'm still in 
there today, and I can't find one player that believes anything 
that has to do with steroids was connected with money, not 
then, not now and not in the future.
    So my record is there. I'm proud of what we've done and 
what we continue to do and what we're willing to do.
    Mr. Souder. So you don't believe there was anybody else in 
the room who would say there was such a debate that occurred?
    Mr. Upshaw. I can't even recall Gary Plummer being in a 
meeting in 1987. We didn't even have a collective bargaining 
agreement.
    Mr. Souder. Mr. Tagliabue, what about Mr. Castillo? Was 
there a penalty on him, or do you have one planned?
    Mr. Tagliabue. I think under our existing policy, the 
consequence of a player testing positive at the combine is that 
he goes into--once he signs a contract to play in the league, 
he gets tested 24 times a year. At this point, I don't think we 
do have a disciplinary component to a preemployment test. I 
think we should look at that. Whether it would be lawful, we'd 
have to check out with the attorneys. But I think that's the 
short of it.
    Mr. Souder. One of the key things is much like I talked 
about in the first panel with the high schools, they know, for 
example, that any alumnus who walks around, if they have 
inappropriate contact, what that strong penalty message is.
    Last, did you do an after-action report with the Carolina 
Panthers?
    Mr. Tagliabue. Yes. We discussed it, I believe, with 
Chairman Davis maybe when you were out. But the answer is we're 
in the process of doing it. We've been coordinating with the 
DEA, and without interfering in the law enforcement 
investigation, we are doing our own interviews through our own 
security department, and we will furnish the results of that to 
the chairman as he requested.
    Mr. Souder. Thank you.
    Mr. Lynch. I'm willing to miss a vote if you're willing to 
miss a vote. I will yield to Mr. Lynch.
    Mr. Lynch. Thank you.
    Just for the record, Mr. Upshaw, I am familiar with your 
record over the years. I did see that telecast last evening 
with Mr. Plummer, but his comments were not consistent with the 
record of progress that we have seen in the league and under 
your leadership of the union.
    As a former union president myself, I saw what was going on 
in Major League Baseball, and I have to say this is in stark 
contrast to that. I think your leadership--you personally 
deserve much credit because of the credibility that you have 
with the individual players. That is enough about that.
    Mr. Tagliabue, if I could, Commissioner, this is just a 
housekeeping measure, but we did, in response to our request 
for documents, get a summary of requested testing data from 
1989 to the present. I am just going to point out one thing. 
You have referred in your testimony to 54 violations, right? 
And then on this sheet, if I count up the number of program 
violations from 1989 to 2004, it comes to like 109 or something 
like that. Is that because one player might have several 
violations? Is that the deal?
    Mr. Tagliabue. No. I believe what I said earlier, and I 
believe what is a fact, is that we had 54 positives where the 
player was suspended and 57 where the player just retired, 
having been notified of the positive. I think the total was 
111.
    Mr. Lynch. OK. You are right. That explains it. But there 
were 111 positives; 54 of them resulted in suspensions. The 
other the players either retired or----
    Mr. Tagliabue. They chose to retire, which suggests to me 
it was a marginal player.
    Mr. Lynch. That is fair enough.
    I have gone through--you were nice enough to provide this 
collective bargaining agreement. I went through it as well as I 
could to try to figure out the notice that the public gets 
regarding these violations. One of the problems that we saw 
with Major League Baseball, which, again, it is in contrast to 
what you have done and what the NFL has done, and you deserve 
credit for that, but one of the problems with Major League 
Baseball was that there was, I think, an attempt or a 
willingness to hide the violations. They would let the players 
pay a $10,000 fine, and their violation of the steroid policy 
would remain secret.
    And so I am curious. I don't see anything in writing 
regarding the players association and the league and how they 
deal with a violation publicly, because that is a huge 
disincentive to players if they think that their opportunity 
for endorsements--and obviously these are people who enjoy hero 
worship in our society, so if they were guilty of steroid abuse 
and a violation of the league policy there, and then that 
violation was made public, it would be a tremendous force, I 
think, positive peer pressure, that would encourage them not to 
engage in that activity. I just was wondering if you had 
something worked out that is not written.
    Mr. Tagliabue. It's in the policy itself, which says that 
the confidentiality of a player's medical condition and test 
results will be protected to the maximum extent possible; 
however, recognizing that players who are disciplined for 
violating this policy will come to the attention of the public 
and the media.
    So we do announce every suspension. We respect 
confidentiality during the appeal process that Mr. Henderson 
described, but once a player is adjudicated a violator, it's 
made public, and of course he disappears from his team's squad 
because he's no longer playing for that team for four games. So 
that's well known to everybody.
    Mr. Lynch. But, Commissioner, with all due respect, that 
talks in the passive context. It doesn't say the league shall 
notify or anything. It just says, recognizing that the 
violation may come to the attention of the public.
    Mr. Tagliabue. It says will come.
    Mr. Henderson. As Gene and I were the signatories to the 
agreement, we put it in there, it was not necessary, it was not 
deemed to be necessary here because of the nature of the 
policy. A player who's guilty of an infraction is suspended. We 
don't have fines. We don't have warnings. We don't have interim 
discipline. A player is suspended. And the league has long held 
in place a policy governing how notification is given when a 
player is not going to be with the team, and it comes out of 
the league office, out of our communications department, 
distributed uniformly to the clubs and the media at the same 
time on every player who's being disciplined under the policy.
    Mr. Lynch. That was my question. You are telling me that 
every single violation--when you have had a violation, every 
single time the public has been notified of the suspension, 
although not of the medical condition, the confidential 
information regarding the player.
    Mr. Henderson. With the exception of those 57 people who 
chose to leave the league. There was no need to make a public 
announcement about them. They no longer were associated with 
us.
    Mr. Lynch. OK. Thank you. I yield back.
    Mr. Upshaw. We have people covering this league that cover 
everything. That was how it was with this Gary Plummer deal. 
That shows you the extent of coverage we get. When a player 
disappears off the field, everyone knows that he's gone, and 
there is a reason. Normally what we try to do is to protect the 
confidentiality until we can be sure that we, in fact, are 
right.
    Mr. Lynch. The one point I wanted to make on this, the HGH 
gap, and that is a principal concern that I have is that in 
some cases we have gaps where technologically there is the 
opportunity at least to conceal the violation from the league 
and from the union. HGH, it appears that in connection with the 
Olympics in Athens, they developed labs that can test for this 
in Europe. I know the NFL has NFL Europe where you actually 
have--I believe you have a team in Cologne, which also is the 
host city for one of these HGH capable labs. I don't 
necessarily see the difficulty, and I asked Dr. Wadler about 
this, about taking the urine samples and have them tested in 
Cologne at that lab to verify for the presence of HGH. It 
doesn't seem like a huge obstacle for a multibillion-dollar 
business. I am just curious to hear your response to that, 
Commissioner.
    Chairman Tom Davis. The gentleman's time has expired, but 
you can answer the question. Thank you.
    Mr. Tagliabue. We've been staying closely on top of this 
development of this supposed test for HGH. To my understanding, 
there are at least two different kinds of tests, to my 
understanding. They are still seeking validation of the 
reliability of the tests.
    There is no testing lab in the United States. Should we 
take blood samples here and ship them to Cologne? It's an issue 
we're looking at. But we do not intend this--once the science 
gets to the point where it's reliable, we will act upon that 
science and close that loophole. Right now it has been the 
absence of testing, of a reliable test and of testing labs, 
that has been the constraint.
    Chairman Tom Davis. Thank you.
    Mr. Souder.
    Mr. Souder. Mr. Chairman, I had a brief clarification with 
Mr. Upshaw, because I may have misspoken, but I want to make 
sure we were on the same page.
    Gary Plummer said in 1997 during the strike, not in 1987, 
and I thought in your answer you said----
    Mr. Upshaw. He misspoke because we didn't have a strike in 
1997. This is like--maybe we should have had a strike, but we 
didn't have one in 1997. The last strike we had was in 1987. We 
returned to work without a collective bargaining agreement. 
What he talked about until 1993, there was no agreement. And 
part of that time there was not even a union. Whatever Gary 
Plummer remembers doesn't square up with the facts.
    Mr. Souder. Thank you.
    Chairman Tom Davis. Thank you.
    Mr. Sweeney.
    Mr. Sweeney. Thanks, Mr. Chairman.
    Welcome to the commissioner and Mr. Henderson and Mr. 
Upshaw. I said earlier you are due some recognition. You 
indeed--I am a former labor commissioner. I think you have 
shown clearly in this hearing that your priorities are in 
better places than some of your colleagues in other sports.
    Mr. Upshaw, you in particular I wanted to note that, 
because I think as compared to some of your colleagues, you 
have decided the health of your representation, who you 
represent, is significantly important. You are to be saluted 
for that. We have a long way to go, Commissioner.
    I want to talk a little bit about the process for banning 
substances and get your sense of the collective bargaining 
agreement and how it works. You rightly mentioned--we have been 
talking about the growing challenge of designer steroids. Last 
year we passed legislation; it was real hard to get the 
legislation all-encompassing, and I think we failed here in 
some respects in doing what we needed to do to allow you the 
tools to protect your athletes as well. Are you required to 
wait until a controlled substance or a substance is actually 
scheduled as a controlled substance before it is banned, or do 
you have an independent mechanism for designer steroids in 
particular, but any of the other products, to add them to the 
list? How does that work?
    Mr. Tagliabue. We view ourselves as having an independent 
mechanism, and we add to the list. We added THG, as Mr. Upshaw 
said, when it came to light, and also I think our language 
says, and related substances. So if there was a similar 
molecular structure, and it was differentiated in some way, we 
would consider that to be encompassed within our policy.
    Mr. Sweeney. Would it not be helpful if the FDA issued the 
long overdue good manufacturing rules for supplements? Would it 
not provide you additional knowledge, information? Maybe Mr. 
Henderson is the more appropriate person to answer that. Is it 
not a problem that the FDA has not moved forward on DSHEA and 
things like that?
    Mr. Tagliabue. It is, and it isn't. We banned ephedra 
before the FDA did, and we're going to continue to view ephedra 
as dangerous and banned for our players despite the recent 
court ruling in Utah, because we feel there is sufficient 
scientific data and medical opinion that shows that for 
athletes with the characteristics and the work requirements of 
ours, it's a dangerous supplement.
    The FDA issue in some ways is a broader and different issue 
focused on the population at large. We presume to have the 
authority by agreement with the players to ban things that the 
FDA does not ban.
    Mr. Sweeney. Is it not true that the NFL independently and 
voluntarily last year contributed money to USADA to expand 
their testing capabilities on substances?
    Mr. Tagliabue. Yes, we contributed $1.1 million over 5 
years to create a new lab jointly with USADA at the University 
of Utah to promote their research and detection techniques.
    Mr. Sweeney. Would the NFL be interested in helping as well 
in establishing a nationwide elementary-school-on-up education 
program?
    Mr. Tagliabue. We have it. Perhaps before you came in, we 
have published through our youth football fund a series of 
booklets, four in number, on young athletes' health. We have 
one volume on strength and conditioning without supplements and 
steroids. We have another volume that specifically addresses 
dangerous substances, which is what I'm holding up. It's on our 
Web site. It's on other youth football organizations' Web 
sites, available throughout the country. It was done in 
conjunction with a number of universities and other 
institutions, including the American Red Cross. And I said 
earlier that we would put additional resources into additional 
distribution if that served the purpose, which I think it 
could.
    Mr. Sweeney. I would also like to talk to you about an 
expanded in-school program at some point, but given your past 
behavior, frankly, I don't think it is as big a problem.
    Two final points. On the issue of tainted supplements, a 
current football player was suspended, I think, in 1999. In 
baseball, it's a common occurrence. You have taken a look at it 
because you have been involved in the proactive approach longer 
than baseball has been. What do you do to protect players?
    Mr. Tagliabue. We agreed with the players' association on a 
sort of a certified supplement manufacturer program, which I'll 
let Mr. Henderson or Mr. Upshaw explain. It's in place now.
    Mr. Henderson. This was an effort aimed principally at 
providing a means for players to use legal supplements that are 
deemed to be helpful to use without running the risk of taking 
inadvertently a banned substance. We put in place a 
certification program in which the manufacturer of those 
supplements can submit his products, and, in fact, all his 
products have to be submitted and an independent lab retained, 
but not affiliated, by us or the union would do clinical 
examinations, would do random testing of things coming out of 
the batches and lots off the shelves, do testing and certify 
that none of the products produced by that particular 
supplement manufacturer contained the banned substance. There 
is a certification symbol that's put on the packaging. A list 
is provided.
    At this point we don't have a large number of companies 
that have participated, but the purpose of that was to provide 
sources for players that would know it is not tainted, because 
when they come with a positive test to their appeal hearing and 
say, I bought it down at the GNC or some other store and 
something was in it, that's not an excuse that gets them off. 
The fact is that they are held strictly accountable for what's 
in their body, and that's why we moved to that kind of a 
testing program.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger, last but not least.
    Mr. Ruppersberger. Last but not least.
    First off, I want to thank you all for being here today. 
I've said before--and I was a little concerned about the 
hearing that we had for baseball. I want to commend the 
chairman and also the ranking member for the hearing because I 
think it has put the issue on the table.
    One of our key issues is the influence that professional 
players, whether it is football, baseball or whatever, have 
with respect to our younger generation. That is an important 
issue. During the baseball hearing, I referred to your policy 
from a positive point of view. I think that you have a strong 
policy. It can always be stronger. But I think that your policy 
has worked, and I think the evidence of that is that it is my 
understanding, correct me if I'm wrong, that of the 42 
violators that you have had in your program, you have not had 
that same individual be charged with another violation; is that 
correct?
    Mr. Upshaw. That's correct.
    Mr. Ruppersberger. With that said, and I think that you 
have come a long way, there are a lot of issues that you can 
deal with. We just had the incident that, I'm sure it has been 
referred to, I wasn't here before, and we are going to continue 
to have incidents like that when you have an operation like the 
NFL.
    I want to ask this question. I guess you first, Mr. 
Tagliabue. Why does the NFL performance-enhancing drug policy 
test only eight stimulants compared to the 42 stimulants tested 
by the Olympic standards?
    Mr. Tagliabue. As was explained this morning by Dr. Finkle 
and Dr. Lombardo, we feel those stimulants are the ones that 
are of principal concern and that are the focus of our concerns 
for football players. The Olympic Committee is dealing with 
many, many other sports. Blood-doping techniques and other 
things that are of concern there have not been a concern for 
us. We are looking at that issue now to see whether we should 
expand the number of stimulants.
    I said earlier that one of the issues, a key issue, for us 
in this area is prescriptions being given for ADD, attention 
deficit disorder, and ADHD and whether those are being abused. 
We are looking at those issues, and we will see whether----
    Mr. Ruppersberger. I am glad you said that you are looking 
at those issues. Amphetamine, I think you test once a year. 
Amphetamine can be used for different reasons. The bottom line 
from a macro point of view is that we are talking about the 
perception of anyone in sports using a drug that will help them 
perform. Not only is that illegal, and not only does that have 
an effect on the younger generation, but it also is cheating. I 
know based on your standards in the NFL, you don't want anybody 
to perceive that you are cheating.
    I would ask you, so Congress doesn't have to come in and 
deal with the issue, to police your own industry. You have done 
a good job, but you need to go further. Hopefully this hearing 
will have you reevaluate on where you need to be.
    Mr. Upshaw, what is your opinion about where we need to go, 
to go beyond? Even though the NFL is right out there, other 
than the Olympic standard, it is still, as indicated by what 
happened with the Panthers, isn't enough, and one or two bad 
apples affects us all.
    Mr. Upshaw. We are looking at that issue as we speak, the 
whole amphetamine issue. We understand that if there is 
cheating involved, we want it off the field. We will look at 
this the same way we did ephedra. When we found out the effects 
and what was going on, we immediately banned it, and it stays 
on the banned list because we understand how it addressed our 
football population. So each year, and all the time--it doesn't 
take a bill passed here in Congress for us to act, because we 
won't have a chance to act. But what we try to do is do what's 
best for our sport on a timely manner. When we understand that 
there is a problem, we deal with it, we meet it head on, we use 
the best research and science, and that's really what we're 
talking about here.
    Mr. Ruppersberger. Let me ask you this question because I 
think negotiation is important, and my time is almost up. It 
seems that you have come a lot further than baseball. Is it 
because of you representing the players, that the players want 
to police it themselves; because that really is what is going 
to, I think, make a difference is the influence of other 
players. Because all of our sports, previous generations 
created a sport that a lot of people are benefiting, and it is 
your duty, I think, not only to look after the influence on 
children, but also to hold this in trust for future 
generations.
    How did you negotiate with the NFL to get where you were 
versus where you think baseball is? That might be a hard 
question, but I would like the answer.
    Mr. Upshaw. It's not a hard question. It's an easy 
question.
    Mr. Ruppersberger. You don't like baseball?
    Mr. Upshaw. No, I actually love baseball. I wanted to play 
baseball. My dad wouldn't let me. On the other hand, what you 
have to understand here is that our players really wanted this 
out of the sport. The teams wanted it out of the sport. We 
wanted it out of the sport. But even more than that, you have 
to have some leadership, too. You have to take some tough 
positions that might not be popular at the time, but in the 
long run they will work out what is better for not only our 
players, but for the people that look up to our players as role 
models and as leaders. We have to do what is right.
    Mr. Ruppersberger. My final--not a question--since my red 
light is on, you have done a good job to this point, but I hope 
you stay ahead of the curve and address these issues because 
there seems to be a lot more to do, especially as it relates to 
drugs. It's illegal, and it's cheating.
    Mr. Upshaw. I want to say as a final point is that I think 
our history will show that we will do what is necessary to get 
cheaters out of the game.
    Mr. Ruppersberger. Thank you.
    Mr. Waxman. Mr. Chairman.
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. I know the hearing is about to come to an end. 
I want to thank our witnesses not just for their testimony, but 
for their commitment to deal with this issue of steroids among 
athletes.
    But there is still one thing that puzzles me, and that is 
the fact that there are a lot of people who are very credible 
in sports who will tell me privately that they think there is a 
high amount of steroid use in football. Yet when I look at the 
testing results, it doesn't appear that is the case. So it is 
still nagging at me. We can continue the conversation after the 
hearing is over to try to still think through why that is, 
whether they are wrong, or whether we are not getting all the 
information. But I have no doubt about your good faith in 
trying to deal with the problem.
    Mr. Chairman, I want to put in the record, the hearing 
record today, a letter from the parents of Efrain Marrero. Mr. 
Marrero was a 20-year-old college football player from 
Vacaville, CA. He was a caring son from a close family. In an 
effort to improve his play, Efrain turned to steroids. He felt 
he had to do this to get better and felt it was OK because he 
saw his role models, professional athletes, doing the same 
thing.
    Tragically it appears that Mr. Marrero's steroid use 
resulted in serious psychological harm that led to his suicide. 
His parents have since become active in efforts to eliminate 
steroid use by high school, college and professional athletes. 
I want them to know how much we appreciate their work. I know 
they were at our first hearing, and I thank them for their 
contribution to this hearing, and I would like to put their 
letter into the record.
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1242.108
    
    [GRAPHIC] [TIFF OMITTED] T1242.109
    
    [GRAPHIC] [TIFF OMITTED] T1242.110
    
    [GRAPHIC] [TIFF OMITTED] T1242.111
    
    [GRAPHIC] [TIFF OMITTED] T1242.112
    
    [GRAPHIC] [TIFF OMITTED] T1242.113
    
    [GRAPHIC] [TIFF OMITTED] T1242.114
    
    [GRAPHIC] [TIFF OMITTED] T1242.115
    
    [GRAPHIC] [TIFF OMITTED] T1242.116
    
    Mr. Waxman. Again, thank you, gentlemen, for your 
testimony.
    Chairman Tom Davis. What steps would an NFL coach or 
athletic trainer take if they suspect a player is taking 
steroids? Do they automatically go to a test, or what happens 
if there is a suspicion?
    Mr. Upshaw. Obviously you would have to look at the body 
itself. You would have to do it and observe what you see. As I 
said, when I was playing with a player that was taking 
steroids, it was very obvious. You could see it.
    We do have provisions for reasonable cause testing within 
the program which would be referred to our medical people to 
make the determination. The coach cannot make that 
determination.
    Mr. Tagliabue. I would think a coach would talk to the 
owner, and the owner would call me or Mr. Henderson or Mr. 
Upshaw and ask us to proceed.
    Chairman Tom Davis. Thank you very much. You have been very 
thorough.
    Mr. Payne just came in. He is not a member of the 
committee, but I ask unanimous consent he be allowed to ask a 
couple of questions. He will wrap it up, and we will let you 
go. You have been very good with your time today. We appreciate 
the delays you have had to encounter because of our voting 
schedule.
    Mr. Payne.
    Mr. Payne. Thank you very much. I certainly appreciate the 
opportunity to participate. I will be very brief.
    I am just here because of my concern in general about 
athletics, the positive part that athletics play in our 
country, and, of course, then the negative part where so many 
young people who strive to be the stars.
    Let me certainly commend the NFL in general and 
Commissioner Tagliabue for some of the programs that you have 
put in place over the years. We met years ago on the whole drug 
question, a decade ago. When we met one on one about trying to 
deal with the substance abuse of players. And now, of course, 
this is another aspect of it with steroids.
    But I would just like to say that it is important that the 
leadership of our sports leagues, whether it is professional or 
college or high school, really try to instill in our young 
people the right course; the fact that, discouraging, of 
course, as I know you gentlemen there do, the use of related 
substances and steroids and other kinds of drug-related 
substances. I think we really have to work harder at attempting 
to get the message out.
    I just want to say as a former high school coach, of 
course, in those days these were not problems, but I think if 
we work together, we could really do a job.
    Also, some of the issues of age of young people going into 
professional sports, that is another issue I think that we need 
to take a look at, because if we are going to continue to use 
younger and younger people in professional sports, they will be 
doing things to bring their bodies up to where they feel it 
should be 3 or 4 years from now.
    I would like to continue to work with you on those issues. 
I have raised the issues with the NBA on the age of youngsters 
performing in professional sports, but I just wanted to say 
that I think that we need to work together. If there is a 
problem, we need to acknowledge it is a problem and work toward 
eradicating it.
    Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Mr. Payne, thank you for joining us.
    Again, I want to thank this panel. It has been very 
illuminating. We may have one or two other questions we will 
get to you in a written format. If you could get back to us on 
that.
    Thank you so much. The hearing is adjourned.
    [Whereupon, at 4 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Jon C. Porter and Hon. 
Patrick T. McHenry, and additional information submitted for 
the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T1242.117

[GRAPHIC] [TIFF OMITTED] T1242.118

[GRAPHIC] [TIFF OMITTED] T1242.119

[GRAPHIC] [TIFF OMITTED] T1242.120

[GRAPHIC] [TIFF OMITTED] T1242.121

[GRAPHIC] [TIFF OMITTED] T1242.049

[GRAPHIC] [TIFF OMITTED] T1242.050

[GRAPHIC] [TIFF OMITTED] T1242.051

[GRAPHIC] [TIFF OMITTED] T1242.052

[GRAPHIC] [TIFF OMITTED] T1242.053

[GRAPHIC] [TIFF OMITTED] T1242.054

[GRAPHIC] [TIFF OMITTED] T1242.055

[GRAPHIC] [TIFF OMITTED] T1242.056

[GRAPHIC] [TIFF OMITTED] T1242.057

[GRAPHIC] [TIFF OMITTED] T1242.058

[GRAPHIC] [TIFF OMITTED] T1242.059

[GRAPHIC] [TIFF OMITTED] T1242.060

[GRAPHIC] [TIFF OMITTED] T1242.061

[GRAPHIC] [TIFF OMITTED] T1242.062

[GRAPHIC] [TIFF OMITTED] T1242.063

[GRAPHIC] [TIFF OMITTED] T1242.064

[GRAPHIC] [TIFF OMITTED] T1242.065

[GRAPHIC] [TIFF OMITTED] T1242.066

[GRAPHIC] [TIFF OMITTED] T1242.067

[GRAPHIC] [TIFF OMITTED] T1242.068

[GRAPHIC] [TIFF OMITTED] T1242.069

[GRAPHIC] [TIFF OMITTED] T1242.070

[GRAPHIC] [TIFF OMITTED] T1242.071

[GRAPHIC] [TIFF OMITTED] T1242.072

                                 <all>

</pre></body></html>
